<html>
<title> - DERAL AVIATION ADMINISTRATION AIRCRAFT CERTIFICATION: ALLEGED REGULATORY LAPSES IN THE CERTIFICATION AND MANUFACTURE OF THE ECLIPSE EA-500</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     DERAL AVIATION ADMINISTRATION AIRCRAFT CERTIFICATION: ALLEGED 
 REGULATORY LAPSES IN THE CERTIFICATION AND MANUFACTURE OF THE ECLIPSE 
                                 EA-500

=======================================================================

                               (110-169)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 17, 2008

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
45-108                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
MAZIE K. HIRONO, Hawaii              VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      JOHN L. MICA, Florida
JASON ALTMIRE, Pennsylvania            (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Billson, Peg, President and General Manager, Manufacturing 
  Division, Eclipse Aviation Corporation.........................    76
Broyles, Maryetta, Technical Program Management Specialist, 
  Aircraft Certification Service, Southwest Region Rotorcraft 
  Directorate, Manufacturing Inspection Office, Federal Aviation 
  Administration.................................................    27
DiPaolo, Tomaso, Aircraft Certification National Representative, 
  National Air Traffic Controllers Association...................    27
Downey, David A., Vice President, Flight Safety, Bell Helicopter-
  Textron........................................................    27
Haueter, Tom, Director, Office of Aviation Safety, National 
  Transportation Safety Board....................................    47
Kizer, Clyde, Retired Aerospace Executive........................    76
Lauer, III, Ford J., Manager, San Antonio Manufacturing 
  Inspection District Office, Federal Aviation Administration....    27
Sabatini, Nicholas J., Associate Administrator for Safety, 
  Federal Aviation Administration, accompanied by John J. Hickey, 
  Director, Aircraft Certification Service, and Ronald Wojnar, 
  Senior Advisor, Aircraft Maintenance Division, Aircraft 
  Certification Service..........................................    47
Scovel, III, Hon. Calvin L., Inspector General, United States 
  Department of Transportation...................................    10
Wallace, Dennis, Software Engineer, Rotorcraft Directorate, 
  Aircraft Certification Service, Federal Aviation Administration    27

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    84
Costello, Hon. Jerry F., of Illinois.............................    85
Mitchell, Hon. Harry E., of Arizona..............................    94
Oberstar, Hon. James L., of Minnesota............................    95
Richardson, Hon. Laura A., of California.........................   100

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Billson, Peg.....................................................   103
Broyles, Maryetta................................................   125
DiPaolo, Tomaso..................................................   133
Downey, David A..................................................   142
Haueter, Tom.....................................................   162
Kizer, Clyde.....................................................   170
Lauer, III, Ford J...............................................   183
Sabatini, Nicholas J.............................................   198
Scovel, III, Hon. Calvin L.......................................   280
Wallace, Dennis..................................................   322

                       SUBMISSIONS FOR THE RECORD

Billson, Peg, President and General Manager, Manufacturing 
  Division, Eclipse Aviation Corporation:

  Response to request for information from Rep. Costello.........   110
  Letter to the Department of Transportation's Inspector General.   115
  Response to request for information from Rep. Hayes............   118
  Response to request for information from Rep. Mica.............   122
Downey, David A., Vice President, Flight Safety, Bell Helicopter-
  Textron, Federal Aviation memorandum from Dorenda D. Baker, 
  Deputy Director, Aircraft Certification Service, to Mr. Downey, 
  titled ``Mid-Year Performance Discussion Follow-Up''...........   156
Haueter, Tom, Director, Office of Aviation Safety, National 
  Transportation Safety Board, response to request for 
  information from Rep. Costello.................................   167
Kizer, Clyde, Retired Aerospace Executive, response to request 
  for information from Rep. Mica.................................   176
Sabatini, Nicholas J., Associate Administrator for Safety, 
  Federal Aviation Administration:

  Response to request for information from Rep. Costello.........   213
  Response to request for information from Rep. Mica.............   274
Scovel, III, Hon. Calvin L., Inspector General, United States 
  Department of Transportation, responses to questions from Rep. 
  Costello.......................................................   318

                        ADDITIONS TO THE RECORD

National Air Traffic Controllers Association, Patrick Forrey, 
  President, written statement...................................   326

[GRAPHIC] [TIFF OMITTED] 45108.001

[GRAPHIC] [TIFF OMITTED] 45108.002

[GRAPHIC] [TIFF OMITTED] 45108.003

[GRAPHIC] [TIFF OMITTED] 45108.004

[GRAPHIC] [TIFF OMITTED] 45108.005

[GRAPHIC] [TIFF OMITTED] 45108.006

[GRAPHIC] [TIFF OMITTED] 45108.007

[GRAPHIC] [TIFF OMITTED] 45108.008

[GRAPHIC] [TIFF OMITTED] 45108.009

[GRAPHIC] [TIFF OMITTED] 45108.010

[GRAPHIC] [TIFF OMITTED] 45108.011

[GRAPHIC] [TIFF OMITTED] 45108.012

[GRAPHIC] [TIFF OMITTED] 45108.013

[GRAPHIC] [TIFF OMITTED] 45108.014

[GRAPHIC] [TIFF OMITTED] 45108.015



                     Wednesday, September 17, 2008,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on FAA 
Aircraft Certification: Alleged Regulatory Lapses in the 
Certification and Manufacture of the Eclipse EA-500. The Chair 
will give an opening statement, recognize the Ranking Member 
for an opening statement, and as you will note from the witness 
list, we have a number of witnesses. So what we intend to do is 
give opening statements from the Chair and Ranking Member and 
go directly to the witnesses. After my statement, I will, as I 
said, recognize the Ranking Member.
    I welcome everyone to our Subcommittee hearing on FAA 
Aircraft Certification: Alleged Regulatory Lapses in the 
Certification and Manufacture of the Eclipse EA-500.
    For the past few years, I have asked the question, does the 
FAA have adequate resources to accomplish its mission, and in 
turn, are they relying too heavily on its safety record in 
order to demonstrate its ability to keep a safe system? Over 
these past two years, our hearings in the Aviation Subcommittee 
and the Full Committee have demonstrated an agency that is 
short on resources, low on morale and has major problems 
overseeing its critical safety programs.
    Today, the Department of Transportation Inspector General 
reports that he will detail alarming problems within the FAA. I 
am extremely disappointed that the FAA, again, lacks the 
ability to oversee its programs, in this case, its 
certification programs. Unfortunately, this hearing will show 
an agency that is as interested in promoting aviation and 
befriending manufacturers as it is in carrying out its number 
one responsibility of protecting the safety of the flying 
public.
    It is inexcusable and unacceptable to ignore rules, 
regulations and standard practices to accommodate those you 
have a responsibility to regulate, especially when you have 
peoples' lives in your hands. This Subcommittee and the 
Congress and the American people entrust the FAA to uphold the 
highest level of safety. Unfortunately, the FAA's conduct 
regarding the certification of the EA-500 makes one lose 
confidence in the agency.
    The aircraft certification and production process is 
complicated, requiring very technical expertise and 
understanding. When trying to do so on an emerging new class of 
very light jets, like the Eclipse EA-500, one would expect the 
FAA to provide an appropriate amount of time and resources to 
make sure we get it right. However, questions have been raised 
by the IG and by current and former FAA employees that corners 
were cut during the certification and manufacturing process, 
deficiencies were overlooked and this new type of aircraft was 
pushed through the process in order to meet internal agency 
goals.
    As a result, the hearing today focuses on two central 
questions. One, did the FAA follow its regulations when 
certifying the Eclipse EA-500 and in the production of this 
aircraft? And two, was safety compromised? The IG, Mr. Calvin 
Scovel, will provide testimony which details very serious 
issues with the FAA's certification and manufacturing of the 
Eclipse EA-500.
    One of the most disturbing findings to me in the IG's 
report is that instead of mandating that problems be resolved, 
the FAA accepted IOUs from Eclipse to resolve the problems at a 
later date. In this case, an IOU was allowed on the avionics 
system that ran the plane. I question the practice of using 
IOUs in any instance. However, to use an IOU on the avionics 
system that is used to run the EA-500, which I understand has 
no standby instruments or backup systems, from a new 
manufacturer, who has no prior experience, and on a system so 
critical to the aircraft, is puzzling.
    Worse, according to the FAA's own testimony on pages 10 and 
11, Eclipse delivered 11 of their EA-500 aircraft to customers 
prior to the completion of the IOU on this critical avionics 
system. In an exchange of letters which I will submit for the 
record, Eclipse was to "retain control of the aircraft'' until 
the issue was closed. Clearly, that didn't happen.
    The IG will also testify that 13 known deficiencies were 
unresolved when the FAA approved the production certificate. 
This is unprecedented and a direct violation of regulations and 
yet, the FAA allowed it. Eclipse repeatedly demonstrated an 
inability to replicate its approved aircraft design on the 
production process and the FAA let them get by with it.
    Further, we will hear testimony to suggest that the FAA 
developed an inappropriate relationship with Eclipse, forcing 
FAA employees to expedite the Eclipse EA-500 aircraft through 
the certification and production approval process, even though 
serious concerns were raised. I have said time and again, 
safety cannot be compromised. In this case, the FAA is treating 
manufacturers like customers, instructing its employees to 
"build relationships with our customers'' instead of acting as 
regulators. For example, the FAA's own test pilots said the EA-
500 should not be certified as a single pilot plane because of 
in-flight concerns such as complexities of the new software and 
a minimally effective autopilot system. And the FAA agreed.
    Eclipse filed a customer service complaint. The FAA and the 
agency immediately reversed course and certified the plane as a 
single pilot aircraft. In addition, the European Aviation 
Safety Agency refused to certify the EA-500 for operations. The 
FAA should be vigilant in ensuring the highest level of safety 
and be willing to slow down the certification process, and shut 
down production of such action as warranted to protect the 
flying public. Deadlines and goals should have been adjusted 
once deficiencies were found.
    Finally, we have seen a pattern at the FAA of an agency 
that is reactive, not proactive. Only after getting briefed by 
the IG on the Eclipse certification issue and on the IG's 
recommendation did the Acting Administrator convene a review 
team to do an audit of the certification programs. The FAA 
seems to be on autopilot until pushed into action, either by 
this Subcommittee, the IG or the news media. It is not enough 
to have safety regulations in place. The FAA must enforce those 
regulations. This Subcommittee has made safety a top priority 
and the FAA and manufacturers must do the same. We cannot have 
the agency responsible for aviation safety rely on the past or 
overlook problems by rushing certification in an effort to meet 
self-imposed goals. We expect, and we deserve more.
    With that, I want to welcome all of our witnesses here 
today and I look forward to hearing their testimony. Before I 
recognize the Ranking Member, Mr. Petri, for his opening 
statement, I ask unanimous consent to allow two weeks for all 
Members to revise and extend their remarks and to permit 
submission of additional statements and materials by Members 
and witnesses. Without objection, so ordered.
    The Chair at this time recognizes the distinguished Ranking 
Member, Mr. Petri, for his remarks or opening statement.
    Mr. Petri. Thank you very much, Mr. Chairman. Thank you for 
calling this important hearing on the certification of the 
Eclipse 500 very light jet.
    If I may just comment on the question of safety, while 
expressing concern, always trying to do better, we should note 
that this is the era of maximum safety in commercial and 
general aviation in the history of the world, really, and 
certainly in the history of the United States. So it is a time 
to celebrate as well as to try to do better. I think we should 
put this whole subject in that context.
    If we were confronted with catastrophes resulting from poor 
design and planes collapsing and people falling from the sky, 
that would be one thing. But the truth is, what we have been 
doing has been effective and American aviation is reasserting 
its leadership role in the world on many fronts.
    Perhaps because the Eclipse 500 is the first general 
aviation innovation to be manufactured in the United States in 
a long time, and other planes like it, the very light jets have 
generated a lot of excitement in the aviation industry. They 
offer accessibility into the jet class for some, should make 
economically feasible new air taxi services to connect tertiary 
airports, making good use of excess airport capacity and 
further expanding the connectivity of our national aviation 
system.
    The Eclipse 500 is one model of a very light jet and it 
boasts a more fuel efficient design with the first integrated 
avionics system for this type of small jet aircraft. Because of 
these innovations, Eclipse garnered the attention of the media, 
industry, FAA and now us here in Congress. As we all know, 
aircraft certification is a very complex and difficult process, 
where deadlines and pressures are facts of life, much like the 
deadlines and pressures Members of Congress deal with when 
working on a reauthorization or appropriation bill.
    Because very light jets are a new innovation and Eclipse in 
particular incorporates cutting edge technology, the focus 
today should be on the FAA's certification methods and 
procedures. We must ensure that the Federal aviation 
regulations are keeping up with innovations in the industry. 
Innovation is at the heart of innovation. As the Wright 
brothers well understood, acceptable risk is a central part of 
discovery and development. As we strive to make aircraft more 
fuel efficient, cost efficient and more technologically 
advanced, we must also maintain our historic safety record. 
Likewise, we must be careful not to erect unnecessary barriers 
to innovation.
    Minimum safety standards and alternative means of 
compliance provided for in Federal aviation regulations allow 
for innovative aircraft designs to be certified. The minimum 
safety standards provide the benchmarks for manufacturers to 
design around and alternative means of compliance allow the FAA 
and manufacturers to address an ever-evolving technological and 
manufacturing environment. FAA's certification policies, widely 
recognized as the gold standard for safety worldwide, provide 
for appropriate safety oversight where written regulations 
cannot keep up with technological innovation.
    Today the Department of Aviation Inspector General will 
testify about irregularities in the certification of the 
Eclipse plane. The Inspector General will also testify that he 
is not drawing any conclusion about the safety of the Eclipse 
aircraft.
    While it is important for this Committee to hear about 
certification irregularities and FAA's lessons learned analysis 
of the Eclipse certification process, we must be careful not to 
jump to any conclusions that these irregularities exist outside 
of this certification project. There is no evidence to suggest 
an industry-wide certification issue. In fact, the historic 
safety record stands to refute such a claim.
    The certification process in place today has contributed to 
the safest period in the history of manned flight. The safety 
record the system is enjoying today is the result of the hard 
work of many Government and industry partners and we must build 
on that success as we go forward.
    While the FAA must remain focused on its role as a 
regulator, we have to be careful not to turn the agency into a 
hammer looking for a nail. Much has been gained from the 
industry's willingness to share mistakes with the Government 
regulators, and that professional give and take must continue 
to exist to ensure our very safe system stays that way.
    While it is possible that some of the Federal aviation 
regulations for aircraft certification may need to be reviewed, 
and perhaps altered to accommodate new kinds of aircraft 
technology, it is important to remember that the foundation of 
that certification, based on collaboration, coordination and 
information sharing, has proved successful and should not be 
changed or stifled.
    With that, I yield back. Thank you.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. Thank you, and I 
want to thank our vigilant staff for doing superb work over 
many months on the issues that we will hear about today. Your 
constancy and oversight of safety in aviation is exemplary and 
I am delighted that you are taking up the challenge.
    Safety in aviation is always only one accident, one fatal 
accident away from unsafe. Vigilance and redundancy in every 
phase of aviation are vital to the essential element of safety.
    The issue here is not innovation versus safety, but the 
process by which we achieve safety, by which FAA carries out 
its responsibility, by which it establishes and sustains what I 
called years ago the gold standard in aviation safety 
worldwide. But as Chaucer wrote, if gold rusts, then what of 
iron?
    We are going to hear today how the FAA's customer service 
initiative mistakenly treats those who are the subject of 
regulation as the customer of FAA. FAA has, if there is a 
customer, as we said in a previous hearing, it is the flying 
public. It is not the airlines. And in this case, it is not the 
manufacturer. I am very concerned. We have another example here 
that complacency has crept into the highest levels of FAA 
management, a pendulum swing away from rigorous enforcement of 
safety, rigorous enforcement of compliance to now a 
manufacturer. Previously we had an airline favorable, cozy 
relationship.
    There are significant risks posed by new aircraft and new 
technology. The 777, which is designed entirely by computer and 
whose first article was put in place without doing a prototype, 
but with all the computer technology being right on, and the 
FAA was very concerned that this would, could result in some 
slippage, was on the scene day after day, watching over 
Boeing's technology when that first side of the hull was swung 
in place and came within a millimeter of exactitude. That is 
the kind of vigilance that we expect of FAA and of the 
manufacturer, of Airbus, of Boeing, of Cessna, of all the 
others. In this case, the EA-500, with advanced avionics, 
turbine engine technology, characteristics more akin to large 
transport aircraft, it was incumbent upon FAA to establish a 
very high level of vigilance.
    And yet they had the audacity to put in their performance 
plan that the Eclipse would be certified by September 30th, 
2006. The FAA shouldn't be setting a date by which it will 
compete a certification. The date by which you complete a 
certification is when it is ready, when it meets the standards, 
when FAA can say yes or no, not when the manufacturer wants it 
and not when some higher-up in the agency says it should be 
done.
    I reviewed the documents and I looked at the type 
certificate signing exactly on September 30th, 2006, a 
Saturday. The end of fiscal year 2006, coincidentally. How 
could FAA possibly know that the aircraft was going to be ready 
for certification at that point? I have never heard of the 
agency assigning itself a date by which an aircraft is to be 
ready for certification.
    The burden of when an aircraft is ready to be certified 
falls upon the manufacturer, not upon the professionals in the 
FAA. They have to meet the standards set by the FAA, not the 
other way around. FAA should respond in a timely fashion. They 
should not set up impossible paper trails, they should not set 
up red tape obstacles. But they should not sign off until the 
aircraft is ready, not until a date is met.
    Now, as I further looked at the documentation, I saw the 
FAA Rotorcraft Certification Directorate in Fort Worth, Texas, 
which had the primary responsibility for certifying the EA-500, 
was, in my judgment, very diligent in adhering to established 
regulations for certification. And they, at least on the face 
of it, seem to have performed very well. But their decisions 
and their recommendations were routinely overruled by higher up 
FAA management, under the customer service rubric.
    So we are going to, in the course of this hearing, dig into 
the causes that led up to this system. The European Safety 
Agency has not signed off. And in May, when I addressed the 
ministers of transport of the European Union at their annual 
meeting, I was asked time and again, one after another, the 27 
ministers, what is happening within your FAA? We are patterning 
our European Safety Agency after FAA, want to partner with FAA, 
we are now having second thoughts. They were aware of the 
Eclipse problem, they were aware of the customer service 
initiative. They were concerned, very deeply concerned.
    Let's not just take the attitude, well, we haven't had a 
fatal accident. That is what in the past what was characterized 
as graveyard mentality. FAA is above that and has to remain 
above that. The purpose of this hearing is to see that they do 
in the future.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Chairman Oberstar.
    The Chair announced that myself and Mr. Petri had an 
agreement that we would go directly to the first panel, but I 
would ask Members to keep in mind the number of witnesses that 
we have, and keep that in consideration and enter your 
statements into the record. However, Mr. Hayes has indicated 
that he would like to comment. So at this time, I will 
recognize my friend from North Carolina.
    Mr. Hayes. I thank the Chairman, and I appreciate what he 
is trying to do. Passion runs high on this subject. I am 
sitting down here listening, I am getting ready to hit the 
eject button. Because my take on this is almost 180 degrees out 
of phase with my Chairman and my full Chairman. They are great 
people and I respect them tremendously.
    A couple of things. I am not a lawyer, but I heard a lawyer 
one time say, we are going to stipulate that safety is our 
primary concern. So let's write that on the wall and not refer 
back to it, because everybody here is concerned about safety. 
No question.
    The Government, Transportation, FAA has a function. It is 
to create an environment in which our citizens, our industry, 
our economy can function, under the safety banner at the 
highest possible level. Folks, the future of the aerospace 
industry is to some degree, a great degree at risk and in play 
here. Staff has been vigilant. I agree, but the conclusions, 
and I don't know who they are that staff has reached, are 
simply wrong. The FAA is not perfect any more than this 
Committee, but they were diligent throughout this process. I am 
not here representing Eclipse, I am trying to represent the 
American aerospace industry. We are in competition with the 
whole world for innovation.
    I have been flying for 40 years. Everything is different 
now. When I walk out the door every morning, should I have a 
rain coat, a top coat, a short sleeved shirt, we are talking, 
at the risk of oversimplification, in the same thing here. Mr. 
Scovel is going to bring us a report, and he is a very 
thorough, good guy. But the issue is, how do we keep the 
American aerospace industry and our economy moving forward with 
the new technology, which by the way, is crucial for American 
jobs in America, fuel efficiency, saving energy and everything 
else, how do we translate that into the traditional role of the 
FAA, putting the safest product on the market?
    I say to you, this Committee can do a tremendous amount of 
damage with our European counterparts by coming out here and 
saying the FAA is not doing their job. The folks who were in 
Fort Worth, they were doing their job. I am not questioning 
them. But when I got, and Leonard is with me, remember our 
conversation on the 430, Leonard? I got a G1000 now. I had to 
get somebody to come in and help me, because I didn't 
understand all the new innovations of the technology that was 
available.
    Well, what does the technology do? It makes a cipher, it 
gives you situational awareness, does all kinds of things. But 
it does not take away the need to fly the airplane and the 
basics were there. This is a good, solid airplane that can fly 
and help America and move us in the right direction.
    So to say that it is not safe I think is incorrect. I have 
looked at it very closely. There are three systems, we talked a 
little bit about this, that back up everything. They are all 
electronic. That is okay. Mechanical is not needed, one, two, 
three, there has never been a failure. Thirty-two thousand 
hours now in service without a problem. Five thousand hours of 
flight testing, 32,000 hours in service? Folks, we need to 
really be careful what we are doing here.
    In 2001, the process started. In 2006, we certified it. 
That is not rushing. How do we get our job done and stay safe? 
Please, everybody, take a deep breath, realize what is at stake 
here and don't go down the wrong path of saying the FAA did it 
wrong. They didn't do it wrong. Did they do it perfect? No. 
We're not going to handle this hearing perfectly, but please 
focus on the fact that aerospace is important. We have a great 
system. I think it worked. I think there are issues that we can 
deal with, 13 deficiencies out of how many thousand? You can 
cover that, Mr. Scovel.
    Mr. Chairman, thank you for indulging me. I have spent 
hours on this. I see it every day when I crank up. Thank you. 
Let's get her done.
    Mr. Costello. I thank the gentleman for his comments. Let 
me, if I can, comment, because you and I have had conversations 
yesterday, and we have been talking about this subject. Is the 
purpose of the hearing to find out, one, did the FAA follow the 
regulations when certifying the EA-500, and two, throughout the 
whole production and the process? I think we are going to hear 
testimony today, at least testimony that I have read from the 
Inspector General and from other witnesses here that brings 
those questions into play.
    Secondly, I spent, not to get off on another subject, I am 
trying to get to Members too, so we can go to our witnesses, 
this past Saturday I spent half my day, four hours, with my 
senior Senator and my colleague John Shimkus in Marion, 
Illinois, in a VA hospital in my Congressional district, where 
employees two to three years ago complained to the 
administrator at the facility that there were things going on 
at the hospital that just didn't seem right. Deaths were 
occurring.
    Long story short, because of oversight, because Congress 
stepped in and insisted that the Inspector General come in, it 
was determined that nine people died in that facility as a 
result of substandard care.
    Why do I bring that up? Our responsibility is to ask the 
tough questions. And I certainly understand that there is a 
balance you have to consider. The industry, you have to 
consider a number of factors. But our responsibility is to do a 
number of things. One of those things is oversight, and to ask 
the tough questions. That is why we are here today.
    If the administrator at the hospital in Marion would have 
listened to the employees who were complaining to him two and a 
half or three years ago, peoples' lives may have been saved. 
But he didn't listen. He said, we know how to handle it, we are 
handling it perfectly, until others stepped in, the Inspector 
General and others got involved. It is documented now, nine 
people died because of substandard care on the part of one 
surgeon and some others involved.
    So I feel very strongly, you have heard me say it many 
times, that we have a responsibility to provide oversight. That 
is exactly what we are doing today. We are looking for the 
facts, we are looking to find out what was done right, what was 
done wrong, and if we can improve upon this in the future.
    With that----
    Mr. Oberstar. Would the gentleman yield?
    Mr. Costello. I would be happy to yield to Chairman 
Oberstar.
    Mr. Oberstar. I respect the gentleman from North Carolina, 
he is a long-time aviator, with his heart in the right place. 
But he would not be flying safely if FAA had not done its 
vigilance in years past. Our purpose here is to find out what 
they slipped up on, where did they come up short, and be sure 
that they fix it for the future. That is the purpose of this 
hearing. If you listen to the facts and read the record, you 
will see that there are shortcomings that are system 
shortcomings that we have to assure that FAA fixes for the 
future. That is the purpose of this hearing.
    It is not to condemn any aircraft, any manufacturer, it is 
to find out how FAA has come up short and how we can fix things 
for the future.
    Mr. Hayes. Would the gentleman yield? I agree with you. I 
agree with you. My real concern was the way the issue was 
framed initially, the FAA is not wrong, the folks in Fort Worth 
weren't wrong, Eclipse wasn't wrong, but we can do it better 
and you are absolutely right, it is what we are here for.
    Mr. Costello. I appreciate the gentleman's comments. I 
don't agree with you that the FAA was not wrong, I think that 
they were wrong, and I think that some testimony here will 
document that, but that is the reason we are here, is to find 
that out.
    We have a vote going on on the Floor, but before we do, I 
am going to recognize the final Member of the Subcommittee. We 
will then go to the Floor. We have, I understand, one vote, and 
then will not be interrupted for some time. We have three votes 
now I am told, but I am also told that we will not have votes 
for a few hours. But you never know around here.
    With that, I will recognize the gentleman from Iowa, Mr. 
Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I will be short.
    I champion what you are doing and what Mr. Oberstar is 
doing in regard to oversight. I think we have not done as well 
as we could have done. I know, as I know the two of you, we are 
going to do better.
    At the same time, I feel, because I have cracked the 
throttle, as some of the rest of you in the room, on some 
pretty new stuff, fixed wing and rotor and so on. I had a lot 
of confidence that the checks were made. For example, Mohawk, 
Caribou and a couple of different helicopter series.
    So anyway, I think somebody said, I don't know who said it 
in the earlier remarks, that around the world, we do have the 
gold standard. Now, that doesn't mean we can't make mistakes. I 
think the fact that we take the opportunity to review and do 
oversight is good. I also want us to remember that, as I think 
in terms, and I make no bones about it, I am an advocate for 
general aviation, and I want us to be very careful, and I will 
try to be here to remind us of that, that we do appreciate that 
we have done pretty darned good. But that doesn't mean we 
shouldn't check. I think that is what I heard from you, Mr. 
Chairman, and no one will ever object to that.
    But I don't want us to think that we haven't had, through, 
many, many, we all know that a few years ago we just about did 
away with the prop-driven airplane because of, I don't know, I 
call them frivolous lawsuits in some cases. I don't want us to 
go back and get into something like that. I think it is a big 
industry in our economy, we are selling around the world. And 
people around the world that I still have some contact with 
have a great respect for the way we go about it.
    But if we can make it better, there is nothing wrong with 
that. And I do champion and I do appreciate the fact that we 
are willing to do oversight and ask the hard questions. But we 
have had a pretty good thing going and the record stands behind 
it. I just want us to keep that in mind.
    Thank you for giving me this opportunity. I will stop. I 
have more to say but I will stop there. Thank you.
    Mr. Costello. The Chair thanks the gentleman, and we will 
announce that the Subcommittee will stand in recess. We will 
return. We would ask everyone in the room to return by 11:00 
o'clock, 25 minutes from now. When we return, we will go 
directly to our first panel, to the Inspector General, Mr. 
Scovel. The Subcommittee stands in recess.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    The Chair now recognizes our first witness, the Honorable 
Inspector General of the Department of Transportation, at this 
time you are recognized, General Scovel.

  TESTIMONY OF THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
      GENERAL, UNITED STATES DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Thank you, Mr. Chairman. With your permission, 
I would like to take about ten minutes for my oral statement.
    Mr. Costello. No problem.
    Mr. Scovel. Thank you, sir.
    Mr. Chairman, Ranking Member Petri and Members of the 
Subcommittee, we appreciate the opportunity to testify today 
regarding FAA's certification of the Eclipse EA-500 Very Light 
Jet. Over the past several years, multiple manufacturers have 
designed a new class of aircraft called Very Light Jets, or 
VLJs. VLJs are small aircraft with advanced technologies that 
cost less than other business jets but operate at similar speed 
and altitude. In 2006, FAA certified the first VLJs, one of 
which was the Eclipse EA-500, a six-seat jet aircraft that 
featured advanced avionics and better fuel efficiency.
    Mr. Chairman, I would like to take a moment and establish 
from the outset what this case is about and what it isn't 
about. First, it isn't about an unsafe aircraft that must be 
grounded immediately. This case isn't about a certification 
process that is riddled with flaws and must be revamped from A 
to Z. My office has not examined the certification process at 
large.
    This case isn't about the longstanding practice of FAA to 
recognize alternative means of compliance and equivalent levels 
of safety, a practice that is generally sound and makes sense. 
This case isn't about an FAA field office run amok. While their 
bedside manner in dealing with the manufacturer could have been 
better, local FAA officials acquitted themselves well and 
honorably in making difficult technical and safety-related 
decisions.
    What this case is about is a strikingly accommodative 
approach to an effort by a new, untested manufacturer using new 
technology and a new business model to put a high-speed, high-
altitude jet in the hands of relatively inexperienced private 
pilots. This case is also about an intensely calendar-driven, 
not event-driven, effort to certify an aircraft by a date that 
was selected a year before.
    It is also about a certification process that has a long 
history of success involving FAA and the industry, but in this 
case was removed from local officials and controlled, indeed 
driven by, officials in FAA headquarters. Finally, this case 
does raise questions about whether FAA focused exclusively on 
safety as its highest priority, as mandated by law.
    We now turn to the specifics of our investigation. In March 
2007, we received FAA inspector complaints that the Eclipse jet 
was pushed through the certification process too quickly. A 
significant issue overshadowing FAA's certification of the EA-
500 is that with the inherent risks associated with a new 
aircraft utilizing new technology, produced by a new 
manufacturer, and marketed with a new business model, FAA 
should reasonably have been expected to exercise heightened 
scrutiny in certifying this aircraft.
    In addition, because the EA-500 has advanced avionics and 
turbine engine technology typical of large transport aircraft 
but also is light in weight like smaller private aircraft, it 
did not fit easily into FAA's existing certification framework. 
FAA chose to certify the EA-500 and other VLJs using 
certification requirements for general aviation aircraft, 
rather than the more rigorous certification requirements for 
larger transport aircraft.
    However, in a post-design certification lessons-learned, 
internal review of the Eclipse project, which is included in 
our handout, FAA managers acknowledged at page eight that the 
general aviation certification requirements were "inadequate to 
address the advanced concepts introduced on this aircraft.''
    In certifying the EA-500, FAA asserts that it met all 
pertinent certification regulations. However, the results of 
our investigation to date show a combination of actions and 
inactions on the part of FAA indicating that it expedited the 
certification processes for the Eclipse EA-500. First, during 
the design certification of the EA-500, Eclipse applied for and 
FAA approved alternative means of compliance for the aircraft's 
avionics software and airspeed and altitude indicators.
    While FAA guidance concerning this process allows for 
deviation from normal accepted practices, we are concerned 
about the level of review that FAA conducted in certifying the 
software. For example, FAA did not require the software to be 
approved to the accepted industry standard before 
certification. Instead, FAA accepted an IOU from Eclipse that 
stated the aircraft would meet the accepted industry standard 
at a later date. However, when FAA issued the design 
certificate, Eclipse's software supplier had only completed 23 
of the 65 required tests.
    The supplier subsequently completed all 65 tests by June 
2007. However, EA-500 users continued to report problems with 
cockpit instrumentation as recently as May 2008.
    A June 2008, incident involving the EA-500 heightened 
attention regarding the aircraft's design certification. The 
incident involved an EA-500 that was on approach to Chicago 
Midway Airport when it experienced throttle failure. After 
consulting the emergency procedures, the pilot shut down one of 
the engines. However, this action caused the second engine to 
roll back to idle power and be unresponsive to the throttle. 
The two pilots declared an emergency and were able to land the 
plane without injury to themselves or their two passengers.
    During its investigation into the incident, NTSB expressed 
concern about the reliability of an assembly that failed after 
accumulating only 238 hours and 192 cycles. NTSB also raised 
concerns that the problem could be due to flaws in the design 
logic for the software that controls the engines. As a result 
of this incident, FAA engineers reexamined the software that 
controls the engines and discovered software logic flaws that 
should have been resolved before design certification.
    At the end of June 2008, the local FAA certification 
manager sent a memorandum to the manufacturer requiring Eclipse 
to develop an approach to bring the aircraft design into 
compliance for that system. Eclipse is currently addressing 
FAA's requirement.
    Second, FAA awarded Eclipse a production certification, 
even though the Agency knew of deficiencies in the company's 
supplier and quality control systems. To receive a production 
certificate, manufacturers are required to undergo FAA quality 
control reviews and an FAA production certification award 
review to determine if they have complied with all regulations. 
FAA's quality control reviews, which began in July 2006, 
identified numerous deficiencies, with 42 serious deficiencies 
identified as late as February 2007.
    The production certification board completed its review on 
April 2007, the same day the production certificate was 
granted, and identified two serious overarching deficiencies 
relating to Eclipse's supplier and quality control systems. 
Despite the impact these issues could have on the production 
process, FAA awarded the production certification to Eclipse 
with 13 known production problems.
    Further, even after granting the production certificate, 
FAA audits of Eclipse supplier controls found significant 
deficiencies. In seven out of seven Eclipse suppliers audited, 
FAA investigators identified serious non-conformities involving 
issues such as non-conforming parts, uncalibrated tools, and 
supplier personnel using outdated manufacturing specifications. 
At the largest user of the EA-500, for example, mechanics found 
problems with Eclipse supplier-manufactured parts on 26 of the 
28 EA-500 aircraft operated by that company.
    Finally, results of our investigation indicate that FAA's 
desire to promote the use of VLJs may have contributed to its 
decision to accelerate the Eclipse certification process. A 
significant concern surrounding this issue, Mr. Chairman, is 
that FAA specifically designated the Eclipse VLJ as a priority 
project for certification. In its fiscal year 2006 performance 
plan, FAA's aircraft certification service identified Eclipse 
as a priority, stating flatly that it would certify an Eclipse 
small jet by September 2006. Our handout includes a copy of the 
cover sheets of those performance plans.
    Although FAA met this deadline, this specific designation 
as a priority certification may have resulted in reduced 
vigilance on the Agency's part during the aircraft's design and 
production certification processes. We identified four other 
FAA actions that raise concern regarding the Agency's safety 
oversight focus in this matter. First, FAA granted Eclipse 
authority to certify its own aircraft for airworthiness far 
earlier than other new VLS manufacturers, specifically, 4 years 
before Eclipse obtained a design certificate for its aircraft. 
However, it is not clear why FAA determined that Eclipse met 
the qualifications to perform its own inspections, since 
Eclipse was a new manufacturer with no history of manufacturing 
an aircraft or shepherding a design through the design 
certification process.
    In one instance, Eclipse presented an aircraft to FAA for 
airworthiness certification with approximately 20 airworthiness 
deficiencies, even though an FAA-approved company inspector had 
previously inspected the aircraft for airworthiness and found 
no non-conformities. Second, in response to a customer service 
complaint launched by Eclipse, FAA granted single-pilot 
operation certification for the EA-500 despite FAA Flight 
Standardization Board concerns.
    Third, FAA replaced the inspection team overseeing Eclipse 
and restricted the new team's inspection activities. In a six-
page letter of reprimand, FAA officials stated that the manager 
failed to meet expectations associated with meeting its 
customer service initiatives. Fourth, a former FAA engineer 
assigned to the Eclipse project took a position as director of 
certification for Eclipse immediately after leaving FAA without 
a cooling-off period.
    Mr. Chairman, at our recommendation, FAA established a 
special certification review team last month. The team 
completed its assessment last week and concluded that the 
design certification of the Eclipse was appropriate because it 
met FAA requirements for the focus areas reviewed. We received 
a copy of the team's report on Saturday and are reviewing its 
findings and recommendations.
    However, based on the interim results of our own 
investigation, in which we have been assisted by independent 
contract aviation safety experts, we recommend that FAA take 
several immediate actions. Those include, one, verify that 
certification of the EA-500 for single-pilot use was 
appropriate; two, expedite its proposed rulemaking to clarify 
certification requirements for the expanding VLJ industry 
segment; and three, evaluate the propriety of granting new, 
inexperienced manufacturers authority to certify the 
airworthiness of their own aircraft prior to design 
certification.
    That concludes my testimony, Mr. Chairman. I would now be 
happy to answer any questions you or other Members of the 
Subcommittee may have.
    Mr. Costello. Thank you, Mr. Scovel. I have a number of 
questions. On I think it is page 21 or 22 of your testimony, 
you indicate, actually page 20, the FAA granted Eclipse 
authority to certify its aircraft for airworthiness before 
proving the design far earlier than it has for other VLJ 
manufacturers. Then you state at the bottom of page 20, 
``Eclipse is the only operating VLJ manufacturer to receive its 
ODAR authorization before the aircraft design was approved by 
the FAA.''
    First, for the benefit of the record and those here, 
explain what the ODAR gives the authority of a manufacturer to 
do, and then I will have another question.
    Mr. Scovel. Yes, sir, thank you, Mr. Chairman.
    ODAR stands for Organizational Designated Airworthiness 
Representative. It is a system employed by the FAA as part of 
its overall designee program, which enables it to maximize its 
own resources, by tapping into expertise in the industry, 
residing either at manufacturing or at maintenance 
organizations. A manufacturing organization must show that 
specific individuals in its employ have the experience and 
expertise to inspect aircraft owned, repaired, or being 
manufactured by the organization to FAA's requirements. FAA 
will then grant that company an ODAR designation. The 
designated employees remain on the company's payroll, but are 
in a special status, almost as a deputy for FAA's purposes in 
this regard.
    Mr. Costello. And the ODAR was issued on, according to the 
chart on page 21, on September 3rd, 2002. The design 
certificate was not issued until September 30th, 2006, is that 
correct?
    Mr. Scovel. That is correct, sir. For the record, I want to 
make clear that our statement at the bottom of page 20, where 
we say Eclipse is the only operating manufacturer to receive 
its ODAR authorization before the aircraft design was approved, 
we are referring specifically to the VLJ manufacturers in table 
3 at the top of page 21.
    Mr. Costello. As a new manufacturer, do you think that 
Eclipse could have possibly demonstrated this level of 
expertise to receive that designation four years prior to the 
design certification?
    Mr. Scovel. In the experience of my staff and the aviation 
safety experts we are relying on, sir, it would be very 
difficult. Eclipse was founded in 1998. This particular 
aircraft that they were advancing at the time was their first 
production effort. For a brand new company like that to stand 
up, to find the expertise, to hire those employees, and then to 
successfully present that case to FAA would have been 
difficult, sir.
    Mr. Costello. So you question the certification of ODAR in 
this circumstance, is that correct?
    Mr. Scovel. In this circumstance, and I do want to make 
that clear. My office has been familiar for a long time with 
the designee program, the ODAR practice specifically. Our 
questions concern how it was applied in this case.
    Mr. Costello. Another question concerning the IOUs. In 
other words, for the FAA to tell Eclipse that instead of 
meeting a particular standard for certification or satisfying a 
concern or a deficiency that you can just get back with us at a 
later date and tell us that this is addressed. I would like you 
to comment on the IOUs, because I know they have been used in 
the past. Is it commonplace in the certification program, and 
in this case, do you think it was appropriate?
    Mr. Scovel. IOUs are used by FAA, as you mentioned, sir. 
The requirement to meet FAA certification standards can be met 
flat-out by an applicant. FAA also has authority under its 
regulations to grant a waiver from certain requirements, if the 
applicant can show that those requirements will not apply 
specifically to the aircraft held out for certification. An 
applicant can also request an equivalent level of safety 
finding, which is, simply put, an effort by an applicant to 
show FAA that is has another way to skin the cat. In other 
words, there may have been a generally prevalent method in the 
industry for applicants to satisfy specific technical 
requirements_but this particular applicant may have another 
way.
    In addition, a more informal practice has been the IOUs. It 
is not unusual for them to be granted. In our review here, both 
Boeing and Sino Swearingen have been afforded IOUs, but 
customarily, they are for non safety-related pieces of the 
airplane. This case, which involved the avionics software with 
a new model of aircraft that relies exclusively on the avionics 
for safe operation, calls into question the practice of an IOU.
    Mr. Costello. Does it disturb you, as I mentioned in my 
opening statement, the fact that the manufacturer, Eclipse in 
this case, was granted the authority to deliver 11 of the EA-
500s to their customers before deficiencies were addressed and 
IOUs were given on those deficiencies, is that standard 
practice?
    Mr. Scovel. It is not standard practice. That is frankly 
alarming to me, sir. Particularly since it appears that FAA 
attempted to limit the distribution of aircraft that may have 
been held subject to the IOU, that may have been a reasonable 
restriction at the time. However, it appears the company went 
beyond that.
    Mr. Costello. And they in fact did not retain control over 
those 11 aircraft. They in fact delivered them to customers.
    Mr. Scovel. Yes, sir. My office is working to verify that 
information.
    Mr. Costello. With deficiencies remaining?
    Mr. Scovel. Yes.
    Mr. Costello. You heard Chairman Oberstar comment on the 
control of the aircraft as certified, almost exclusively in the 
control of the manufacturer, not the FAA. Would you say that it 
is highly unusual for the FAA to say internally, we are going 
to certify this aircraft by September 30th of 2006, or a 
specific date, driven by, internally within the FAA as opposed 
to the manufacturer?
    Mr. Scovel. It is unusual, and in this particular case, 
sir, it gave rise to our characterization of this certification 
process as a calendar-driven rather than an event-driven 
process. In our handout, which was made available to all the 
Members, there are copies of the pertinent pages from the 
business plans of the different FAA entities. The Members can 
follow the progression from an appropriately high-level 
statement of an initiative at the FAA Headquarters level 
through the aviation safety business plan, which states simply 
as a target to issue a type certificate for a new model 
aircraft by September 2006, and that characterization as a 
target may be appropriate.
    However, by the time you get to the bottom of the page, and 
here we are talking about the aircraft certification service 
performance plan, there was a specific reference, not only to 
issuing a type certification by September 2006, but a specific 
statement that Eclipse Aviation will obtain type certification 
for a small jet powered by a Pratt and Whitney 610 engine and 
using extensive new technology avionics. It appears to us, sir, 
to indicate a predetermined outcome. This performance plan 
would have been drafted a year in advance, because it would 
have been published at the beginning of the fiscal year. It 
looks like a self-fulfilling prophecy, sir.
    When our dedicated FAA employees read that, they know what 
their marching orders are, sir.
    Mr. Costello. So it was clear to you that they knew the 
certification date and they had to meet it?
    Mr. Scovel. Yes. It is a statement of the priority on which 
management attached this particular project. It appears to be, 
as I mentioned, a self-fulfilling prophecy. Certainly, while 
dedicated, ethical employees would have raised objections, I am 
sure, it becomes a goal and something that people are going to 
work very, very hard for. That was clearly the case here.
    Mr. Costello. Two final questions and then we will have an 
opportunity to come back. You mentioned that you have had a 
chance to review the FAA's special certification review team's 
report. You mentioned some of your views of that report. Can 
you elaborate for us?
    Mr. Scovel. Yes, sir. I mentioned that we had received the 
SCR report, the special certification report, over the weekend. 
We are currently reviewing it. We will be following up this 
testimony with a full audit report that we will discuss the SCR 
report in more detail.
    Let me pick up on what I started my oral statement with, 
about what it is and what it isn't. Here is our initial take on 
the SCR report. It is a commendable response by the FAA to my 
agency's strong recommendation in July that it undertake a 
special review of the Eclipse certification.
    The report is a comprehensive examination by a well-
regarded team of aviation safety experts of several narrowly 
focused, highly technical questions that appear to be left open 
in the rush to issue a type certification, and I do emphasize 
type certification here, to Eclipse not later than September 
30th, 2006.
    It appears to us, however, that this report is not, we know 
it is not, the last word. We know that this Committee will 
continue its work, as will my office. We also know that this 
report is not a review of the process leading up to the 
decision to issue the production certificate. It was limited to 
the type certification only, and that is a good thing, because 
the SCR's objectivity on the production certification point 
could fairly be questioned. Mr. Ron Wojnar, who headed the 
final production certificate surge in March and April 2007 also 
served as a member of the SCR team.
    Our testimony also makes clear that the PC decision itself 
is difficult to defend or explain. For the record, sir, I would 
like to say that I had a conversation this morning with Mr. 
Sturgell, the Acting Administrator of FAA. He indicated to me 
that in the near future, the Agency intends to mount a review 
effort that is similar to this SCR but focused on the 
production certification side.
    One final remark, sir. The necessity for this review and 
its findings confirm for us that a ``better late than never,'' 
or a ``fill in the blanks later'' process was employed, first 
to make the decision to issue the type certificate and then to 
shore it up after FAA's staff, with inside knowledge of the 
case, lodged complaints with my office and with this Committee. 
It is an outstanding report, but it should not be used as an ex 
post facto justification for the decision to issue the type 
certificate.
    Mr. Costello. Thank you, Mr. Scovel.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much. I am approaching this as a 
layman. I am not, like Mr. Hayes and some other colleagues, a 
licensed pilot. I use the services frequently, to keep this in 
context.
    Our Chairman took us to Everett, Washington a couple of 
months ago and we got to see the new Dreamliner, which has a 
lot of new technology. It is a whole new step in aviation, the 
first time a plane will be able to fly non-stop from London to 
Sydney, Australia and so on and so forth. The people who are 
building it said this is 50 year old technology, it is B1 
bomber technology now getting its civilian iteration. There 
have been a lot of changes in military stuff in 50 years, so we 
will see an avalanche of new technology coming through to get 
the certification process going forward.
    How long did this certification take from beginning to end, 
do you know?
    Mr. Scovel. About 5 years, Mr. Petri. It began in 2001, as 
I understand it. It proceeded through, well, type certification 
September 2006, with ultimate production certification on April 
26, 2007. So, about 5 and a half, to 6 years.
    Mr. Petri. If they hadn't done things like, I guess they 
call these IOUs or other ways of trying to do concurrent 
review, do you have any idea how long it would have taken if 
they had done it sequentially?
    Mr. Scovel. Hard to say, and I don't want to speculate. I 
can say that with the grant of type certification in September 
2006 and the IOU specifically on the avionics software 
question, that avionics software question was not fully closed 
out using the accepted industry standard until June 2007. So it 
is safe to say that perhaps it would have been at least June 
2007, and, if FAA had identified other items that required 
further work, it might have been longer than that.
    Mr. Petri. Is any of this driven by personnel issues in the 
sense that they have a lot more new technology? We had 40 or 50 
years because of liability issues and this sort of thing, when 
there was not that much real new innovation, new models, 
airplanes were not being domestically manufactured in the 
United States because of, I guess the liability crisis? Now we 
have solved that. Do you have any impression as to whether they 
could be overtaxed, or we should be doing more contracting out 
or trying to get more technical expertise into the 
certification process based on this particular thing? Or is 
everyone up to the job?
    I get some since that people are used to doing it the old 
way, a little slower pace, comfortable technology. Now a lot of 
things are new, and I am not going to approve it until I 
understand it and I don't understand it and maybe some things I 
will never understand and yet the world goes on. We can't 
really demand that the world revolve around Government 
inspectors. We have to figure out some way of striking a 
balance and allowing technology to go forward, or the world 
will go forward without us.
    Mr. Scovel. Most certainly, Mr. Petri, I couldn't agree 
with you more. FAA has known for some time that VLJs were on 
the way. In this case, again, focusing on this case and noting 
clearly for the record, I hope, that my office has not 
undertaken any review of the certification process at large, it 
appears to us to have been working well for FAA and the 
industry. However, in looking at this case, we can say that FAA 
was somewhat off the mark in, well, frankly, it should have 
developed certification standards in advance of the advent of 
VLJ's, so that it would have been prepared to inspect VLJs 
against the proper standard.
    That is one of the observations of FAA itself in the 
lessons-learned slide presentation, the Power Point 
presentation that I provided to each Member. At page 8, under 
observations, and this was a lessons learned meeting that was 
convened in November 2006, FAA acknowledges that Part 23 
regulations, those are the general aviation certification 
regulations, are inadequate to address the advanced concepts 
introduced on this aircraft. The special certification review 
that concluded last week also stated that Part 23 regulations 
were "not valid'' for use in certifying VLJs.
    That is certainly one aspect of FAA operations that needs 
attention. Thankfully, the Agency itself recognizes that, and 
in our testimony we have urged the Agency to move as quickly as 
it can on this score.
    Mr. Petri. One last quick question. When do you expect your 
final report? We have heard about deadlines and things. Have 
you set yourself a deadline for the report? Or would that be 
improper?
    Mr. Scovel. I have to be careful with deadlines, sir, 
especially in this setting. We are proceeding as fast as we 
can, and I regret that I can't give you a date certain at this 
point. If I can get back to you, sir, as soon as we have a 
firmer picture, I would be happy to.
    Mr. Petri. Thank you.
    Mr. Scovel. You are welcome, sir.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Mr. Scovel, you have done a superb service to aviation with 
your report, your inquiry, the issues you have raised, the 
lessons learned that you have compiled and observations in the 
document you submitted to the Committee. When I look over the 
categories, if you will, avionics software issues, airspeed and 
altitude indicator problems, the pitot static systems problems, 
intermittent erroneous stall warnings, cockpit display 
failures, flap movement failures, service difficulty reports, 
there is a compendium of problems with this aircraft and with 
FAA's oversight of this aircraft. Didn't that trouble you as 
you went through, reviewed their process?
    Mr. Scovel. It does trouble me, sir, and I would like to 
put that in context. I am looking specifically at the decision 
of FAA to grant type certification on September 30, 2006. At 
that time, it was clear that the avionics software didn't 
measure up. FAA chose to deal with it with an IOU.
    Regarding the pitot static system, which indicates airspeed 
and altitude and rate of climb information to the pilot, that 
was handled through an equivalent level of safety finding. It 
is noted in our testimony, and you may hear about it from 
witnesses in subsequent panels, that the equivalent level of 
safety finding was first requested of the certification office 
immediately responsible for the Eclipse project. The inspectors 
declined, based on their technical expertise, to grant the 
equivalent level of safety finding. It was then referred to 
another certification office. They did a review and determined 
that they could satisfy it. But, there was at least one office 
that hadn't made this determination.
    Regarding the other problems that you mentioned, sir, those 
should have been squarely in FAA's sights at the time. Because 
those had been highlighted during the function and reliability 
flight testing that was conducted over a span of about 2 weeks 
immediately before the September 30, 2006 decision.
    In talking with my staff, I heard the well-known phrase, 
and you all remember it on this Committee, ``what did they know 
and when did they know it?'' Here, we are talking about FAA. 
What did FAA know and when did they know it? At September 30, 
2006, they knew a lot. It strikes us, and it struck our 
contract safety experts, who are independent experts that a 
reasonable decision on September 30, 2006 might have been to 
defer the granting of the type certificate.
    Mr. Oberstar. That is what occurred to me when I read 
through the documentation. I know I discussed the matter with 
Chairman Costello, whose career before Congress included long-
time service as a police investigator, with fine attention to 
detail. I have not known of any certification process in which 
FAA issued an IOU and then said, you are certified but you can 
come back and fix this later. They always insisted on fixing 
first what needs to be fixed. Are you aware of any other case 
like that?
    Mr. Scovel. I cannot answer that question, sir. We haven't 
examined other certification processes, individual cases, or 
the certification process at large. So I really have no basis 
on which to answer, sir.
    Mr. Oberstar. One of the issues is that the test pilots at 
FAA were opposed to approving the aircraft for single pilot 
operation. Yet the FAA overruled their own pilots. What was 
their justification for overruling the pilots?
    Mr. Scovel. This is an area that we intend to follow up on 
as we proceed with our advanced audit work. Because at this 
point, there certainly appears to have been a controversy.
    Let me run through the chronology. It is clear that the 
company wanted single-pilot designation, so as to market to 
individual buyers. This was part of the business model.
    The FAA's Flight Standardization Board pilots had concerns 
based on their test flights and determined that the aircraft 
that they were flying would have presented an undue burden on 
one pilot. Some of those concerns were cockpit displays 
freezing up, discrepancies with the airspeed and altitude 
indicators, and a minimally effective autopilot system. It has 
been pointed out to us that the aircraft that Eclipse offered 
to the FAA test pilots was ``a non-conforming aircraft.'' We 
need to run that to ground, frankly. It is puzzling why the 
company whose business model depends greatly on single-pilot 
operations would make a non-conforming aircraft available to 
FAA for this critical test pilot run. We would like more detail 
on that.
    In any event, however, at the conclusion of its testing, on 
December 13, 2006, the Flight Standardization Board recommended 
a two-pilot crew. On December 15, 2006, the Chief Executive 
Officer of Eclipse initiated a customer service complaint. On 
December 21, the Director of the Flight Standards Service 
issued a letter back to Mr. Raburn, President and CEO of 
Eclipse, in which, and I apologize, if I may read into the 
record segments of the letter, and I can provide the complete 
letter for the record.
    "Mr. Raburn, thank you for your letter dated December 15th. 
Specifically, Eclipse took exception to the FSB's preliminary 
determination that the Eclipse 500 required a two-pilot crew to 
operate safely. In an effort to be responsive to your concerns, 
a teleconference took place on December 18th between FAA and 
your staff. Addressing your main point of concern, I agree with 
the assertion made by Eclipse that the 500, as evaluated by the 
Aircraft Certification Service, is certificated as a single-
pilot IFR airplane. Flight Standards,'' and this is a separate 
office within FAA, "Flight Standards asserts that the proposed 
Eclipse aviation training program, as reviewed by the Flight 
Standardization Board is inadequate in preparing an applicant 
to pass a single-pilot type certification check. The FAA would 
like to work with Eclipse to determine the proper level of 
training, checking and currency requirements needed to support 
safe single-pilot operations in the 500. I am confident,'' and 
I am jumping to a couple other sentences toward the bottom of 
the letter, "I am confident that both FAA and Eclipse will be 
positioned to complete the 500 certification process. I want to 
assure you that Flight Standards will do everything possible to 
work with Eclipse Aviation in assuring a successful conclusion 
to our efforts.''
    There is no mention of type non-conformity as one might 
expect in such a letter, if that were a fundamental source of 
disagreement between FAA and the applicant. We promise we will 
run that further to the ground. But it is clear, too, that what 
the company had done was come back to FAA strongly urging that 
this was a training program rather than a hardware program that 
a single pilot would find difficult to operate. And FAA was 
attempting to work that out.
    The ultimate result was January 27, 2007, after further 
work by the Flight Standardization Board, the two-pilot 
recommendation was set aside and the Eclipse was certified for 
single pilot.
    Mr. Oberstar. If that had been the case in the incident 
that you describe in your testimony that we discovered in our 
inquiry into this matter of the aircraft up at 41,000 feet, and 
trying to power down there and it didn't work, at that point, 
isn't a two-pilot situation safer?
    Mr. Scovel. It strikes me that it would be. I will defer to 
the NTSB expert who will follow on a panel after me. The NTSB, 
of course, specifically investigated the incident over Midway. 
It is clear that having two pilots in that aircraft, and that 
aircraft was at the time being operated by two pilots, was 
instrumental to the safe outcome of that event. Also, the 
incident occurred over an airport, and they had some lucky 
breaks on that one, so it worked well.
    The pilots on my own staff, if I may take just a moment, 
sir, on this two-pilot question, to point out_and they are 
recreational, kind of weekend warrior type pilots_if they were 
well-off enough to buy a VLJ and found themselves in an Eclipse 
500, at night, at altitude, heavy weather, alone, and a cockpit 
display screen blanked out, they look to the other cockpit 
display screens, observe that altitude data differed between 
those two airscreens_and those are problems that had been 
identified with the avionics long before_they would consider 
themselves in a fine fix.
    Mr. Oberstar. Well, safety in aviation should not depend on 
lucky breaks. And the expression, as we heard earlier, oh, FAA 
has done everything by the book, they haven't. They clearly 
haven't. They have made some major mistakes on this process.
    One last one, for the moment, at any rate. FAA uses 
different standards for aircraft, certification for aircraft 
with fewer seats. Why should the number of seats be 
determinative? Why shouldn't complexity of the operation of the 
aircraft be determinative of the depth and extent of the 
review?
    Mr. Scovel. Historically, the number of seats and the 
weight of the aircraft were useful measures for industry and 
FAA to determine which set of regulations an aircraft should be 
subject to. As a result of this case, and to its credit, FAA's 
own efforts along these lines, they have recognized that 
specifically with respect to VLJs, those measures are no longer 
valid, in the words of the SCR team that just reported out last 
week. FAA is working to develop regulations that will apply 
specifically to this new VLJ segment of the industry.
    Mr. Oberstar. Do you think FAA has learned the lessons of 
this experience with Eclipse?
    Mr. Scovel. Every lesson helps. We will see over time, sir.
    Mr. Oberstar. We will see over time is right. We will 
follow them over time as well.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    For the edification of the audience, Mr. Costello and 
Chairman Oberstar had a wonderful conversation, as we always 
do, on the Floor after our last conversation here. Mr. 
Chairman, I might suggest, taking up on that conversation, Mr. 
Boswell was involved, too, really important questions here. Mr. 
Scovel is a great inspector general. But his answers to certain 
questions need to be put side by side with the FAA's answers on 
the same questions, and the aerospace industry answers to the 
same question. All of us have a perspective.
    What you just said about the weekend warrior being at 
41,000 feet in heavy weather, he is not going to be there. 
There is a firewall that nobody has mentioned here in this 
process. It is the insurance industry. Nobody is going to issue 
an insurance policy to someone that is totally unqualified.
    Now, things happen. People who are beyond their 
capabilities get in trouble. Again, for clarification, 
autopilots, AHARs, all this stuff, are nice conveniences for 
pilots. But it doesn't change the basics of flying the 
airplane. So in the single-pilot thing, this airplane is so 
much simpler to fly than a typical piston twin, as a general 
statement, there is nothing wrong, there is everything right 
with this being a single-pilot program.
    Not a criticism of Mr. Scovel, but simply, there are a lot 
of perspectives that have to be applied to this as we search 
for the right answer. Again, I don't think the FAA was wrong in 
all this. Type rating, you have to have a type rating if the 
airplane weighs more than 12,500 pounds. It weighs 6,000. So 
again, all these perspectives need to come into play.
    The issue, and Mr. Scovel, I have seven good questions 
here, and I would like to submit them to you for the record to 
get answered. I would also like to submit them to the other 
panelists so we can again, side by side, put that information 
together as we evaluate. The first question is the important 
one. Is the Eclipse a safe airplane to fly, from your 
perspective?
    Mr. Scovel. Mr. Hayes, you are being gentle with me, I 
appreciate that.
    [Laughter.]
    Mr. Scovel. You have called me this Committee's hired 
skeptic before. I thought you were going to change that to the 
Dr. Kevorkian of the aircraft industry, and I am glad that is 
not going to happen.
    Is the Eclipse 500 safe? My office has no evidence that it 
is unsafe, and I would like to put that----
    Mr. Hayes. That is a very good way to answer the question. 
Because all of us have different levels to pug into this thing. 
I am trying to think, again, the redundancy here is remarkable. 
Back in the good old days, when Leonard and I were coming 
along, we didn't need redundancy, because there wasn't anything 
to fail. You had the needle ball and airspeed. That is still 
there, except now it is electronic. I got so many notes as we 
went along, issue of deadline. I think we should eliminate 
talking about deadlines. Everybody has a time line. Now, I am 
confident, it doesn't always happen, everybody involved here, 
if we had reached the time line, whatever the date happened to 
be, 2006 in this case, if this airplane were unsafe, somebody 
at the lowest level, medium or high level, could say, stop the 
parade, this is not going on the marketplace.
    So again, I think it is important that that feature is 
there. Do we always apply it? If it weren't for time lines, in 
the case of Congress, you have to say deadline, how would we 
ever get a bill to the Floor? Regardless of who is in charge, 
there is a certain business function to having a time line so 
that we can organize our priorities.
    So again, Mr. Chairman, your indulgence is much appreciated 
and your fine staff member, who I think the world of. As we 
look forward to ADS-B and next generation aircraft, as again, 
under the safety banner, we have to make sure that we as 
Congress and different departments have the ability to raise 
our sights and levels of expertise so that we can keep American 
industry ahead of foreign competitors, Japan, Brazil, 
Czechoslovakia and a number of other countries are working to 
beat us in this marketplace. We safely want to be out there 
ahead of them.
    But again, one last thing, the anomaly that occurred with 
the throttle, if you had sat down with the design team, that 
would never have come up. Physically, the pilot pushed, because 
of a go-around situation--it wasn't 41,000 feet--the throttle, 
which is a piece of metal, into another piece of metal. If this 
metal had been harder than this metal, it wouldn't have 
happened. But it went through the stop and it created a 
situation, it told the computer, we need to go to 80 percent, 
we need to go all the way.
    So you look back, and you are dealing with a situation 
that, I don't know how you would have anticipated it, but it 
did happen, so now we deal with it in retrospect. But it was so 
unusual, a one-pilot, two-pilot, the pilots did what they 
should have done. I have too much power, how am I going to get 
rid of it? Well, I have to shut one of them off. So again, it 
is not a remarkable situation, they are trained pilots. If you 
are going to fly a light sport aircraft, and that is out there 
kind of competing with VLJs, you have to have the proper level 
of training. FAA is very much involved in a big part of that.
    Counterforces, we want to have new innovation that makes it 
safer, easier to fly, lots of gee whiz things, over here, 
safety of flying is still the basics. Aviate, communicate, 
navigate, aviate first.
    Mr. Chairman, thank you.
    Mr. Oberstar. Would the gentleman yield? It wasn't a metal 
on metal problem. It was a software problem.
    Mr. Hayes. The software problem occurred after the human 
problem happened.
    Mr. Oberstar. No, there was a software problem and it was 
so admitted by FAA, so diagnosed by the Inspector General. That 
is the kind of thing that should have been fixed first before 
that aircraft went up.
    And I appreciate what the gentleman says about deadlines, 
but when the aircraft is not ready, the deadline should come 
last, not first.
    Mr. Hayes. I agree with the deadline last, not first. But 
reclaiming my time that I have, if a human being had not pushed 
a piece of metal through another piece of metal, the software 
would not have said what it said. He shouldn't have been able 
to do that. He did it. Nobody would have thought, who is going 
to jam the throttle through the stop?
    Mr. Oberstar. Okay.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. I yield, Mr. Chairman.
    Mr. Costello. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    Mr. Scovel, thank you for your fine presentation, as usual. 
I am looking at one of your bullet points here about the FAA 
granting Eclipse authority to certify its own aircraft for 
airworthiness four years before obtaining a design certificate. 
That seems to me to be something that shouldn't happen. I just 
don't understand how that makes sense.
    During the last few years we have had more and more 
information come out before this Committee about the failure of 
FAA to perform adequate oversight over the companies the agency 
is supposed to be regulating. Too many other occasions, we have 
seen a cozy relationship between the agency and the airlines 
putting the safety of the American public at risk, and now we 
are seeing evidence of the same disturbing relationships 
developing between the agency and the airplane manufacturers, 
which is no less inappropriate. I think I can speak for this 
entire body and say that my belief is the FAA's primary 
responsibility is and must always be to ensure the safety of 
the flying public.
    I am not a pilot. I am, however, thanks to my dad who 
taught me when I was five years old, a sailor. I have been 
dependent on different kinds of instrumentation. I like the 
redundancy of having analog gauges as well as digital displays. 
I am a little nervous about having only--and I am not up in the 
air, I am talking about being on a body of water. I am a little 
bit nervous in only having the digital that can freeze up, 
until such time as it is proven to have all the bugs out of it.
    Let me ask you a couple of specific questions. We will hear 
testimony later on from an FAA manufacturing certification 
manager, who purchased professional liability insurance because 
of his concerns about his role in the certification program. 
Have you ever heard of a case of this occurring in the past?
    Mr. Scovel. I am not aware of one. None has come to my 
attention, sir. Again, we haven't worked in that area. In my 
less than 2 years as Inspector General, it hasn't come to my 
attention before, sir.
    Mr. Hall. It appears FAA laid out approved methods for 
compliance, and in the case of the Eclipse, used workarounds or 
alternative means of compliance and found reason for equivalent 
levels of safety, et cetera. So do you think that such phrases, 
such means to get around a problem by finding a workaround, are 
they potentially things that can be abused?
    Mr. Scovel. Potentially; but I want to highly qualify that. 
Equivalent levels of safety have been used for a long time in 
the industry. I see them as a way to spark innovation. If FAA 
can determine that a new way to ``skin the cat'' will indeed 
get the job done, then why hold someone to what may have been 
the standard practice for a long time? Close scrutiny is 
required, however, and following just good common sense. But 
certainly it can be employed very successfully.
    Mr. Hall. Another question. Allegations have been made by 
current and former FAA engineers and inspectors that the former 
CEO of Eclipse had an unusual amount of influence on senior FAA 
management. Did your investigators find any evidence that this 
was the case?
    Mr. Scovel. We did not. I referred to the customer service 
initiative complaint regarding the single-pilot operation 
determination of FAA in December of 2006, January of 2007, and 
clearly there were communications at that point. There were 
communications from Eclipse to FAA headquarters immediately 
prior to the production certification decision, when FAA 
determined that the new team needed to be sent to Texas and New 
Mexico in order to accomplish production certification.
    However, we haven't been aware of other aspects.
    Mr. Hall. That is good. And one last question, sir. We 
understand that DayJet, the largest commercial operation 
utilizing the EA-500, refuses to operate the aircraft so far 
with a single pilot. Is this accurate and why do you think so?
    Mr. Scovel. That is accurate, sir. DayJet, based in 
Florida, is the largest user of the EA-500. It does use two 
pilots. We understand that is part of their business model.
    It also reflects a very cautious and conservative approach 
on the part of the company to the aircraft.
    Mr. Hall. Okay, thank you so much. I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I am not going to belabor, we have a lot of panelists 
coming up and we have kind of gone through everything, Mr. 
Scovel. But I would like to say though, I would appreciate it 
in the future when you present things that you present your 
facts and your investigation. When you use statements and throw 
them into the record from your people underneath you who are 
"weekend warriors,'' finding themselves in heavy weather at 
40,000 feet, and they would be in a real, what was your term?
    Mr. Scovel. In a fix, I think I said, sir.
    Mr. Graves. The fact of the matter is, if you are IFR 
trained, you train for just such an occurrence, with minimal 
instrumentation. And you assume that the worst is going to 
happen, whether it is looking at the copilot's panel, looking 
at your own panel, doing whatever you have to do, stick and 
ball, as Mr. Hayes pointed out, and as I have been trained. I 
would appreciate that you didn't bring those into this, because 
that is pure opinion and conjecture, and I don't think it has 
any place in a Congressional hearing.
    Mr. Costello. The Chair now recognizes the gentleman from 
Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    I appreciate the discussion that you had earlier, Mr. 
Chairman, with Mr. Scovel about delegation does not mean self-
certification. I think you have to depend on delegation to get 
work done, or the Administration does, and it works well. All 
good things, there his always a possibility there is an 
exception. But I just want to make the point that delegation is 
important and properly supervised, it works well. I would 
assume that you would agree with that.
    Mr. Scovel. I would agree with that, sir.
    Mr. Boswell. Okay. I also would kind of share some of the 
thoughts just made by the previous speaker, that the Very Light 
Jet is designed, the training of the pilots is for single-pilot 
operation. I don't want the public to get the idea this is a 
bad thing. Because they do have to go through some very 
stringent training, as you well know.
    Mr. Scovel. I do.
    Mr. Boswell. And they do practice for the worst case. At 
least that is what they did to me when I was going through, and 
I think that was a good thing.
    Mr. Scovel. They do, and I will note that Eclipse has its 
own training program for pilots buying its aircraft, and the 
company is working hard in that regard.
    Mr. Boswell. I appreciate that, and I don't argue the point 
that two is better than one. I suppose that would be a foolish 
thing to argue that point. But an aircraft designed, as you 
said earlier, because the weight and all these different 
factors, then simplified procedure, then the training that goes 
with it, I don't want the public to think that a single pilot 
can't do that, because they can. I firmly believe that and I 
think you do, too.
    Mr. Scovel. I do.
    Mr. Boswell. All right. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    Mr. Scovel, I only have a couple more questions at this 
time. You indicate, page 11 of your testimony, that Eclipse 
aircraft users continue to report other post-design 
certification problems with the EA-500, including erroneous 
stall warnings, flap movement failures and a high rate of tire 
failure. I wonder if you would comment on that.
    Mr. Scovel. These problems, at least the first two, were 
identified during the design certification phase, sir. They 
have been dealt with by the company and by FAA, largely 
satisfactorily, as the report of the special certification 
review team makes clear. However, in our review of the various 
safety reporting systems, to include the service difficulty 
reports, they have cropped up in months past. The tire failure 
question results from the intent of the company, the original 
intent at least, that the Eclipse 500 be used on grass runways, 
or at least non-paved runways. As it turns out, most of the 
aircraft are being used on paved runways, and because of the 
type of tire that is used_it is a softer tire_and also the 
angle at which it is placed on the landing gear, it is wearing 
unusually fast.
    Mr. Costello. The final question, on page 17, table 2, you 
have a table that says manufacturing deficiencies found by the 
FAA inspectors after Eclipse inspectors certified the aircraft. 
And there is a whole list of deficiencies. Then you indicate 
that during the audits, the FAA inspectors identified serious 
non-conformities associated with aircraft parts, materials or 
manufacturing processes used for the EA-500 by Eclipse 
suppliers. Then you go on to list, these include receiving or 
accepting non-conforming parts or tools, parts not properly 
stored or marked, failure to follow manual procedures, 
uncalibrated tools, revision of tools and procedures without 
approval from Eclipse. And there are a number of other things.
    You say that additionally, at the largest user of the EA-
500, FAA inspectors found problems with Eclipse supplier 
manufactured parts on 26 of the 28 EA-500 aircraft operated by 
the company. My question is, similar to my last question, have 
these issues been addressed by the FAA?
    Mr. Scovel. We understand FAA is in the process of 
addressing them with the company, sir.
    Mr. Costello. There being no further questions, we would 
allow a second round if you have questions. Mr. Hayes or Mr. 
Boswell? Very good.
    Mr. Scovel, we thank you for your testimony before the 
Subcommittee today. I expect that some time in the not too 
distant future, we will be sitting down with the FAA, the 
company and your staff to discuss the matter further. Thank 
you.
    The Chair would ask the second panel of witnesses to come 
forward.
    Mr. Hayes. Mr. Chairman, if I may, while they are coming 
forward, again, I didn't mean to be soft on Mr. Scovel.
    [Laughter.]
    Mr. Hayes. I just think it is important that we acknowledge 
the professionalism of all the folks that come in today. It 
occurs to me, as I am thinking about this, and this is really 
important, and I am glad you are doing it, but you have the 
facts. The facts are where, when, who, how. But then you have 
the truth. The truth is, the significance and meaning of the 
facts. What you just said about getting folks together beyond 
the process which occurs here so they can respond directly to 
the significant questions I think is a wonderful idea. That 
gets us to the truth, to the best degree we can find it and 
understand it. So thank you very much.
    Mr. Costello. Actually, in my law enforcement days, I 
remember it is who, what, where and why.
    I thank you for your comments, Mr. Hayes.
    The Chair would ask the witnesses to come forward. I will 
introduce them as they are.
    The first witness is Mr. Tomaso DiPaolo, with the National 
Air Traffic Controllers Association, Aircraft Certification 
National Representative. Mr. David Downey is the Vice President 
of Flight Safety at Bell Helicopter-Textron. You all have the 
full titles and the companies that they are with.
    Mr. Dennis Wallace, who is a software engineer, Rotorcraft 
Directorate, Aircraft Certification Service, with the FAA. Mr. 
Ford Lauer, Manager, San Antonio Manufacturing Inspection 
District Office for the FAA. Ms. Maryetta Broyles, Technical 
Program Management Specialist, Manufacturing Inspection Office, 
for the FAA.
    Gentlemen and lady, would you please stand? I would like to 
swear the witnesses on this panel in.
    Please raise your right hand. Do you solemnly swear that 
the testimony you are about to give before this Subcommittee in 
the matters now under consideration will be the truth, the 
whole truth and nothing but the truth, so help you, God?
    [Witnesses respond in the affirmative.]
    Mr. Costello. Please have the record indicate that each of 
the witnesses on this panel responded in the affirmative.
    With that, the Chair will use the five-minute rule, as is 
customary for some of our witnesses with this panel. So I would 
ask you to try and summarize your testimony in five minutes, 
and that will give Members an opportunity to ask questions.
    Mr. DiPaolo.

 TESTIMONY OF TOMASO DIPAOLO, AIRCRAFT CERTIFICATION NATIONAL 
 REPRESENTATIVE, NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION; 
     DAVID A. DOWNEY, VICE PRESIDENT, FLIGHT SAFETY, BELL 
    HELICOPTER-TEXTRON; DENNIS WALLACE, SOFTWARE ENGINEER, 
ROTORCRAFT DIRECTORATE, AIRCRAFT CERTIFICATION SERVICE, FEDERAL 
   AVIATION ADMINISTRATION; FORD J. LAUER, III, MANAGER, SAN 
   ANTONIO MANUFACTURING INSPECTION DISTRICT OFFICE, FEDERAL 
 AVIATION ADMINISTRATION; MARYETTA BROYLES, TECHNICAL PROGRAM 
    MANAGEMENT SPECIALIST, AIRCRAFT CERTIFICATION SERVICE, 
    SOUTHWEST REGION ROTORCRAFT DIRECTORATE, MANUFACTURING 
       INSPECTION OFFICE, FEDERAL AVIATION ADMINISTRATION

    Mr. DiPaolo. Good morning, Chairman and distinguished 
Members of the Aviation Subcommittee. Thank you for the 
opportunity to testify before you today.
    I was asked here because in addition to nearly 20 years of 
service as an FAA aerospace certification engineer, I also 
serve as the aircraft certification national representative for 
NATCA. We represent aviation safety professionals, including 
aerospace certification engineers, flight test pilots and 
technical and administrative personnel, approximately 20 of 
whom were involved in the type certification, or TC process for 
the Eclipse EA-500 aircraft.
    Since the summer of 2001, these employees witnessed the FAA 
acting in a way that was neglectful to their duty as industry 
regulators and irresponsible to the flying public. These 
employees were pressured to expedite the TC process, harassed 
by management and had their professional assessments ignored. 
As a result, an aircraft was allowed into the market without 
complying with Federal aircraft safety standards and 
regulations. NATCA filed a grievance over the FAA's 
inappropriate behavior, which is still in arbitration.
    At the time of final certification, there were many 
outstanding problems that had been identified by the engineers 
and pilots. These problems included pitot tube drainage issues 
in the airspeed indicating system, which failed due to freezing 
condensation in service. Problems with the electronics suite 
caused a pilot's screen to blank out and engines to operate in 
an uncontrollable manner. In some cases, FAA management allowed 
these concerns to fall through the cracks, while at other times 
it literally chose to ignore the technical reports that 
identified these problems in order to grant the TC without 
significant limitations.
    In the months following the TC issuance, the problems 
identified by the engineers manifested during aircraft 
operation, putting the public at risk. Why after front line 
engineers had been able to identify these problems did the FAA 
not act to ensure the concerns were addressed? The agency has 
faulty priorities that focus on the business goals of the 
private sector rather than protecting the safety of the flying 
public.
    During a meeting between engineers and FAA management, John 
Hickey, AIR-1, told the group, "We are here to save this 
company [Eclipse].'' When one engineer responded that his job 
was to make sure the aircraft complied with the safety 
regulations, he was rebuked by Mr. Hickey, who then went on to 
intimidate and verbally attack each individual on the team. His 
focus was codified in the FAA's 2006 business plan, which 
included the goal of certifying a Very Light Jet by the end of 
the fiscal year. The pay system work rules that were 
unilaterally imposed on the aircraft certification bargaining 
unit on July 10th of 2005 included a pay for performance system 
that rewarded managers for achieving goals outlined in the 
FAA's business plan. In other words, managers would be given 
bonuses for certifying the Eclipse 500 before September 30th, 
2006.
    By September 29th, 2006, the Eclipse 500 jet had not yet 
been approved. With the fiscal year about to end, bargaining 
unit engineers were harassed and pressured to sign off on the 
TC. That day, engineers responsible for each aspect of the 
aircraft refused to sign, due to outstanding technical safety 
concerns. The following day, a Saturday, September 30th, the 
last day of the fiscal year, FAA management ordered the Eclipse 
project manager into work and convinced her to sign off on a 
document that approved all remaining aspects of the jet. This 
enabled FAA management to grant the TC before the end of the 
fiscal year, qualifying them for pay increases.
    This same compensation plan created avenues for management 
to penalize employees who refused to change their technical 
opinions in order to meet the business time line for 
certification.
    Since filing the grievance, the union has been approached 
by employees who were prevented from receiving full raises as 
retribution for standing firm behind their safety findings 
during the Eclipse TC program. The FAA also relinquished its 
oversight responsibilities to the Eclipse program. As early as 
2001, FAA committed to what they called optimal delegation, to 
the maximum extent practicable, meaning that whenever possible, 
individuals selected by the company would act as surrogates of 
the FAA to determine compliance to safety standards.
    NATCA would like to offer three recommendations to this 
Committee. First, amend Title 49 to allow the union to 
negotiate fair and professional pay procedures that encourage 
and reward compliance to the safety mission of the agency. 
Second, the FAA's pay for performance system should only 
include goals that directly improve the safety of the flying 
public. And finally, delegation must be restricted to 
individuals who are reviewed and approved directly by the FAA. 
The core function of aircraft certification must remain an 
inherently governmental function, to be performed by Federal 
employees.
    Thank you for this opportunity to testify.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Downey.
    Mr. Downey. Good morning, Mr. Chairman, Members of the 
Committee.
    My name is David Downey. I am the Vice President of Flight 
Safety for Bell Helicopter-Textron. I was the manager of the 
Rotorcraft Directorate in Fort Worth, Texas for seven years 
prior to assuming my new position at Bell Helicopter.
    The events leading to the Eclipse 500 problems are 
complicated. Eclipse was a brand new company trying to make a 
big splash in the aviation industry. The CEO, Vern Raburn, 
created a very public and well-documented awareness.
    This was a company that wanted to gain its type 
certificate, its production approval and start delivering 
aircraft all within 15 days. No amount of FAA coaching would 
dissuade Eclipse executives that this feat was not practical 
and overly ambitious. The FAA was concerned with the turnover 
in Eclipse technical personnel. There were also technical 
setbacks including having to re-engine the airplane. Eclipse 
rarely met its commitments to the FAA or submitted a report on 
time.
    On 14 September 2006, an FAA meeting was convened in an 
Albuquerque hotel. In attendance were FAA personnel and four 
FAA executives. Among the executives was the Service Director, 
Mr. Hickey. It was completely clear to all present that the 
current approach to the software certification was not going to 
meet the Eclipse calendar schedule or Mr. Hickey's direction. 
In this meeting, the software engineer, Mr. Wallace, tried to 
convey to Mr. Hickey that the Eclipse approach would not meet 
the agency's established and time-tested software certification 
procedures. Mr. Wallace was summarily subjected to a verbal 
barrage that conveyed that he was not able to think outside the 
box.
    It was at this point I interjected myself between my 
employee and the Service Director. My taking up for him 
resulted in my dressing down and a humiliating verbal assault 
in front of my subordinates. In 35 years of public service as 
an Army officer and an FAA employee, I have never suffered an 
experience as denigrating or unwarranted. It was clear to those 
present that Mr. Hickey was passionately making the case for 
thinking outside the box.
    However, the box must still be within the bounds of proven 
methodology and appropriate risk management. What some would 
portray as passion, I would characterize it as an assault on 
our professionalism and our character. We left that meeting 
knowing that it was our responsibility, the FAA, not Eclipse, 
to find a compliance solution to the software issue.
    There are other issues that FAA personnel became aware of. 
The FAA became privy to a mis-sent email detailing an Eclipse 
strategy to use Mr. Hickey's influence in the software 
certification issue. This Eclipse e-mail stated that Mr. Hickey 
would have to force us to accept this alternate approach. It 
would be fair to note that no evidence exists this email was 
ever sent to Washington. However, it did serve notice that no 
Eclipse tactic was out of bounds. When you couple all this 
together, the pattern of misinformation, missed dates and a 
willingness to go straight to Washington, D.C., that left the 
field FAA personnel trapped between Eclipse and Mr. Hickey and 
we knew it.
    Regarding the production program, Eclipse was trying to do 
too much with inadequate processes, poor controls and untrained 
personnel. In March, 2007, I received a phone call from Mr. 
Hickey. Vern Raburn had called to complain. An email had been 
sent from Mr. Lauer to Mr. Byars at Eclipse explaining 
expectations for the reinspection and records review of 
aircraft serial number 3. From that phone call, and I 
paraphrase, Vern wants to know why the FAA wants the blankety-
blank sealant records? I told Mr. Hickey I would find out. It 
was on this telecon I was also informed that Mr. Ron Wojnar 
would assume oversight of the production and manufacturing 
issues and I was relieved.
    Back to the sealant records, after consulting with the 
experts, I learned the sealant records have to be examined to 
ensure the shelf life has not been exceeded. This was a 
properly conducted FAA reinspection and records review. There 
was an Eclipse production certification report generated by Mr. 
Wojnar to Ms. Baker. It portrays a story that is accurate in 
some regards but also has a slant and factual inaccuracies that 
would make the inspectors look overbearing and zealous. It also 
contains misleading statements regarding myself and the 
Rotorcraft Directorate staff.
    The issues detailed are but a few of the issues the 
employees dealt with. The bigger cultural issue was the 
demonstrated lack of confidence in field FAA employees by Mr. 
Hickey and others. You will hear a different story from your 
subsequent panel. In fact, I expect to be maligned, disparaged 
and at best displayed as incompetent. The record will speak for 
itself.
    The bigger concern is the tarnished reputation of field FAA 
employees involved, particularly the ones who tried to raise 
concerns. There are 250 other companies that the Directorate 
oversees. Nothing else comes close to this situation.
    Integrity is something I learned at the feet of my father, 
a 28-year career Army officer, and he is our patriarch. There 
are three generations of military service. One of my brothers 
is a serving inspector general. I clearly understand the 
implications of these proceedings.
    My decision to leave the FAA was reached over a year ago. 
The Eclipse 500 program was the tipping point. It was clear to 
me that my value system and my leadership style were in 
conflict with senior leadership. It was time to close that 
chapter and move on. I have made mistakes in my career, but the 
handling of the Eclipse 500 program was not one of them.
    Pending your questions, this completes my statement.
    Mr. Costello. Thank you, Mr. Downey.
    The Chair now recognizes Mr. Wallace.
    Mr. Wallace. Good morning, Mr. Chairman and honorable 
Members of this Committee.
    My name is Dennis Wallace. I am a software engineer 
employed by the FAA and I am currently assigned to the 
Rotorcraft Certification Office in Fort Worth, Texas, as the 
FAA's software technical specialist.
    I have been employed by the FAA for the past 12 years. 
Prior to my employment with the FAA, I worked for the 
Department of Defense in various positions for 26 years. I am 
also a veteran of the United States Air Force, having served 4 
years on active duty and 21 years on active reserve.
    I am here before you today to give an account of my 
recollection of the events in the final days leading up to the 
issuance of an FAA type certificate for the Eclipse 500 Very 
Light Jet airplane. My specific role in this project was to 
provide typical FAA certification oversight of Eclipse and its 
supplier's development of airborne software for this aircraft 
to ensure that it satisfied the safety requirements defined in 
the applicable Federal aviation regulations. According to what 
the company submitted and FAA agreed to, Eclipse and its 
suppliers were to develop their software in accordance with the 
guidelines of RTCA DO-178B as a means to secure FAA approval 
for the digital computer software as a showing of compliance to 
14 CFR 23.1301 and 14 CFR 23.1309. As there are no specific 
regulations that discuss how to certify software, these are the 
governing safety regulations and DO-178B is the standard, FAA-
recommended approach for the certification aspects of airborne 
software.
    DO-178B was published in 1992 and has become the 
universally accepted governing procedure for such software 
certification efforts. DO-178B uses layers of checks and 
balances in an attempt to prevent errors from manifesting in 
the code. These include a defined and structured development 
process, independent peer reviews, quality assurance, 
configuration management and the rigor of testing that must be 
accomplished.
    On the morning of September 12th, 2006, while conducting a 
software review at one of Eclipse's suppliers, I received a 
telephone call informing me that I needed to attend a meeting 
at a hotel in Albuquerque on September 13th and that I should 
be prepared to give a status report for the software being 
developed by that particular supplier. When I arrived for that 
meeting, I was prepared to report the facts that the supplier 
had not yet completed final design review, had not entered test 
readiness review, and that the company was aware that dead code 
still needed to be removed. Most importantly, I was also going 
to report that in my opinion, only approximately one-third of 
the required objectives of DO-178B had been satisfied.
    Instead of support, what I received was a rather harsh line 
of questioning from the FAA AIR-1 and AIR-100 managers that 
basically questioned the validity and utility of the long-
accepted DO-178B software certification procedure. They also 
hopped on the fact that there were no airworthiness rules 
specifically related to software certification. I tried to 
explain to them that Eclipse had signed up to comply with DO-
178B for themselves and their suppliers. I went on to state to 
them that while it is true that there are no Part 23 rules that 
are unique to software approval, DO-178B is a traditionally and 
universally accepted means to secure FAA approval, which is 
applicable to all systems and equipment onboard the aircraft.
    Also, DO-178B provides a level playing field for all 
aircraft software developers and as such, it contributed to a 
standardized approach to the software aspects and 
certification. I was told by the AIR-1 manager in what I 
perceived to be a very direct, animated and threatening manner 
that my position on this constituted antiquated thinking and 
that I had best start thinking outside the box. He further 
stated that we were here to save a company and then looking 
directly at the then-Rotorcraft Directorate manager, said he 
"should have to come to Albuquerque to do his job.'' That was 
when I realized the supplier was not the problem, I was.
    On the following morning, I attended a meeting at Eclipse, 
along with other FAA personnel. In that meeting, the company 
proposed a mitigation strategy that the company wanted the FAA 
to accept as an alternative to the supplier having to satisfy 
software objectives of DO-178B. It is my continued opinion to 
this day that FAA management was strongly encouraging the FAA 
team to accept its proposed company mitigation strategy.
    The next week, I telephoned the supplier's designated 
engineering representative and asked him to submit an FAA form 
8110-3 stating that the software satisfies DO-178B and complies 
with 23.1301 and 23.1309. I received the requested 8110-3 
stating that it was to the extent demonstrated by partial 
compliance with DO-178B. This became part of the mitigation 
package which I was asked to sign off on. I did so on September 
28th by stating only that I concurred that the software 
partially complies with DO-178B. The clear implication here is 
that neither the designated engineering representative nor I 
concurred that the software was completely compliant.
    When I arrived at work on Monday October 2nd, I was 
surprised to hear that Eclipse had received its type 
certificate the previous Saturday, September 30th.
    This concludes my opening remarks. Thank you, Mr. Chairman 
and honorable Members of this Committee.
    Mr. Costello. Thank you, Mr. Wallace.
    The Chair now recognizes Mr. Lauer.
    Mr. Lauer. Mr. Chairman, Members of the Committee, my 
personal involvement in the Eclipse project spanned the period 
from July 2006 to March 2007. In the July through December time 
frame, I made several trips to the Eclipse facility to assist 
the FAA program manager in various tasks. These tasks included 
inspecting the first production airplane.
    The FAA program manager and I witnessed functional test 
procedures and inspected the airplane to verify it conformed to 
design drawings. The FAA program manager and I observed 
numerous instances where the airplane did not conform, yet had 
been signed off by Eclipse company inspectors and FAA designees 
as though it did conform. Eclipse company inspectors and FAA 
designees were repeatedly instructed by the FAA program manager 
that airplanes and functional test procedures should not be 
signed off and presented for FAA inspection unless everything 
conformed.
    It was my perception that Eclipse employees were under 
constant pressure from their management to deliver airplanes. I 
observed that Eclipse management would not hesitate to complain 
to FAA management when they perceived FAA inspectors were 
interfering with Eclipse's ability to deliver airplanes. On 
numerous occasions when FAA inspectors told Eclipse personnel 
something they did not want to hear, the reply was to the 
effect that Eclipse could not live with that, and the issue 
would be elevated.
    To support the airplane delivery schedule, Eclipse expected 
an FAA inspector presence virtually around the clock and made 
this known to FAA management. As a result, I and several of the 
FAA inspectors worked a great deal of overtime at Eclipse, 
including weekends and holidays.
    In late January, Eclipse presented the second production 
airplane for FAA inspection and airworthiness certification. 
Eclipse had submitted signed FAA forms containing certifying 
statements that the airplane had been inspected by Eclipse, was 
found to be airworthy, conformed to its type certificate and 
was in condition for safe operation. The FAA inspector's 
inspection of the airplane indicated that Eclipse had neglected 
to adequately inspect the airplane before making application 
for an airworthiness certificate and thus possibly violated FAA 
regulations by making an apparent false statement on the FAA 
forms.
    I consulted with the Rotorcraft Directorate Manufacturing 
Inspection office manager in Fort Worth and it was determined 
that an investigation should be initiated for a possible 
violation of Federal regulations. An investigation case was 
initiated in accordance with FAA policy. It should be noted 
here that FAA policy established that every apparent or alleged 
violation must be investigated and that the enforcement 
investigation report is the means for documenting an 
investigation.
    In mid-March, the FAA aircraft certification service 
director assigned a senior advisor from outside the Rotorcraft 
Directorate to assume responsibility for the Eclipse project. 
FAA inspectors were notified that they would report to the 
assigned senior advisor for all Eclipse production and 
airworthiness activities.
    I was informed by the Rotorcraft Directorate Manufacturing 
Inspection office manager that the senior advisor wanted the 
in-progress investigation suspended immediately and the case 
was to be closed with no further action. The investigation was 
suspended and the case closed as directed.
    In mid-March, the senior advisor implemented a working 
agreement between Eclipse and the FAA, known as a project-
specific certification plan. Language within the project-
specific certification plan established that the FAA would 
recognize and utilize Eclipse's FAA designees to the greatest 
extent possible in inspecting Eclipse airplanes. FAA inspector 
utilization of FAA designees has been a common FAA practice, 
but only after companies have been able to demonstrate that 
their inspectors and FAA designees were reliable.
    In order to streamline FAA inspection of Eclipse airplanes, 
a flowchart within the project-specific certification plan 
established a set amount of time for FAA inspection of each 
airplane. Language within the project-specific certification 
plan also established that the FAA would not require removal of 
airplane interiors, floorboards, et cetera when FAA inspections 
were performed.
    In mid to late March, I made the personal decision to 
obtain professional liability insurance. I want to emphasize 
that throughout the time of my involvement in the Eclipse 
project, management within the Rotorcraft Directorate never 
once pressured me to do anything that was contrary to FAA 
regulations. I have no personal reservations concerning any 
level of Rotorcraft Directorate management and consider them 
all to be high caliber people.
    This concludes my statement and I await the Committee's 
questions.
    Mr. Costello. The Chair thanks you, Mr. Lauer, and 
recognizes Ms. Broyles.
    Ms. Broyles. Thank you, Mr. Chairman.
    I am an aviation safety inspector in the Manufacturing 
Inspection Office of the FAA in Fort Worth, Texas. One of my 
duties as an ASI is to evaluate new and existing manufacturing 
companies that produce commercial aircraft and new replacement 
parts. I have worked for the FAA for 20 years, and during my 
tenure as an inspector, I have performed over 485 evaluations 
of aircraft manufacturing facilities and pride myself in being 
very thorough.
    July 2006, I was a team member of the preliminary district 
office audit at Eclipse Aviation for the issuance of approved 
production inspection system. Fifteen non-compliances of the 
system were documented. In September 2006, we returned to 
Eclipse to review the corrective actions from the July audit. 
Corrective actions were not presented, so we continued with the 
ongoing district office audit. Twenty additional non-
compliances were identified. From the July and September 
audits, a total of 35 non-compliances were documented.
    In December 2006, I returned to Eclipse. Our management 
conveyed to us that we were to work on nothing but the 
airworthiness of the first production aircraft. Eclipse 
presented the aircraft to the FAA with a signed statement of 
conformity and we began conducting tests. Of the 28 tests 
performed, 11 passed. The official production certification 
district office audit was conducted February 2007. Forty-two 
non-compliances were documented. Three audits of Eclipse's 
quality system had been conducted. Seventy-seven non-
compliances were documented. Thirty-five of those did not have 
verification of corrective action.
    My impression was that Eclipse was controlling FAA's 
schedules and managing our resources. For instance, our 
managers denied the request for us to return to Fort Worth due 
to weather conditions, although most of the Eclipse employees 
were told to leave due to hazardous weather. In April, Eclipse 
was preparing an aircraft for certification and told the FAA 
inspectors to go back to the hotel, but be ready for their 
call, even though it may be midnight before the aircraft was 
ready.
    March 2nd, 2007, an FAA aircraft certification director 
appointed an independent team to oversee airworthiness and the 
production certificate for Eclipse. The Rotorcraft Directorate 
manager, FAA principal inspector and the MIO, manufacturing 
inspection office inspector, were removed from the program. In 
April 2007, I was on the team for the production certification 
board. Sitting in the back of the room was the independent team 
appointed by Mr. John Hickey, which consisted of five managers. 
During the internal FAA in-brief, the independent team leader 
talked about how the company had improved since he had been 
appointed and stated that we should do a high level, or 
overview of the system because the company had already been 
audited numerous times. It was then stated, in other words, we 
need to only go an inch deep when conducting the audit.
    I was shocked when I heard this statement. FAA Order 
8120.2D provides guidance for the issuance of a production 
certificate and states that the production certificate board is 
responsible for making a thorough evaluation of the applicant's 
quality system and production facilities. Conducting an 
overview of the system when corrective actions were not 
verified and functional tests were failing was in conflict with 
our guidance.
    I began my evaluation of the manufacturing system and found 
issues for the horizontal stabilizer assembly and requested the 
drawings to evaluate the condition further. One drawing led to 
another. My Eclipse escort said to me, "Maryetta, you are going 
more than an inch deep. You are going too deep.'' I was 
surprised that my escort had heard that statement. I do not 
know how he received the same information that was briefed only 
to the FAA.
    In all my years as an inspector for the FAA, I have never 
felt the pressure from FAA managers that I felt when Eclipse 
was trying to get their production certificate. We were being 
monitored on our performance and with the removal of managers 
and inspectors from the project, I was cautious about what I 
said and did. I have successfully approved several other 
companies for production and have never experienced this level 
of involvement or monitoring from Washington headquarters. We 
followed our guidance and regulations and spent enormous 
amounts of time coaching and providing assistance to Eclipse. 
Issues were identified to prevent safety problems. We were 
directed to get the job done and money and resources was no 
object.
    I am proud to represent the FAA and be a part of a world 
class organization in advancing aircraft safety. Our actions 
during this trying time were honest.
    One of the core values of AIR is to praise each other 
publicly and recognize and regard others for excellence. I feel 
the inspectors were pressured and discredited when we were 
trying so hard to accomplish our job.
    This concludes my statement. I await the Committee's 
questions.
    Mr. Costello. The Chair thanks you, Ms. Broyles.
    Let me begin, Mr. Downey, with you. You indicated that 
there was a meeting on September 14th, which you attended, and 
a meeting called by Mr. Hickey, where Mr. Hickey made a comment 
at the meeting that "we're here to save a company.'' What did 
that mean to you? Did it mean that whatever it takes, we are 
here to save the company?
    Mr. Downey. It would be my opinion, sir, that there was a 
balance trying to be struck here between a company that was 
going to go under because they had made financial commitments 
and meeting all the requirements as outlined in our policy and 
in our rules. We were made aware that there were financial 
implications to a TC date tied to the issuance of the engine 
type certificate as well as when the company got their type 
certificate.
    Mr. Costello. On page 6 of your testimony, you indicate 
that the FAA agreed to numerous IOUs, which of course we are 
aware of, from EAC, and that this is not uncommon, but the FAA 
personnel were under a great deal of pressure. From the 
testimony that we hear from everyone, let me draw a conclusion 
here, and if I am wrong, tell me that I am wrong, if anyone 
disagrees, is that you all believe that this whole process was 
driven by a calendar and a date of September, the end of 
September 2006. Is that correct?
    Mr. Downey. Yes, sir.
    Mr. Costello. Anyone disagree with that statement?
    Mr. Downey, if you would, explain to the Members of the 
Subcommittee what the purpose was of the meeting that you 
attended and what happened at that meeting?
    Mr. Downey. The purpose of the meeting was a gathering of 
all the FAA inspectors, engineers, pilots and test pilots to 
basically determine where we were, since there was a meeting 
the following day, a "program review'' called by Eclipse and 
Mr. Hickey. So it would be a precursor to a meeting on the 
following morning where we would basically walk through each of 
the major systems on the aircraft and the schedule for both 
production and for type certification.
    Mr. Costello. Did you find that it was unusual that as the 
chief executive of the FAA's certification organization that it 
was unusual for Mr. Hickey to take such a personal involvement, 
personal interest in the EA-500 certification program?
    Mr. Downey. Yes, sir.
    Mr. Costello. Can you either tell us why you believe that 
or speculate as to why you found it unusual?
    Mr. Downey. My speculation, sir, would be that there were 
several programs that were highly visible and that the VLJ 
market was a new toy, if you will, on the aviation scene. Mr. 
Raburn, through numerous articles, numerous events, including 
the previous roll-out at Oshkosh with their provisional type 
certificate, had created a public spectacle, and we were going 
to be part and party to that and we weren't going to miss that 
date.
    Mr. Costello. You mentioned in your testimony or suggest 
that the company intended to go straight to Washington, D.C. 
when they didn't like how things were going at the office. 
Elaborate on that if you will.
    Mr. Downey. The previous week to that September 14th 
meeting, we were attending, several of the executives were 
attending a meeting in Washington, and we were called in. That 
is when Mr. Hickey said, I want a program review, I want to 
know what is going on, I want to know why we are not going to 
make this. And it was completely out of left field for me to 
understand why we were going to be, the gain had been turned up 
on this to this level.
    Mr. Costello. You also mentioned in your testimony that 
there was an email that was apparently intended, on August 31st 
of 2006, an email from an Eclipse manager to senior Eclipse 
management, but it was accidentally sent to an FAA employee. 
Describe, if you will, what was in that email.
    Mr. Downey. The email basically said, we have to get the 
following, Hickey has to make sure that the following gets 
done. And among them was, they have to accept our approach to 
the software. And there were three or four other things in 
there, sir, and I have the references I can submit to the 
Committee if you would like.
    But what it said to us is, if we don't figure out a way of 
doing this, there will be hell to pay. And it was mentioned on 
numerous occasions. Vern Raburn made no mistake about dropping 
the Administrator's name, Governor Richardson's name, the 
Senatorial staff. And we knew that there would be political 
pressure applied to us. That can be done in a number of ways.
    Mr. Costello. You also mentioned in your testimony that 
Eclipse was not qualified to receive a production certificate, 
in your opinion. Give us an explanation, if you would.
    Mr. Downey. Well, as the members of this panel elaborated, 
sir, the number of hours that our employees spent going through 
the quality system to ensure the various elements of it, the 
supplier control, receiving inspection, the actual hands-on 
inspection of the aircraft, and I was over there numerous 
times. I even went back through my travel vouchers to look at 
it. And in fact, I remember a specific incident with inspectors 
where they went out to look at the aircraft and the aircraft 
just flat did not pass the test procedures that were outlined. 
Screens went blank. Fuel lines were chafing. Wiring was 
chafing. And this was not stuff that was like hunt and peck to 
find it, it was blatant and people saw it.
    So based on that, sir, and the fact that we in the 
directorate, to use a Texas phrase, this wasn't our first 
rodeo_we had been through this before. And our folks knew what 
they were doing. They were professional, they were competent. I 
was very, very comfortable that the leadership team in place 
had a very good idea of what they needed to do. I learned a 
long time as a leader, you train your people, you turn them 
loose and you let them go do their job. They had never failed 
me or my staff in that regard.
    So I have no reason to believe that the issues that were 
being brought to bear at that point in time were malicious or 
inaccurate.
    Mr. Costello. Mr. Wallace, why do you believe that senior 
management perceived you to be the problem?
    Mr. Wallace. Because I wasn't going to approve the 
software. That is why I perceived that I was the problem.
    Mr. Costello. Do you still stand by your decision today 
that you would not have approved the software that was in the 
condition that you saw it in September of 2006 on the aircraft?
    Mr. Wallace. That is correct.
    Mr. Costello. I have some other questions. But at this 
time, the Chair now recognizes the Ranking Member of the 
Subcommittee for questions, Mr. Petri.
    Mr. Petri. I guess I am trying to figure out how to put 
this in context and what if anything we should be doing about 
it going forward to help the FAA do a good job of ensuring 
airworthiness for new, innovative craft. I know, I represent 
the EAA in Oshkosh, so I am very aware of how excited the 
aviation community, especially the general aviation community, 
has been about the new type of airplanes that Eclipse 
represented. I suspect there is a lot of pressure, not badly 
motivated, but people who wanted this thing to succeed.
    And then now our issue is, people aren't saying the plane 
that is out there now is unsafe. They think it probably is 
airworthy. But there were a lot of steps along the way where 
things were not correctly managed or handled. There were 
personality conflicts as a result of that, in the effort to try 
to get this thing certified with a new manufacturer.
    Were you involved, also there were two other planes, 
similar planes, I think a Swearingen and a Cessna that were of 
this general type that were also going through the 
certification process at about the same time?
    Mr. Downey. Yes, sir.
    Mr. Petri. They were certified before this one. If you were 
involved in both, could you describe, is it mainly that these 
were experienced manufacturers and teams that had regular 
relationships with the process and that this one with the 
Eclipse was a new team and they were having problems there? Is 
there some difference? Why were they able to go through this 
process without these, or were they able to go through this 
process without these problems? What would explain the 
Eclipse's, the bumps in the road, so to speak, in the Eclipse 
certification process? Does anyone have any comments on all 
that?
    Mr. Downey. Sir, I can speak to the Sino Swearingen SJ30, 
because that was a program under our responsibility as well. 
That company suffered from many of the same issues along the 
way. They suffered a very unfortunate fatal accident at 
Christmas time a couple of years prior to that, and I was 
intimately involved in that. And I can't speak to the Cessna 
Mustang, although Cessna is a longstanding manufacturer.
    I would say the differences were, we did not provide the 
same level of resources to Sino. Sino suffered, like I said, 
from some of the same ills in terms of, they had problems with 
the fuel system along the way. They had problems with the 
conformal wing. They had other issues that were similar in 
terms of technical challenges. But we just didn't see the same 
level of help from Washington, if you will.
    Mr. DiPaolo. Congressman, I would like to build on that as 
well. In talking to the NATCA representatives that worked on 
those programs, the differences that I was made aware of was 
the fact that when those airplanes did get their approval, they 
were approved with limitations. And sometimes those limitations 
are pretty harsh on the aircraft, it doesn't allow the aircraft 
to do a lot. Maybe you can only fly in day time.
    That wasn't the case with the Eclipse program. These IOUs 
were underhanded, to state it in one manner. If a limitation is 
necessary, as the engineers that is what we do. Sometimes at 
the end of the program there is a rush. We understand we don't 
have all the testing done, and we put a hard limit on that 
airplane. What that does is that is the incentive. Because that 
aircraft manufacturer does not want to live with that 
limitation. They come back and we agree to further testing to 
try to remove that limitation. But I have never heard of an IOU 
being issued.
    Mr. Petri. I have other questions, but I will wait submit 
them in writing.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes Mr. Boswell from Iowa.
    Mr. Boswell. Thank you, Mr. Chairman. Anybody who wants to 
can answer, I guess I'm thinking of Mr. Downey. Strong 
criticism. Nobody can question that. I just wonder if I could 
ask, have you experienced other instances wherein this type of 
pressure to push or rush the process in your experience with 
FAA?
    Mr. Downey. None that I can recall first-hand, sir. I have 
to tell you, we were pretty well consumed by this one.
    Mr. Boswell. I appreciate that. I was hoping you would say 
that. But I wanted to hear it from you because of things that 
you probably heard me say earlier, some couple of hours ago. So 
this is not what you would refer to, and I am not trying to put 
words in your mouth, this is not a normal circumstance in your 
experience with FAA?
    Mr. Downey. No, sir.
    Mr. Boswell. Thank you. No more questions.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman and gentlemen and Ms. 
Boyles. Thank you for coming today. I know it is probably not 
something that you greatly looked forward to, so we appreciate 
your willingness to step up and give your view of the 
situation.
    An observation, there is an ongoing rift between the FAA 
and NATCA over various and sundry issues. That is reflected in 
some of the comments, in my opinion, that you have made today, 
and they don't fit in this hearing. That is just an 
observation.
    Mr. Downey, I don't know, unfortunately you have been 
called on to do a lot of talking. I want to spread out my 
questions to others, but several things that you said, and 
again, this is not in any way questioning your experience or 
loyalty or anything else. But looking at the process, there is 
management and those folks that work for management. I have 
been in the management position, I have had to terminate people 
and I have had to transfer people. I can't remember too many 
instances where that person thought it was a great idea. But 
there comes a time when one has to manage.
    Now, as a general question, and anybody, I would welcome 
your answer, over a period of five years, 2001 through 2006, 
the pressures that are normal in something this complicated, 
something this important, is it possible that there was a level 
of, my word, tiredness that developed between the inspection 
team and the manufacturer? Did that occur? A level of 
frustration equally applied both ways? Does that affect 
anything here? Mr. DiPaolo?
    Mr. DiPaolo. Mr. Hayes, the program started, as you know, 
in 2001. It was a complex program, and the FAA granted an 
extension. Because usually these programs take about three 
years, according to the regulations. Eclipse was granted an 
extension in 2004. So they had until 2007 to complete the 
program, and if necessary, they could have applied and received 
another extension.
    Mr. Hayes. Well, that is not my question. Had a level of 
tiredness between the inspection team and the manufacturing 
team developed?
    Mr. Downey. Sir, I will comment on that.
    Mr. Hayes. All right.
    Mr. Downey. I don't believe so.
    Mr. Hayes. Well, I definitely believe so, having heard from 
management, both on the manufacturer's side and the FAA's side. 
Neither right nor wrong, but at certain times, you are sick and 
you are in the hospital and you are not communicating with your 
team of doctors and you change teams. That is not necessarily a 
negative reflection. It is just time for a new look.
    So again, to keep this in perspective, I think it is 
important that that be a part of this discussion.
    Now, you mentioned, Mr. Downey, and I do take issue with 
this, the VLJ was a new toy on the aviation scene. Not a new 
toy. It is a new product, it is a new concept. As a salesman, 
nothing happens until somebody sells something. If you are 
going to the bank, whoever, and you have a business plan for 
some new device, whether it be a lawnmower or an airplane, you 
are going to have to tell the people loaning you the money, we 
expect to do this. So a lot of the things that you are pointing 
to, again from my perspective, critically, are part of doing 
business. And it is not a toy. It is an important concept in 
aviation.
    Again, it is not your obligation to keep the U.S. 
competitive, but we are all a team here, Congress and everybody 
else. I am frustrated at this moment with some FAA folks for a 
constituent who just can't find the time to do what they need 
to do to conduct their business. So a lot of what we are 
talking about here is part of management, it is part of every 
day.
    Now, given where we are, what would you like to see us do, 
since we are in this, to make sure that the process works, that 
the public is safe and the United States economy is kept moving 
forward and those jobs stay here and we use less fuel and all 
the above? Anybody want to touch that one?
    Mr. DiPaolo. I will take that one.
    Mr. Hayes. Okay, and please feel free to contact me after 
this hearing. I would welcome the opportunity to talk to you 
individually or as a group. I am sorry we don't have much time, 
but go ahead.
    Mr. DiPaolo. Much appreciated, sir. We do have limited 
resources in aircraft certification. There is a limited number 
of people. You may hear the FAA say there is 1,100. But the 
actual number of engineers that are working these projects day 
in and day out is around 300 people. So to use those resources, 
we do need a little increase in the number of engineers. That 
would be helpful, and we know Congress has allowed us to do 
that in the past.
    Mr. Hayes. Thanks for the comment. Mr. Costello and I were 
just talking about that, that the management of FAA says they 
have enough people. Well, obviously they don't. So you made 
your point, Mr. Chairman. Thank you. I will be back in a little 
bit.
    Mr. Costello. Thank you, Mr. Hayes, and you are correct. We 
have asked that question over and over again.
    Before you leave, let me just point out, let me join Mr. 
Hayes in thanking you all for being here. We still have other 
questions. But I do think it is worth pointing out, and you 
correct me if I am wrong, Mr. Downey, all of your performance 
evaluations when you were with the FAA were either excellent, 
or did you ever receive a performance evaluation the entire 
time you were with the FAA that was substandard or below 
standards or critical of your work?
    Mr. Downey. During my entire 13 years, sir, all of my end 
of year performance appraisals were successful.
    Mr. Costello. And the day you left the FAA, and you did not 
leave, as you clarified in your testimony, you did not leave as 
a result of this project, you left for a number of other 
reasons, you went immediately and were hired as Vice President 
of Flight Safety for Bell Helicopter-Textron, is that correct?
    Mr. Downey. Yes, sir.
    Mr. Costello. I thank you. When Mr. Hayes comes back, I 
will make this point in his company. He makes a point about 
changing teams. And it may not be unusual to change teams if 
you are not getting the desired results or from time to time. 
We had a hearing of the Full Committee in April of this year 
where we found the same situation, where the FAA changed teams. 
So it is just not something that has happened in this instance. 
It is apparently part of a pattern at the FAA when they are not 
getting their desired results from their employees, they move a 
team out and put a team in place to achieve those results. So 
just for the record, I wanted to clarify that.
    And now the Chair will recognize the distinguished Chairman 
of the Full Committee, Chairman Oberstar.
    Mr. Oberstar. Mr. Chairman, I want to compliment this panel 
on their courage in coming forward and the professional 
integrity they have demonstrated in raising the concerns and 
the alarms that they have sounded for us, and for supplying the 
information that is important to understanding this process, 
the process of certification that is so troublesome. I thank 
each of you for your professional integrity and concern for 
safety and for a proper process of safety.
    Mr. DiPaolo, notwithstanding what Mr. Hayes was trying to 
do to undercut your testimony, I think he is wrong. NATCA and 
FAA have had differences on a different matter, totally 
different subject matter. NATCA represents a certain class of 
FAA employees here, and you are representing them in their 
concern for what happened within the agency, not what happened 
on another case.
    Mr. DiPaolo. Correct.
    Mr. Oberstar. And I don't, I can't let the record go 
unchallenged; I can't let those statements go unchallenged. I 
think it is totally inappropriate to have made that comment.
    Mr. DiPaolo. I appreciate that, sir. I mean, we reached the 
tipping point during that program. I had never seen the level 
of harassment from FAA management, I had never seen the level 
of open safety concerns, and that all had come together. We 
used the only means we really had, which was a grievance, to 
protect our bargaining unit employees.
    Mr. Oberstar. I have done oversight work for 40 years in 
the Congress, as a staff and as a Member. I know integrity when 
I see it, and honesty and courage, and you have all 
demonstrated that. Mr. Downey, you said the FAA set the 
September 30th, 2006 goal for issuance of the TC, you said 
that, or you suggest that was the same date that Eclipse was 
tied to for their financial, for additional financial backing, 
is that correct? Have I stated that right?
    Mr. Downey. I don't know the exact particulars, but what we 
shared with the team and what was shared with me was that there 
were financial implications and backing tied to 30 days from 
the date that the Pratt and Whitney engine type certificate was 
validated through the FAA for them to get their type 
certificate. I have never seen anything in writing, sir, but 
that is what was shared with the team through the company.
    Mr. Oberstar. When did you learn all of this?
    Mr. Downey. It would have been some time around the 
beginning of September, because all of a sudden the dates 
started becoming hypercritical.
    Mr. Oberstar. Have you had experience before in the 
certification process where a date was set by which you had to 
accomplish something, rather than meeting a goal?
    Mr. Downey. I would share with you, sir, that the marketing 
portions of most companies set dates, and we tend to put those 
in what we call jello. They are not going to be hard and fast, 
they are always a target. But sometimes you miss targets. There 
are certainly examples in the press today of a certain 
manufacturer that is going to miss it significantly.
    So my attitude about that was, it is a date, it is a Power 
Point slide, but much beyond that, we will do it right.
    Mr. Oberstar. You also said that your training in software 
approval informed you or guided you that approval of the 
software should be event-driven, not calendar-driven. What did 
you mean by that? Explain that.
    Mr. Downey. Well, sir, as I stated in my written 
submission, in the military I attended the Defense Department's 
program managers course. That is a course obviously designed to 
help you run major military programs, products and it was 
actually a lawyer that was teaching that portion of it. What he 
said is, software becomes movable to the next event once it 
completes all of the verification and validation. As Mr. 
Wallace said in his testimony, there are certain gates that you 
go through to make sure that the software meets a level of 
certitude. And if you see it, as I state in my written 
submission, if you see a calendar schedule, run the other way. 
IN other words, there is not a firm grasp of what software 
implications are in terms of running a program.
    Mr. Oberstar. Thank you.
    Mr. Wallace, you are a software certification specialist 
for the certification service, correct?
    Mr. Wallace. Yes, sir.
    Mr. Oberstar. And you teach the subject at the FAA Academy?
    Mr. Wallace. I do.
    Mr. Oberstar. As you reviewed the Eclipse process, they had 
an alternative means of compliance for software certification. 
Was that adequate, inadequate? What was your judgment of it?
    Mr. Wallace. I believed it to be inadequate to be presented 
at the eleventh hour. Usually when a company wants to do an 
alternate means, it is presented at the beginning of the 
program, not at the very end of the program.
    So in this particular case, there probably should have been 
an issue paper issued and processed and been reviewed by 
several people. But again, this came about at the very eleventh 
hour.
    Mr. Oberstar. And did that software alternative approach 
have a connection with the software problem that occurred in 
the Eclipse aircraft at altitude?
    Mr. Wallace. I couldn't say for sure.
    Mr. Oberstar. Is enough known about that software 
shortcoming, failure, glitch, as it has been variously 
described? Is enough known about that at the present time to 
make a judgment about whether there was a significant failure?
    Mr. Wallace. Well, again, I think I would have to go back 
to the point in time you are referring to, which I really don't 
know. Because there are different configurations of that 
software. If you are talking about at the time of the type 
certificate, there were a couple of software issues that it 
went into type certificate with that I was aware of. One of 
course was the, in my opinion, the incomplete development of 
the software from one particular supplier. The other one had to 
do with the AHARS, which was causing, there was a bug in the 
pit processor that was eventually causing the screen to freeze. 
They would have to reset through the watchdog timer.
    So it was a combination of both the AHARS and the primary 
flight display that was causing a problem.
    Mr. Oberstar. In fly-by-wire technology, it seems to me 
those issues should be worked out thoroughly before they are 
allowed to go forward in an aircraft and allow that aircraft to 
be operational.
    Mr. Wallace. Well, Congressman, this is not a fly-by-wire 
aircraft, but it is a highly automated aircraft. I would agree 
with you, yes.
    Mr. Oberstar. You wouldn't call it completely fly-by-wire?
    Mr. Wallace. It is not fly-by-wire, no, sir.
    Mr. Oberstar. But the software is essential to its 
operation?
    Mr. Wallace. Absolutely. Absolutely.
    Mr. Oberstar. So at least that should have been fully 
vetted and fully tested. FAA is very good at that. They are 
often criticized in the air traffic control technology side by 
the industry, by users, oh, you took too much time to test 
this, your insistence on testing is slowing down the process of 
modernization. And yet FAA has been very insistent, very good 
on that point of not putting something, not putting a piece of 
technology into operation until they are confident it is going 
to work 100 percent, the way they expect it to do.
    Mr. Wallace. Yes, sir.
    Mr. Oberstar. And in this case, that didn't happen.
    Mr. Wallace. In my opinion, no.
    Mr. Oberstar. Why was that?
    Mr. Wallace. Because the process wasn't allowed to work. We 
have an established process called DO-178B, and in this 
particular case, it wasn't allowed to come to fruition before I 
could approve that software.
    Mr. Oberstar. Who didn't allow it to come to fruition?
    Mr. Wallace. Well, I can only speak for myself, Mr. 
Congressman. I signed off that mitigation strategy by saying I 
concur that the software only partially complies to DO-178B.
    Mr. Oberstar. But then after it left your hands?
    Mr. Wallace. When it left my hands, sir, that was very 
shortly, within a few days, they received the TC. And I moved 
on to other projects. I had other projects, and as far as I was 
concerned, that was it for me, I was done on that particular 
project.
    Mr. Oberstar. Well, you stand by your decision then not to 
sign off on it?
    Mr. Wallace. Yes, sir.
    Mr. Oberstar. You referred to a book promoted by FAA 
management as a must read. You said, the bus had left the 
station, not only was I not on the bus, I felt I was being 
thrown under the bus. What does that mean?
    Mr. Wallace. There was a book that was promoted by FAA 
management on management techniques. At that particular meeting 
on the 13th of September, I realized two things, one, that the 
supplier was not the problem, I was the problem because I was 
not going to approve that software. Then I realized also that 
the bus had already left the station and not only was I not on 
the bus, I felt I was being thrown under the bus, in other 
words, I was being overridden by management for technical 
decisions that I thought I was in a better position to make an 
assessment of.
    Mr. Oberstar. And you have had a lot of professional 
experience. Have you been overridden before in your field of 
expertise?
    Mr. Wallace. No, sir, I don't recall having been overridden 
before.
    Mr. Oberstar. So Mr. Hayes' comment that oh, sometimes 
decisions have to be made, management decisions have to be 
made, people have to be moved, is irrelevant to this issue.
    Mr. Lauer, you testified that in March 2007, you made the 
decision to purchase professional liability insurance. I have 
never heard of anyone doing that within the FAA. Why did you 
feel that was necessary?
    Mr. Lauer. Principally because the project-specific 
certification plan I referenced in my oral summary, it limited 
our ability to inspect those airplanes, certain portions of it 
were off-limits. Time-wise, we had roughly 12 hours to inspect 
those airplanes and no more.
    Bottom line is, if I am not free to look at every part of 
the aircraft I need to, then I can't be confident that it truly 
conforms and is in a condition for safe operation. Yet I am 
expected to sign and issue an airworthiness certificate for 
that aircraft. Forward thinking, if something were to happen 
down the road, NTSB comes knocking on my door, I was just 
wasn't comfortable.
    Mr. Oberstar. And you felt you needed some personal, 
professional protection?
    Mr. Lauer. Yes, sir.
    Mr. Oberstar. In the form of insurance?
    Mr. Lauer. Yes, sir.
    Mr. Oberstar. You also said, when Eclipse presented to FAA 
the second aircraft for airworthiness certification, you found 
that inspectors had not inspected a number of critical areas 
and may have violated Federal aviation regulations, with 
apparently false statements on the forms. Can you elaborate on 
that?
    Mr. Lauer. Yes, sir. The application form for airworthiness 
certificate contains a certifying statement above where the 
applicant signs. In essence it says the airplane has been 
inspected, it conforms to its type certificate and it is in a 
condition for safe operation.
    Mr. Oberstar. Well, and earlier you said that when FAA 
inspectors told Eclipse something they weren't particularly 
happy about hearing, their answer was, they can't live with it, 
the issue would be elevated to Washington. What did they mean 
about that?
    Mr. Lauer. Yes, sir. The inspectors began to hear that 
quite often from the Eclipse, I suppose it is mid-management 
level people that were actually out on the floor, overseeing, 
trying to get these aircraft processed. They wouldn't hesitate 
to pull that card, if the inspectors were asking to see too 
much, requiring too much, documenting too many things wrong.
    Mr. Oberstar. And that was probably said with an 
intimidating tone or with an implication that your judgment 
would be bypassed?
    Mr. Lauer. Yes, sir.
    Mr. Oberstar. That is not a safety-compliant attitude, in 
my judgment.
    Mr. Lauer. No, sir. Like I said in my statement, I 
perceived there was heavy, heavy management pressure from 
Eclipse management to those people in the company to get those 
airplanes out the door.
    Mr. Oberstar. And apparently, a relationship at some other 
level with Washington FAA personnel?
    Mr. Lauer. I was never privy to what went on at higher 
levels, sir.
    Mr. Oberstar. By Washington, you have to be in headquarters 
FAA.
    Mr. Lauer. Yes, sir.
    Mr. Oberstar. Well, Mr. Chairman, there are a number of 
these matters that we could pursue. I just want one more with 
Mr. DiPaolo. You said that you spoke to one of the 
certification engineers on September 29th, 2006 and you were 
told FAA was not going to sign off on the type certification of 
the Eclipse. Yet on a Saturday, that sign-off occurred. How did 
that happen?
    Mr. DiPaolo. You are asking me to interpret what the FAA 
managers were trying to do, and the only thing I can think of 
again was the pressure that they self-perceived about trying to 
get this airplane approved by the end of the fiscal year, that 
somehow that was linked to their performance plans. There is 
also another document called the partnership for safety plan 
that also tries to handcuff the engineers and force them to 
meet these time limits. These are documents that need to be 
reviewed by the Committee and possibly removed from the FAA's 
policy. They are not mandatory documents. They should not have 
a role in when we certify an airplane.
    Mr. Oberstar. It seems to me this process was driven by 
something other than safety within the FAA.
    Mr. DiPaolo. I agree with you, sir.
    Mr. Oberstar. We will continue to probe to get to the 
bottom of that. Thank you very much, Mr. Chairman.
    Mr. Costello. Thank you.
    Ms. Broyles, you were present, your testimony indicates you 
were present when Mr. Wojnar told a team that in other words, 
``we only need to go an inch deep when evaluating the quality 
system,'' is that correct?
    Ms. Broyles. Yes, sir.
    Mr. Costello. In your years of experience, have you ever 
been told such a thing before by a senior FAA manager?
    Ms. Broyles. Never.
    Mr. Costello. You also said that you consider yourself a 
very thorough auditor, and after you were told to look no more 
than an inch deep, you went back again and found numerous 
discrepancies that had already been signed off on by Eclipse 
FAA-designated inspectors, is that correct?
    Ms. Broyles. Yes, sir.
    Mr. Costello. And you were told by an employee of Eclipse, 
who I believe you say was your escort, that you were "looking 
more than an inch deep''?
    Ms. Broyles. Yes, sir.
    Mr. Costello. How did you take that? How do you think the 
Eclipse employee knew what FAA employees were told in an 
earlier meeting?
    Ms. Broyles. I really don't know how they found out what 
was told to us in an FAA internal meeting. I don't know how 
they got that information. But I was surprised when he said 
that to me, because I do tend to go more than an inch deep. 
Quite a bit more.
    Mr. Costello. I have other questions that we will submit in 
writing to you, to members of the panel. I would ask if there 
are any other questions by the Ranking Member, Mr. Petri, at 
this time. Mr. Petri will have questions submitted in writing.
    Mr. Boswell, do you have further questions at this time?
    Mr. Boswell. No, thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you. And let me say, 
reiterate what Mr. Oberstar said, we thank you for not only 
your testimony today but for your courage in coming here to 
tell us things that we need to know about what is going on with 
the FAA. And I also want you to know this, those of you who are 
still employed at the FAA, that I want to hear from you if in 
fact there is any retaliation at all. If there is any 
indication from employees or management at the FAA, any 
retribution from your testimony here, I personally want to know 
about it. There are protections in place where we should and 
can protect you.
    It is a valuable tool for us in conducting our oversight. I 
don't know if you were in the room earlier when I said a 
situation that resulted in nine deaths in my Congressional 
district was only discovered and revealed when employees came 
forward. Management wouldn't listen to them. But once we got 
the inspector general involved and others, it was determined 
that it was substandard care on their part. But it originated 
with current employees at that facility. But for their courage 
in coming forward to give us the information that we needed, we 
would not have been able to do some of the things we have just 
done to put other management teams in place and to begin to try 
and deal with the families and to compensate them for their 
loss.
    So again, we thank you for your courage. We thank you for 
your testimony, and at this time, this panel is dismissed. 
Thank you.
    The Chair will now introduce panel three as they are coming 
forward. They will take their respective places. Mr. Nicholas 
Sabatini, who has testified before this Subcommittee several 
times, the Associate Administrator for Aviation Safety at the 
FAA. Mr. John J. Hickey, the Director of Aircraft Certification 
Service for the FAA. Mr. Ronald Wojnar, Senior Advisor, 
Aircraft Maintenance Division, Aircraft Certification Services 
at the FAA. And Mr. Tom Haueter, Director, Office of Aviation 
Safety, National Transportation Safety Board.
    Mr. Sabatini, my understanding is that you will be offering 
testimony. Are there others from the FAA that will offer 
testimony or will they only be there to answer questions?
    In fairness to you, we allowed the Inspector General 
additional time and waived the five minute rule for him. The 
last panel, we kept them to five minutes. But in fairness to 
you, I think the Inspector General took about ten minutes and 
we certainly will be considerate of your time. Please, if you 
feel you need more than five minutes, please feel free to take 
that time.

TESTIMONY OF NICHOLAS J. SABATINI, ASSOCIATE ADMINISTRATOR FOR 
SAFETY, FEDERAL AVIATION ADMINISTRATION, ACCOMPANIED BY JOHN J. 
 HICKEY, DIRECTOR, AIRCRAFT CERTIFICATION SERVICE, AND RONALD 
WOJNAR, SENIOR ADVISOR, AIRCRAFT MAINTENANCE DIVISION, AIRCRAFT 
    CERTIFICATION SERVICE; TOM HAUETER, DIRECTOR, OFFICE OF 
     AVIATION SAFETY, NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Sabatini. Thank you, Mr. Chairman. I do appreciate 
that. May I proceed?
    Thank you. Chairman Costello, Chairman Petri, Members of 
the Subcommittee, thank you for the opportunity to appear 
before you today on behalf of the FAA to discuss the 
certification of the Eclipse EA-500. With me today is John 
Hickey, Director of Aircraft Certification Service, and Ron 
Wojnar, a Senior Advisor in the Flight Standards Service. We 
have one submitted written statement and I will be summarizing 
our remarks for all three of us this morning.
    With any major projects like Eclipse, there are really two 
stories. One is the technical story and the other is the human 
story. My written statement goes into great detail on the 
technical story, so I will not take this time to restate those 
issues. Rather, I would like to focus my remarks on the human 
story, because peoples' perceptions are important, and they 
certainly played a role in what you have heard today.
    To state the obvious, the certification of an aircraft is 
an extremely complex process. No aircraft obtains certification 
without a great deal of trial and error, and the Eclipse 
aircraft was certainly no different in that respect. We 
encountered many, many problems throughout the process. But we 
worked them through to achieve resolution. Was it a perfect, 
painless process? Absolutely not. There is no such thing.
    But the bottom line is, I believe that the aircraft was 
properly certified. I believe that the aircraft meets FAA 
safety standards and I have the results from a special 
certification review team to back me up on that. What I want to 
address head-on are the allegations that we have heard here 
today that management at the FAA unduly pressured our regional 
certification teams. Was there undue or improper pressure? I 
would have to say no. Was there any kind of pressure at all? I 
would have to say yes. In every job, in every project, with 
every deadline, there is pressure. There is pressure to do the 
job safely, to do it right and to do it on time.
    So what did happen? What kind of pressure was there? There 
was pressure to follow the laws and the regulations governing 
the FAA. There was pressure to meet our standards. There was 
pressure to follow our national guidelines and policies. There 
was pressure to meet an agreed-to time line. And when 
management at headquarters had reason to believe that these 
obligations were not being met, Mr. Hickey took the appropriate 
steps to determine the best way forward to meet our 
obligations.
    This Committee has rightfully criticized FAA management for 
not intervening when it should have. This was not such a case. 
When the officials in charge of establishing and implementing 
national policy for engineering overruled a local office on how 
the aircraft could be type certified, were some people unhappy 
with that decision? When Mr. Wojnar was sent in with a team to 
refocus the efforts for Eclipse to obtain a production 
certificate, were some on the local team troubled? Were people 
genuinely upset and concerned at various points during this 
process?
    Obviously, you have just heard from some of them. And I 
regret that they felt devalued, because I respect every 
employee working in aviation safety. I know that they are just 
as committed to safety as I am. But leadership is often about 
making difficult decisions when necessary. It is about 
protecting your people when you can and calling on them to do 
better when you must. Pressure to work harder or be more 
creative or more responsive is not a bad thing.
    I truly regret if that pressure was interpreted as a 
direction to do anything other than follow applicable laws, 
regulations and established policies. I appreciate that the 
witnesses we have heard from believe that headquarters' 
involvement was inappropriate or resulted in a less than 
thorough process. But I also know there are other individuals 
who would not agree with that assessment. They just weren't 
asked to testify today.
    I am not going to defend every action and decision in the 
very long and complicated certification of the Eclipse aircraft 
and the subsequent issuance of the production certificate, 
because I know there could have been better communication and 
documentation with respect to some of the disputed issues. The 
SCR noted those deficiencies and made some recommendations. But 
their recommendations were not revelations to us. We know there 
is always room for improvement and we are already working on 
how we can use the lessons learned from the Eclipse 
certification to make the certification process better.
    Mr. Chairman, we have heard a lot of things here today. We 
have heard a lot of allegations of undue pressure, of potential 
safety problems, of very human failures to communicate 
effectively. As I watched the testimony of the other witnesses 
in the other room, however, I am more convinced than ever that 
we have a dedicated workforce that only wants safety to 
improve. In that, we are in complete agreement.
    Mr. Chairman, Congressman Petri, Members of the 
Subcommittee, thank you for your time and for inviting us here 
to testify. Mr. Hickey, Mr. Wojnar and I are happy to answer 
any of your questions.
    Mr. Costello. I do want you to know, Mr. Sabatini, that I 
did hear your testimony in the adjoining room.
    Mr. Sabatini. Thank you, sir.
    Mr. Costello. I have a number of questions to ask, 
obviously, but let me give you an opportunity to expand on your 
testimony. You submitted your written testimony in advance, 
before you heard----
    Mr. Petri. Is Mr. Haueter going to give an opening 
statement?
    Mr. Costello. No other opening statements, is that correct?
    Mr. Sabatini. No, sir.
    Mr. Costello. Mr. Haueter, do you have testimony to 
present? I am sorry. Mr. Haueter is now recognized, and we will 
come back to you in a few minutes, Nick.
    Mr. Haueter. Thank you, sir.
    Chairman Costello, Ranking Member Petri and Members of the 
Committee, thank you for allowing me the opportunity to present 
testimony on behalf of the National Transportation Safety Board 
regarding the Eclipse 500 airplane. It is a privilege to 
represent an agency that is dedicated to safety of the 
traveling public.
    Although the Safety Board is not involved in aircraft 
certification and manufacturing processes, the Board strives to 
improve aviation safety through detailed investigations and 
subsequent recommendations. To date, the Board has conducted 
investigations of two accidents and three incidents involving 
Eclipse 500 airplanes. Four of these events occurred since 
April 2008 and are still ongoing investigations.
    As a result of an event on June 5th, 2008, at Chicago 
Midway Airport, the Safety Board issued two urgent safety 
recommendations to the Federal Aviation Administration 
regarding the Eclipse 500. In that event, the pilot reported 
that when crossing the runway threshold for landing the 
airplane encountered a wind shear and developed a high sink 
rate. The pilot arrested the sink rate by moving both thrust 
levers to the maximum power position. After touchdown, the 
pilot found that the airplane was accelerating, although the 
thrust levers were at idle. Because the airplane was rapidly 
approaching the end of the runway and could not be slowed, the 
pilot decided to abort the landing.
    During the climb-out, the pilots found that the thrust 
lever positions had no effect on engine thrust, and noted that 
the airplane's crew alerting system displayed that both the 
left and right engine full authority digital electronic 
controls, or FADECs, had failed. The pilots referenced the 
airplane's quick reference handbook on emergency procedures for 
engine control failure, which contained instructions for a 
single engine control failure, but not for a dual engine 
control failure.
    The procedures advised that when one engine control failed, 
its respective engine should be shut down. In order to reduce 
the airspeed, the pilots shut down the right engine. However, 
shortly thereafter, they noted the left engine was idle and 
would not respond to thrust lever commands. Fortunately, the 
airplane had sufficient altitude to reach the runway for a 
successful landing. Without the resourcefulness of the pilots, 
the visual meteorological conditions that prevailed at the 
time, and the airplane's proximity to the airport, the 
successful completion of this flight would have been unlikely.
    The findings of the investigation indicate that when the 
pilot advanced the thrust levers to the maximum power stops, it 
is likely that the thrust levers exceeded the normal maximum 
position which resulted in a dual channel failure in both 
thrust lever systems. Then because of program illogic in the 
FADEC software, the engines maintained the thrust level of the 
last valid thrust lever position. In this case, that position 
was or nearly at maximum power.
    When the flight crew shut down the right engine, the fault 
code for the engine cleared. However, because FADECs software 
was programmed so that the left engine would mirror the thrust 
lever position of the no-fault right engine, which was 
positioned at idle after shut-down, power in the left engine 
was reduced to idle. Thus, the pilots were flying with one 
engine that was shut down and another engine that would not 
advance past idle.
    On June 12th, one week after the incident, the Safety Board 
issued two urgent safety recommendations to the FAA. The first 
safety recommendation asked the FAA to require an immediate 
inspection of all Eclipse 500 airplane throttle quadrants to 
ensure that pushing the throttle levers against the maximum 
power stops would not result in an engine control failure and 
to require that any engines that failed the inspection be 
replaced.
    On the same day, the FAA issued an airworthiness directive 
to require Eclipse pilots to evaluate the throttle quadrants to 
see if a throttle fault could occur. The Eclipse has since 
developed an FAA-approved test procedure and issued an alert 
service bulletin that provided standardized procedures for 
testing the thrust levers. On August 2008, the FAA superseded 
its original airworthiness directive to mandate the Eclipse 
alert service bulletin which was to be accomplished by a person 
who was authorized to perform maintenance.
    The Safety Board's second urgent safety recommendation 
asked the FAA to require Eclipse to immediately develop an 
emergency procedure for dual engine control failure and to 
incorporate the procedure into the airplane flight manual and 
quick reference handbook. Eclipse developed the emergency 
procedures for dual engine control failure and the FAA issued 
an airworthiness directive to incorporate these procedures into 
the flight manual and a quick reference handbook.
    Additionally, Eclipse reprogrammed the FADEC logic to limit 
the thrust lever out of range angle and not make it a hard 
fault, so that when the thrust levers retarded below the angled 
range, the FADECs would resume reading the thrust lever 
position.
    This concludes my prepared statement and I am happy to 
answer any questions.
    Mr. Costello. Thank you, Mr. Haueter.
    Mr. Sabatini, you submitted your written testimony prior to 
your appearance here. You heard the witnesses testify on the 
previous panels, the IG and the former FAA employee and current 
employees. I wonder, is there anything that you want to add to 
the testimony that you submitted to the Committee based upon 
what you have heard? I have specific questions, but I want to 
give you the opportunity. These are some very serious 
allegations that have been made about a date and a calendar 
driving the project. You have heard the testimony. I don't need 
to go over it, but I will get into specifics. Any statement you 
would like to make?
    Mr. Sabatini. Well, let me begin by saying that the office 
manager who issued the type certificate stands by her decision 
back then that the aircraft met all applicable Federal aviation 
regulations. Secondly, we had a special certification review 
team that followed up, and these are people who are world 
renowned, respected in their own right, competent and qualified 
to make their own decisions, who have reviewed the data that 
was submitted for type certification, laboratory work, et 
cetera, and have determined independently that this aircraft is 
safe and has met the applicable Federal aviation regulations to 
be issued type certificates.
    I would also add, as I mentioned in my oral statement, 
there is much to be learned here in terms of the process. We 
are going to continue to improve that process. We take the 
recommendations that have been made by the IG and the special 
certification review team. A number of those recommendations 
were already underway. And we take it very seriously. I want to 
emphasize once again, there is no question in my mind or in the 
question of anyone in my organization or in the FAA that we 
work for the public. What we do is on behalf of the public. 
What we do is assure the safest possible system. And the safety 
data that we have today shows that we are living in 
unprecedented times. We are at the safest period ever with 
respect to both commercial aviation and general aviation.
    Mr. Costello. We are indeed, and that is where we want to 
remain. That is one of the reasons why we take our oversight 
responsibilities very seriously with this Subcommittee.
    You said there are things that we have learned here, 
meaning that the FAA has learned in the process, is that 
correct?
    Mr. Sabatini. Yes, sir.
    Mr. Costello. What are some of the things that you have 
learned and that you would do differently in the future?
    Mr. Sabatini. Well, as the Inspector General mentioned, 
while FAR Part 23 is the appropriate regulation to apply to 
airplanes of this nature, given the advancing technology, we 
recognize that we want to improve that regulation to put 
specific requirements in there for airplanes like the VLJ.
    I would also add that in the circumstances we have today, 
where the regulation has not yet been promulgated, there are 
tools that we can use and have used which are called special 
conditions. They call for special requirements that particular 
product, that particular technology must meet before we allow 
it to be certified.
    Again, we are looking at the structure of the Aircraft 
Certification Organization, determining whether or not that 
structure is proper for today's environment and making certain 
that we provide the appropriate resources when faced with new 
technology such as the Eclipse.
    Mr. Costello. As you heard the testimony and you are very 
much aware that the production certification was approved with 
13 outstanding deficiencies as was identified by the Inspector 
General, and it took a better part of the year after the 
approval was given to get these corrected. In retrospect, in 
the future, would you do that differently?
    Would you issue the production certification with these 
outstanding issues to be addressed with an IOU to say we are 
giving you a production certification and we will let you go 
forward and, at a later date, correct these or address these 
issues?
    Mr. Sabatini. Well, certainly we always learn from past 
experiences, for one.
    Mr. Costello. Have we learned from this experience?
    Mr. Sabatini. We certainly have, sir. The production 
certificate regulation is very broad in nature, and what was 
done was within the confines of what the particular rules 
allow.
    I would like to ask Mr. Ron Wojnar to further elaborate on 
those 13 issues because it is_I wouldn't say misrepresented_but 
there needs to be better understanding of what is being said 
here about 13 outstanding. Those issues were already identified 
and were in various stages of revision, which is not uncommon.
    So I would like to ask Mr. Wojnar, with your permission, to 
continue and expand on that.
    Mr. Costello. Let me ask Mr. Wojnar the question then 
before he explains.
    Knowing what you know now, would you go forward with the 
production certification with those 13 outstanding deficiencies 
pending, knowing that it took up to a year and in some cases 
over a year to address those deficiencies?
    Mr. Wojnar. Mr. Chairman, I think we have learned from the 
increased scrutiny that we need to reconsider how we do that.
    Mr. Costello. Is that a yes, that you have learned from 
that and that you would not allow certification with these 13 
deficiencies in the future?
    Mr. Wojnar. Well, it depends. We don't really look at them 
as deficiencies. The basic regulations were met. The production 
certification Board determined that the basic requirements were 
met.
    Mr. Costello. So same case scenario happens a month from 
now or six months from now, the same 13 items are identified 
that need to be addressed, you would still go forward with the 
production certification?
    Mr. Wojnar. I think we would improve our internal 
communications and decision-making.
    Mr. Costello. Is it a yes or a no?
    Mr. Wojnar. Yes.
    Mr. Costello. I mean we can dance around all day, but there 
are answers that we need to have.
    Mr. Wojnar. Yes.
    Mr. Costello. Either it is a yes or a no.
    Mr. Wojnar. Mr. Chairman, it is yes.
    Mr. Costello. So you would give the production certificate 
in the future with these types of deficiencies.
    Let me ask another question. There were 11 of these planes 
that Eclipse was permitted to go forward and deliver to their 
customers with deficiencies and IOUs outstanding.
    Mr. Wojnar. No, sir.
    Mr. Costello. There were not, okay.
    The IG in his testimony indicates that 11 planes were 
delivered to their customers, and we have letters in exchange 
between the FAA and Eclipse on this issue, and you are saying 
that that is not true?
    Mr. Wojnar. The 11 aircraft that were delivered prior to 
production certification conformed to all the FAA-approved 
data. The FAA inspectors ensured that they did. While I believe 
there maybe were some software revisions that were incorporated 
after the airworthiness certification, at the time of the 
airworthiness certification of all of those 11 airplanes, they 
definitely conformed to all the FAA-approved design data.
    Mr. Costello. Well, I would just refer you to the IG's 
testimony.
    Mr. Sabatini, you have a comment?
    Mr. Sabatini. Yes, sir, Mr. Chairman. What we know to be 
factual is that the office manager of the Fort Worth office 
that issued the type certificate issued it on the basis that 
that aircraft met the applicable regulations at that point in 
time.
    We also know that the special certification review team 
reviewed the data, competent in their own right to do that, 
well qualified to do that, and made the same determination.
    This IOU that exists is not cogent to the issue. It has no 
bearing on having issued the TC. That is an important 
distinction. It was an agreement that had no bearing on the 
issuance of the type certificate that was validated by the 
special certification review team.
    Mr. Costello. And the issue of the avionics not being 
certified at that time on the 11 aircraft, address that if you 
will.
    Mr. Sabatini. Well, those 11 aircraft were evaluated 
against the type certificate that was issued. That is the 
position of the office manager as well as the special 
certification review team. The aircraft met the requirements 
and the applicable regulations.
    And, sir, there is an area of confusion that I would like 
to address if I may. The regulation that addresses the 
certification of an aircraft is FAR Part 21.305, and it 
provides options for certification, not alternate means or 
equivalent levels of safety.
    It provides options of how you may proceed with the 
certification of that product, one of which is type 
certification, which is very widely used and very common. 
Another alternative is a TSO. Another is under a parts 
manufacturing approval basis or any other means approved by the 
Administrator.
    The certification process began for the avionics under a 
TSO. It is perfectly fine and within the regulations to 
finalize certification using the type certificate option. It is 
already in the law and should not to be construed as an 
alternate means. It is a means that a manufacturer can choose 
to opt for.
    Mr. Costello. You heard the Inspector General's testimony, 
and again there are several other questions we are going to get 
to, about the IOUs. You are saying that is common practice, and 
it is really no big deal.
    Mr. Sabatini. Well, let me say that for this particular 
project, the agreement that was made had no bearing on whether 
or not the type certificate was ready to be issued. The team 
that reviewed what we did determined that the aircraft was 
ready for type certification, that agreement notwithstanding.
    The office manager who signed that agreement will also tell 
you, which interestingly enough she has not been called to 
testify, will tell you that she made her decision on type 
certificate issuance on the basis of having met all applicable 
regulations.
    Mr. Costello. You heard the previous testimony by the prior 
panel, and I just wonder what your comments are concerning Ms. 
Broyles where she says, Mr. Wojnar, that you told a team of 
people that were called into a meeting that, in other words, we 
only need to go an inch deep when evaluating the quality 
system. Is that a true statement by Ms. Broyles?
    Mr. Wojnar. I don't believe it is a true statement, Mr. 
Chairman. I don't believe I have ever said that. I don't. I 
know it doesn't match FAA policy. It doesn't match my own 
philosophy.
    I even checked in with some of the other people who were 
present in the room that day, and they assured me that I never 
said that.
    Mr. Costello. So where do you think she got this impression 
that she said you should only look an inch deep and later that 
her Eclipse escort said ``you are looking more than an inch 
deep?''
    Mr. Wojnar. That is a mystery to me, Mr. Chairman.
    I do remember talking about the context of the production 
certification Board audit. I am sure I did mention that we had 
to make a decision. The company had been audited numerous 
times, and this was an audit to make a decision and to draw a 
conclusion. I said that we were going to do a comprehensive 
audit and spot check to make decisions that week.
    So there may have been some misunderstanding.
    Mr. Costello. It is a major misunderstanding, I would say, 
if she had the impression that you told her to only look an 
inch deep, and then an employee of Eclipse who escorted her 
said ``you are looking more than an inch deep.''
    That is your testimony for the record, is that right?
    Mr. Wojnar. That is correct, Mr. Chairman, and that makes 
me think maybe that came from somewhere else other than me 
because Eclipse was not with us at that meeting.
    Mr. Costello. Well, she didn't testify that they were with 
you at the meeting. That was a mystery to her. That was her 
testimony.
    She said that at the meeting you made the statement, you 
should only look an inch deep. Later, the Eclipse escort told 
her that she was looking "more than inch deep.''
    But that is your testimony for the record?
    Mr. Wojnar. Yes, sir.
    Mr. Costello. I have other questions, but at this time the 
Chair will recognize the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I feel a small obligation to ask Mr. Hickey. Your name has 
been mentioned a number of times, and you clearly have a lot of 
responsibility and are key player in this whole process. If you 
could just give us your view of the Eclipse certification, the 
kind of pressures or deadlines or how you managed this process 
from your point of view.
    Mr. Hickey. I would be happy to do that, Mr. Petri.
    The Eclipse program was one of very high visibility. It , 
but not unlike what we see in other areas outside of Fort 
Worth. Boeing programs are always highly visible. Engine 
programs like the Genex that serve on Boeing airplanes are also 
high visibility.
    What was unique about this was that it was a highly visible 
program for an office that was unaccustomed to high visibility 
programs.
    The program had worked its way through the process. It was 
certainly a long program. As we said earlier, it lasted five 
years, two years longer than a normal program of that size.
    At the tail end of the program, when the process that had 
previously been set where the avionics company was seeking one 
approval, its TSO approval for its avionics software, it was 
learned by the company, the airplane company, Eclipse, that the 
avionics would not get a TSO approval in time. Eclipse made a 
decision to invoke a regulatory provision in Part 21 to approve 
the software in a different way.
    It is incorrect to make statements that FAA suddenly 
allowed the approval of the software that was different from 
the industry standard. That is an incorrect statement.
    The industry standard, D0-178B, is not required to be met 
in its entirety if the product is certified and approved under 
the type certificate.
    In mid-September, Eclipse offered a proposal of how to 
approve the software to the FAA team. The FAA team disagreed 
with that approach and, because the deadline or the milestones 
set for certification were September 30th, I was asked to get 
involved.
    At this point, I think it is very important to stress that 
the date of September 30th was not a date set by the FAA. The 
date of September 30th was a date set by the company.
    In almost every program I have ever been involved in, all 
dates are set by the company, not by the FAA. They propose the 
dates. The FAA reviews the schedules and the things that lead 
up to that date and make determinations about whether or not 
they can meet the dates. In many, many cases, the date is never 
met.
    In fact, a previous goal was, in fact, September 22nd. The 
goal of September 22nd was not met.
    When I went down to Albuquerque, I brought with me the 
division manager with responsibility for the national policy 
for the applicable requirements for avionics software. During 
the meeting that we attended, it was decided that D0-178B was 
not required for certification.
    A different set of requirements was set. It was agreed to 
by the team, including one of the members of the previous 
panel. The company proceeded to go ahead and show compliance to 
those requirements.
    On the date of September 30th, the FAA team made two 
determinations. They determined the Eclipse 500 had complied 
with all the appropriate regulations and that it was in a 
condition for safe operation. In accordance with Part 21, when 
those two provisions are shown, the applicant is entitled to a 
type certificate.
    As a consequence, the manager of the office signed the TC 
and issued it to the company.
    Mr. Petri. My time is expired, but I just have one follow-
up after you have gone through this. There was an independent 
Special Certificate Review Team appointed. Was that because 
questions were raised about this internally and externally or 
why was it?
    You don't have a review of every certification. So could 
you explain why you did that and what the conclusions, who was 
on that and what their conclusions were after reviewing? I 
assume they were professional, qualified people who had the 
vision of hindsight and of the criticism and reviewed what you 
did.
    Could you discuss the briefly?
    Mr. Hickey. Yes, Mr. Petri.
    First of all, we do have a provision in the certification 
processes that do allow for what we call a Special 
Certification Review. We invoke it from time to time. If I were 
to guess, I would say we use an SCR maybe every five years. We 
do it when the compliance of a certain aspect of the airplane 
comes into question.
    Most recently, I think an SLR looked at the MU-2. We did a 
Special Certification Review of that.
    We did several Special Certification Reviews of the 737 
airplane back in the nineties when we were experiencing rudder 
issues associated with 2 accidents.
    So it is clearly a provision I have at my disposal, and I 
can invoke it when necessary.
    As a result of the allegations associated with the Eclipse, 
we decided it was best to call together a Special Certification 
Review to evaluate the specific areas being alleged by the 
witnesses that were alleged to be non-compliant at the time of 
the type certificate.
    Because of my involvement as director, I stepped out of 
that process. Mr. Sabatini, Associate Administrator, took 
responsibility for setting up the team. They created a team of 
some of the best and brightest specialists in my service. I 
can't emphasize enough that these people are the best. They 
also share that they had nothing to do with the original 
Eclipse type certification.
    They decided to head the team by someone outside the FAA, 
and they tapped a person named Jerry Mack who was a well-
respected safety expert. He has been in the business for many, 
many years, and worked at Boeing. So, he came in with the team 
and conducted a 30-day review in the areas of the allegations.
    That team made two findings, that the airplane in the areas 
of the allegation were, in fact, compliant at the time of the 
issuance of the type certificate, and that the airplane is 
currently safe.
    Mr. Costello. Let me clarify a couple of points here. Your 
testimony is that the manufacturer set the date of September, 
2006, is that correct?
    Mr. Hickey. That is correct.
    Mr. Costello. The date was not a date that was established 
by the FAA, that is correct?
    Mr. Hickey. That is correct.
    Mr. Costello. Your Annual Performance Plan shows the date 
of September, 2006 in the FAA's Annual Performance Plan, is 
that correct?
    Mr. Hickey. That is correct.
    Mr. Costello. This is customary practice, the manufacturer 
tells the FAA, this is when we are going to have you certify 
either the design or the production, and you put in your plan 
to work off of what the manufacturer desires?
    Mr. Hickey. Well, to be honest with you, Mr. Chairman, the 
fact that my performance plan called for September 30th was 
irrelevant to the fact that Eclipse had ultimately set 
September 30th, and I will explain why.
    When we set our business goals for, in this case, fiscal 
year 2006, they are set very early, well before fiscal year 
2006. We knew we had three programs that were in the running 
for certification as a VLJ. In my business plan, I was going to 
select one VLJ and use that as my goal and my objective to 
satisfy my boss. That that was what I was going to accomplish 
that year.
    I typically set the end of the fiscal year to give me 
enough flexibility because I don't control the certification of 
these programs.
    Mr. Costello. I understand the point.
    Let me ask you then, so it is your testimony and Mr. 
Sabatini's testimony and Mr. Wojnar's testimony that the 
calendar did not drive this project at all.
    Mr. Hickey. No, I don't think I am saying that.
    The calendar was set by the company. The FAA agreed to that 
date. That is a normal process.
    Mr. Costello. You heard the testimony of some of the 
current FAA employees who worked on the project, and their 
testimony is that corners were cut and things were overlooked 
in order to meet the deadline of certification of September, 
2006. You heard that testimony.
    Mr. Hickey. I did, sir, and I think I understand how you 
can draw that conclusion. But I think if you also looked at a 
previous deadline of September 22nd, corners were not cut to 
meet September 22nd.
    Mr. Costello. How many times has the FAA issued a 
certification on a Saturday afternoon?
    Mr. Hickey. I don't have that figure, but I will tell you 
it has happened before.
    Mr. Costello. It has happened before?
    Mr. Hickey. Yes, it has.
    Mr. Costello. I would like to have that information given 
to the Subcommittee.
    Mr. Hickey. I will provide that for the record.
    Mr. Costello. Mr. Hickey, since we are on a line of 
questioning here, let me ask you, you have heard from two 
different witnesses who sat at the same table, who testified 
under oath that you convened a meeting a few weeks before the 
TC was approved and that you made the statement: we are here to 
save a company.
    Is that an accurate statement? Did you make that statement 
in the meeting with these employees that they attended?
    Mr. Hickey. No, Mr. Chairman, I did not make that 
statement.
    Mr. Costello. You didn't. So they just pulled this out of 
the thin air?
    Mr. Hickey. I can't tell you where they got that, sir.
    Mr. Costello. Okay. You also heard testimony from employees 
of the FAA under oath who said that they were reassigned. I 
would like you to address that, why you took the management 
team out, put a new team in and a new manager in.
    Mr. Hickey. Yes, sir. First of all, I only removed one 
person in the whole process. I removed no one during the type 
certification process.
    It was during the production certification process when I 
became aware of behavior, procedures and practices that some of 
my inspectors were following that felt very strongly were 
inappropriate for the conduct of FAA people that individuals 
were removed.
    As a result of that and as a result of the previous issues 
I had with the directorate manager during the type 
certification process, I concluded to myself that I had lost 
confidence in the senior executive management of that office. 
And when I lost confidence, I couldn't accept the continuation 
of that program in that office until I had some level of 
confidence in the executive leadership.
    Mr. Costello. Explain what led you to lose confidence in 
the executive leadership.
    Mr. Hickey. During the type certification process, sir, I 
saw a number of cases, including the software case in mid-
September, where I found the directorate manager insufficiently 
engaged in the program, so that when issues would arise like 
the software issue, I found that person very much in tune with 
his own office's position. He but had virtually no contact with 
the applicant's position to understand and evaluate what was 
the right resolution on an issue.
    I am a firm believer that when we engage in certification, 
it is very important to understand both sides of a technical 
issue. I didn't find him adequately involved in doing that.
    Mr. Costello. Let me ask, this is the Inspector General's 
testimony. He says: "FAA Headquarters officials also removed 
the Directorate Manager in charge of both the manufacturing 
inspection and design certification offices from the Eclipse 
project.''
    That was a decision that you made?
    Mr. Hickey. Can I ask you to repeat that, sir?
    Mr. Costello. It says: ``FAA Headquarters officials also 
removed the Directorate Manager in charge of both the 
manufacturing inspection and design certification offices from 
the Eclipse project.''
    Mr. Hickey. That is not totally correct.
    Mr. Costello. It is not?
    Mr. Hickey. It is not.
    Mr. Costello. It goes on to say: ``In a six-page letter of 
reprimand, FAA officials stated that the Directorate Manager 
failed to meet expectations associated with meeting its 
`customer service initiatives.'''
    Specifically, the letter stated that he needed to ``build 
relationships with our customers to achieve operational 
results.''
    The letter further stated, ``Your personal relationship 
with the Eclipse executives is deficient. As Eclipse is one of 
your major customers, we expect you to work to improve the 
relationship.''
    You are not aware of the reprimand or any reference to 
telling the manager to develop this relationship with 
management at Eclipse?
    Mr. Hickey. I am well aware of the six-page document.
    Mr. Costello. You did say that, ``meet expectations 
associated with meeting its customer service initiatives,'' and 
you also said that ``your personal relationship with the 
Eclipse executives is deficient?''
    Mr. Hickey. The nature of the six-page performance 
conversation, sir, is tied and correlates with the six 
qualities and skills that we have as an executive manager in 
the FAA. They are items like business acumen, and unfortunately 
today I guess customer is a bad name, but it was a terminology 
that we used at the time.
    If I might add, as an executive, it is important for an 
executive to understand technical issues which happen a lot in 
certification. There are disagreements. It is very important 
for an executive manager to understand the issues that the 
office has as well as the issues that are raised by the 
applicant.
    Mr. Costello. I have further questions, but I have taken 
more time than I should.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Hayes.
    Mr. Hayes. [Remarks off microphone.]
    Mr. Costello. Very good. The Chair would recognize the 
distinguished Chairman of the Full Committee, Chairman 
Oberstar.
    Mr. Oberstar. I have been following your line of 
questioning while I was on Corps of Engineers business for the 
Committee in another room, meeting on other matters, and I 
think you have been pursuing a very appropriate and important 
line of inquiry.
    I want to come back to a few things and thank the witnesses 
for being here.
    The Inspector General testified--and you responded to this, 
but I want to hear it a little further--that the production 
certification was approved with 13 outstanding items identified 
as deficient. It took almost a year to get those corrected, and 
all that time the aircraft was being built and put into 
service. How can that be?
    Mr. Sabatini, how can that be?
    Mr. Sabatini. Well, as we said earlier, Chairman Oberstar, 
those deficiencies were identified early on.
    A type certificate is issued once there is a demonstration 
of meeting the regulations. This is unlike a production 
certificate, which, when issued, goes into what we call 
continuous oversight or certificate management. Our inspectors 
were engaged on an ongoing basis with assuring that progress 
was being made against those 13 identified deficiencies. There 
were continuous checks on revisions that had to be made and 
other such things.
    So our folks, our inspectors, dedicated safety 
professionals were fully engaged with that manufacturer.
    Mr. Oberstar. Before the aircraft was put into service, 
were they cleaned up? Our information says that aircraft were 
put into services with those deficiencies in place.
    Mr. Sabatini. So the production certificate, the quality 
control system, the infrastructure, the people, the 13 issues 
that had been identified are against that particular issue as 
opposed to the airframe itself.
    Those airplanes were being delivered in full compliance 
with the TC, and that was reaffirmed by the Special Review Team 
who concluded that the airplane met all applicable regulations 
and it was in condition for safe operation, sir.
    Mr. Oberstar. You maintain then that those 13 items 
identified as deficient were not safety of flight issues?
    Mr. Sabatini. Well, those were production certificate.
    Mr. Oberstar. The production certificate, not safety of 
flight issues.
    Mr. Sabatini. Right, and they didn't relate specifically 
and directly to the airplane.
    Mr. Oberstar. So in the production process, you are saying 
that the manufacturer was adjusting, was complying with those, 
correcting those deficiencies?
    Mr. Sabatini. It is my understanding that they were, and I 
would like to ask Mr. Ron Wojnar, who is an expert in that 
area, as to the progress that was being made on those 13.
    Mr. Oberstar. Yes, go ahead.
    Mr. Wojnar. If I may, Mr. Chairman, thank you.
    The production certification Board that convened to examine 
the company for its production certificate found that it met 
the two basic requirements in the rules: first of all, that 
Eclipse had established a quality system and, second, that it 
could maintain that quality control system.
    The 13 items, as Mr. Sabatini said, were identified in the 
course of final audit and earlier as items that we wanted to 
focus on. I would like to clarify that some of those 13 action 
items were not for the company or the company's quality system.
    A couple were for FAA follow-up. For example, we would 
expect the company to schedule for FAA to review its procedures 
in certain areas, or check on revisions of existing procedures 
to improve them based on what FAA had seen in our previous 
evaluation. There would be an FAA follow up.
    The very last one of the thirteen items, was for the FAA to 
schedule a complete evaluation, periodic evaluation of the 
Eclipse quality system. That happens every 18 months or so.
    So those weren't really all quality control system 
deficiencies. They were action items that we wanted to preserve 
and manage as we moved from the certificate issuance into the 
certificate management phase. Some were long-term, acceptable 
long-term actions.
    Mr. Oberstar. Well, the production certification is related 
to the ability to replicate the production of the article 
itself, the aircraft itself, and to assure that it can be 
replicated as they go through the production process.
    You are saying that you had no problems with their ability 
to replicate the production process, that these 13 items were 
not essential to that process.
    Mr. Wojnar. That is correct. They were items we wanted to 
manage with the company, but we were assured that the airplanes 
that were being produced conformed to the approved design and 
were safe, and that is a separate process.
    The 13 actions were for the overall quality system and the 
FAA follow-up.
    Mr. Oberstar. How do you rate that system today?
    Mr. Wojnar. Sir, I don't have that information. I haven't 
been involved with Eclipse since April 26 of 2007. So I have 
not been involved in the ongoing oversight.
    Mr. Oberstar. Mr. Sabatini, how do you rate the system 
today, the production?
    Mr. Sabatini. I would have to get back to you on that, Mr. 
Chairman, since I don't have that information readily at hand. 
We have the local office that is responsible for that 
certificate.
    I am certain, given the attention that has been given to 
Eclipse, had there been issues, if Eclipse is not making 
progress, I certainly would like to have been informed. So, at 
this point in time, I will say I would like to get back to you.
    Mr. Oberstar. Well, we would like to have that information.
    Now, in April at our earlier hearing, we recommended that 
you amend the so-called Customer Service Initiative to avoid 
the appearance of a conflict of interest with your safety 
mandate, and it is apparent that the FAA has not been making 
adjustments to the Customer Service Initiative.
    Mr. Sabatini. Well, Mr. Chairman, I will tell you that I 
have personally visited every region and directorate and had 
audiences of hundreds of people, and I made it very clear that 
we work for the public, that what we do with the aviation 
community is on behalf of the public and that our first and 
most important mandate is safety.
    I have also put out highlights that go to every one of our 
employees and restated once again that our customer is the 
public.
    Mr. Oberstar. Have you changed your fundamental document, 
the Customer Service Initiative, the written document itself? 
Have you changed that?
    Mr. Sabatini. That has not yet changed, sir.
    Mr. Oberstar. That is what I am referring to.
    Mr. Sabatini. That has not yet changed, sir, and we are 
taking steps to address that.
    Mr. Oberstar. You are going to do that?
    Mr. Sabatini. We are taking steps to address that, sir.
    Mr. Oberstar. Okay. In light of what we have been 
discussing, I won't ask you for a deadline, but when do you 
expect to publish a new document?
    Mr. Sabatini. Can I get back to you on that, sir?
    Mr. Oberstar. Of course.
    Mr. Sabatini. Thank you.
    Mr. Oberstar. With great interest.
    Now we have come back to this issue of a deadline, a date 
set, a date specific. Why was a date specific set and why 
didn't the FAA in this case adhere to its longstanding 
principle that the aircraft is safe when you say it is safe, 
not when a date is met?
    Mr. Sabatini. Is that directed to me, sir?
    Mr. Oberstar. Of course.
    Mr. Sabatini. Okay. Several things, sir. There are many 
lessons learned here. For one, I would like to restate that 
date did not mean that, come hell or high water, we would just 
issue a type certificate. We simply will not do that.
    The time line from the first three-year window that we had 
with Eclipse slipped to the right an additional two years.
    So let me say that we are going to review this process 
completely, and we are going to change the way we do business 
to make it clear so that there isn't even the appearance that 
an agreed-to time line on how one can expect to have a product 
certified is not misunderstood to mean that we will issue a 
certificate by that date.
    I can assure you, sir, that we will take every step 
necessary to adjust that so that we never have that appearance 
happen again.
    Mr. Oberstar. I am delighted to hear you say that. That is 
establishing a spirit of compliance, oversight and of safety 
responsibility that I expect from the FAA and I expect from 
you.
    Mr. Sabatini. Yes, sir, and you have it.
    Mr. Oberstar. But how did that date come to be? Where did 
it come from?
    Mr. Sabatini. May I just provide a context and perspective, 
sir? It may take just a little bit of time.
    One of our goals is increased safety in our FAA Flight 
Plan. We know that over the many, many years that FAA has been 
in business, we have continuously improved the safety record. 
One of the goals is not only to improve on the commercial fatal 
accident rate but also in the general aviation accident rate.
    In that context, we recognize that industry is capable of 
producing new technology such as aircraft like a VLJ, which 
technically has no official standing or meaning. It is a term 
of art.
    We know that the introduction of turbine engines to a small 
aircraft like that will significantly improve safety because it 
has tremendous power, great climb performance, is able to fly 
higher than the weather, is the introduction of advanced 
integrated avionics, provides terrain avoidance capability, 
weather radar, and situational awareness, all at the fingertips 
of a pilot who is well trained.
    Mr. Oberstar. That is great context. You are leading to 
your point to answer my question.
    Mr. Sabatini. Yes. The point is that we have a 
responsibility to allow new technology to come into the system 
so that we can continue to improve on the general aviation 
safety record.
    If you go back in time, during that period when we were 
developing our Flight Plan which is agency-wide with the very 
broad goals, there were 24 such airplanes in various stages of 
application or ideas that were brought to our attention. The 
one that was most prominent at that time was the Eclipse 
because they seemed to be ahead of most other manufacturers.
    In the Flight Plan, what we said is that we would type 
certificate a Very Light Jet. We didn't name it at the high 
level nor at the AVS business level.
    John chose to, being a good manager, say, well we are 
making great progress with this VLJ. It seems like a likely 
candidate. And, for that reason, he specifically identified it.
    But it was in the context of being a federal agency acting 
on behalf of the public, and assuring them that we could safely 
bring into being and into operation the best technology that we 
could provide to the industry.
    Mr. Oberstar. So, in that context, you decided that a 
deadline had to be set by which time you would complete that 
certification?
    Mr. Sabatini. Well, if the manufacturer could complete the 
certificate.
    Mr. Oberstar. So you are saying that date really came, sui 
generis, from within the organization.
    Mr. Sabatini. Well, it came from the manufacturer who 
proposed that they could meet that date.
    Mr. Oberstar. The manufacturer proposed the date, not you.
    Mr. Sabatini. Yes, the manufacturer proposed it.
    Mr. Oberstar. And then you embraced that date and said, 
okay, that is the date by which we will complete our work.
    Mr. Sabatini. Yes, and it is dependent on us having the 
resources to do it. There is much that goes into agreeing to a 
time line.
    Mr. Hickey. Mr. Chairman, if I can add a couple items in 
terms of setting dates, all certification programs, almost 
without exception, are set by the applicants' dates. History is 
littered with cases where they are never met. The dates are not 
met because they fail to provide the necessary information for 
the agency.
    Mr. Oberstar. In this case, you issued a provisional type 
certification by that date.
    Mr. Hickey. This was back in July that they were shooting 
for a full type certificate. They failed to provide the 
information necessary to get a full type certificate, so we 
issued a provisional type certificate.
    Mr. Oberstar. It seems to me that you shouldn't have issued 
a provisional. If the FAA stamp of approval means something, 
then it means you meet our standard. We are not giving you an 
IOU.
    Mr. Hickey. No. I am sorry, sir. A provisional is a very 
clearly delineated certificate in Part 21. It is not a 
secondary type certificate. It is a certificate in its own 
right. It, historically, is often used for an applicant to 
achieve that and then enable them to go out and market the 
airplane, et cetera.
    They elected to go for a provisional when they determined 
they could not get a full type certificate, and we issued the 
provisional when they met those standards. But with every 
provisional, it is loaded.
    Mr. Oberstar. What did that mean operationally for the 
company? Let me stop at that. What did it mean for Eclipse?
    Mr. Hickey. It was an airplane that was virtually 
unflyable. It had so many limitations, it was essentially 
worthless. It had more value from a marketing standpoint than 
it had from an operational standpoint.
    Mr. Oberstar. In 2007, we had 491 general aviation aircraft 
fatalities. FAA's work has brought that number down and so has 
AOPA's education program for pilots, and a great deal of work 
has been done to bring it from 684 fatalities on average a year 
down to 491.
    But with that in mind, you have to maintain your continued 
vigilance especially at the start of a process, in the 
certification, the type certification process. That is what we 
are looking for.
    Mr. Hickey. Sir, I couldn't agree with you more. I think as 
we demonstrated by issuing the certificate at that time and as 
the SCR validated, that airplane was type certificated properly 
and was in a condition for safe operation.
    I must add to what you said. You have said an absolutely 
correct statement.
    For every one of these airplanes, like an Eclipse or a new 
Cessna or any one of these new airplanes with the fancy 
avionics, for every one of those airplanes that enters the 
airspace system, an older, more antique airplane leaves the 
system. That has an incremental improvement in safety. We are 
very, very mindful of that when we do these certification 
programs.
    Mr. Oberstar. But here, we have the situation where the 
software problems led to engine freezing at full power and just 
narrowly avoiding an accident by very skilled pilots.
    Mr. Hickey. May I comment on that, sir?
    Mr. Oberstar. Yes, go ahead.
    Mr. Hickey. That was not a software failure in that 
particular case. That was the design, it turns out.
    Mr. Oberstar. Design of what?
    Mr. Hickey. That was an intended design that when one 
engine had some form of an anomaly, that the other engine would 
go to full thrust. That is my understanding of the Eclipse 
design. I believe the following panel can elaborate on it.
    What they didn't realize, what they didn't envision at the 
time was that the scenario that actually occurred created more 
of a problem than it solved.
    But I don't believe that this was a software failure that 
we should have uncovered during certification.
    Mr. Oberstar. But it was a design.
    Mr. Hickey. It was a design intended to solve one problem.
    Mr. Oberstar. And that it was faulty is not a problem? That 
is what you are saying.
    Mr. Hickey. It was faulty in another scenario, that is 
correct, sir.
    Mr. Oberstar. Yes, that is what we are getting at.
    Mr. Hickey. Okay.
    Mr. Oberstar. Now Mr. Hayes earlier described that the 
pilot pushed the throttle forward, and there was metal that 
jammed, and that caused the problem. What we understand is that 
the software itself was faulty in its design.
    Mr. Hickey. Yes, sir.
    Mr. Oberstar. And someone is supposed to pick that up ahead 
of time.
    Mr. Hickey. We didn't know what we didn't know. You are 
right, sir.
    Mr. Oberstar. Okay. Mr. Haueter, have you and NTSB reviewed 
this issue?
    Mr. Haueter. Yes, we have. We looked at the investigation.
    The throttle levers did not jam full forward. By going full 
forward, they exceeded the software's logic. They went past, 
say, the 100 percent point. The software was designed that if 
you go outside a range, use the last valid piece of information 
which was full throttle.
    Mr. Oberstar. Has that situation occurred in any other 
flight of this aircraft?
    Mr. Haueter. Not that I am aware of.
    Mr. Oberstar. That it did occur was a signal that there was 
a big problem or was that software taken out of the aircraft 
and corrected in all other aircraft of that type?
    Mr. Haueter. Eclipse has since gone back and changed the 
software logic, yes, sir.
    Mr. Oberstar. Did they ground the aircraft until it was 
done?
    Mr. Haueter. No, they didn't ground the airplanes.
    They inspected the throttle quadrant assemblies. FAA came 
out with several ADs, and then there was a change to the 
software logic.
    Mr. Oberstar. There were some 200 aircraft produced at that 
point.
    Mr. Haueter. Yes, a little over 200. Yes.
    Mr. Oberstar. A little over 200, is that correct, Mr. 
Hickey?
    Mr. Hickey. Yes, roughly around 200, sir. Yes, sir.
    Mr. Oberstar. Did FAA intercede at that point and say, 
``you have a problem here, you have to go back and fix it'' and 
tell the owners of the aircraft ``don't fly until you get your 
software replaced?''
    Mr. Hickey. Well, what we did is, I believe, issue the 
airworthiness directive on the day the NTSB issued the 
recommendation. It called for the pilots to do a check on the 
throttle quadrant to make sure that it didn't exceed and engage 
that inadvertent software function.
    All the while, we are in the process, or Eclipse is in the 
process, of designing a fix for the software because, sir, the 
software itself did what it was intended to.
    But as we often see in certification, some designs are 
intended to do one thing, but they inadvertently cause problems 
in another thing, and that is what was the case here.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Chairman Oberstar.
    Let me clarify a point before I recognize my friend from 
North Carolina.
    Mr. Sabatini and Mr. Hickey both, you have referred and we 
heard from the Inspector General about the Special 
Certification Review Team, and you have indicated that 
immediately when these issues came to light the Acting 
Administrator put this review team together.
    It is my understanding from talking to the Inspector 
General and the Acting Administrator that assembling the review 
team was actually a recommendation of the Inspector General, 
that he recommended that to the Acting Administrator. So I 
wanted to make that point.
    Secondly, I think at some point the IG may have suggested 
that, Mr. Wojnar, you were on the review team. Is that correct?
    Mr. Wojnar. That is correct, Mr. Chairman.
    Mr. Costello. He questioned that maybe that could have been 
a conflict of interest with you reviewing the certification 
that you had basically been in charge of. But those are just 
items for the record that I think we should clarify.
    And, I think a very important point to make about the 
review team, and you correct me if I am wrong, but I am told 
that the review team did not look at any of the issues related 
to the approval of the production certificate. Is that correct?
    Mr. Sabatini. That is correct, sir.
    Mr. Costello. In much of the IG's testimony today and his 
written testimony, he testifies about manufacturing problems 
that continue today. So my question is have you gone back, the 
review team, and conducted a review of the production process 
of the EA-500?
    Mr. Sabatini. Well, let me begin by saying, Mr. Chairman, 
that we cooperated fully with the Inspector General, and until 
the 11th hour there wasn't a single word mentioned about issues 
around production certificates. So we focused on the issuance 
of the type certificate.
    But rest assured, Mr. Chairman, we are not narrowly 
focused. We are going to review this entire process.
    We are going to apply pretty much the same standard of 
oversight that we do with the issuance of an Air Carrier 
Certificate: Unless you satisfy a particular phase, the first 
phase, you are not going to go beyond that first phase until 
you satisfy everything that needs to be done.
    That is under review, and I can assure you that it is going 
to be completed in a timely fashion. So the approach that we 
are going to take with type certification is going to mirror a 
great deal of what we do with the air carrier world.
    Mr. Costello. After the production certification went 
forward and was approved by the FAA, your own auditors, FAA 
auditors according to the Inspector General, of this aircraft, 
the suppliers of Eclipse found significant deficiencies 
occurring that should have been corrected.
    I mean your own people. After the production certificate 
was issued, your own inspectors found that there were 
deficiencies, things that should be, in fact, addressed. That 
took place. They were found between February and August of 
2008.
    So I could go into a long list of them. You know what they 
are: Receiving or accepting nonconforming parts or tools, parts 
not properly stored or marked, failure to follow manual 
procedures, uncalibrated tools, revision to tooling and so on. 
I could go on and on.
    The largest user of the EA-500, FAA inspectors found 
problems with Eclipse supplier-manufactured parts on 26 of the 
28 aircraft operated by that company, the largest user.
    So my question is what have you done? What has the FAA done 
with the findings of those inspectors concerning the 
manufactured parts on 26 of those 28 planes?
    Mr. Sabatini. May I defer that question to Mr. Wojnar, 
please?
    Mr. Costello. Sure.
    Mr. Wojnar. Mr. Chairman, I think that shows that the 
certificate management is working as it should in the FAA in 
the oversight of Eclipse. I, personally, don't have the 
information on those details. As I said, I have not been 
involved in the oversight of Eclipse since production 
certification.
    But it is a normal thing. We do not issue a production 
certificate and walk away. Our oversight continues 
indefinitely. So, while we will have to provide the details, I 
think it illustrates that our system is working.
    Mr. Costello. Well, if it is a normal thing when 26 of the 
28 aircraft with the largest user, that your own people have 
identified problems with the manufactured parts, please tell me 
that you are doing something about this as we speak.
    Mr. Sabatini. Mr. Chairman, I don't have that information 
at my fingertips. We are addressing that, but I don't have the 
specifics, and I would like to get back to you on that, sir.
    Mr. Costello. I would say that if I were in your position, 
that would be a high priority for me to address those issues 
without delay.
    Mr. Sabatini. It is, sir.
    Mr. Costello. The Chair now recognizes Mr. Hayes from North 
Carolina.
    Mr. Hayes. Thank you, Mr. Chairman.
    Mr. Wojnar, I missed something here. Just comment, if you 
will, on the review panel. You were on there. Was there 
anything inappropriate about that?
    Mr. Wojnar. Thank you for the opportunity, sir, to make the 
clarification.
    I was not involved in any way with the Eclipse type 
certification. I was formerly an executive in Aircraft 
Certification, but by the time of the type certification, I had 
left Aircraft Certification to join the Flight Standards 
Organization in the FAA, and I had been gone approximately a 
year from Aircraft Certification.
    So there, in fact, really was no conflict for me.
    Mr. Costello. If the gentleman would yield, just so I have 
a clear understanding here because maybe I am confused. Were 
you involved in the production certification?
    Mr. Wojnar. Yes, sir.
    Mr. Costello. For the Eclipse EA-500?
    Mr. Wojnar. Yes, I was involved in the production 
certification which is a totally separate FAA decision.
    Mr. Hayes. You didn't give me a chance to say, of course, I 
will yield.
    If there were a time line or if there were no time line, 
the moment of certification comes, is the FAA going to certify 
a plane that is unsafe?
    Mr. Sabatini. Absolutely not.
    Mr. Hayes. Anybody else have a different answer to that?
    So I don't think the issue here is the time line.
    Next question, if you look at the process now, being where 
we are today, what are the major issues that you think this 
panel should deal with going forward?
    What are the major issues? Again, remember on the top of 
our letterhead here is safety.
    Mr. Haueter, you are the Safety Board guy.
    Mr. Haueter. I think one of the issues we see is and our 
certification study found that some of the assumptions you have 
in certification do not pan out as time goes by.
    Mr. Hayes. Explain which assumptions.
    Mr. Haueter. Well, I think one of the assumptions here was 
to the throttle lever, that it would not go out of 100 percent 
range. Obviously, we had a pair of pilots who found, with 
normal force, it would.
    Mr. Hayes. So that means they pushed it right on into that 
panel, and it exceeded what the software said it would do.
    Mr. Haueter. That is correct.
    Mr. Hayes. How do you plan for that?
    Mr. Haueter. Well, it is something you have to consider, I 
think, during certification. I am surprised that wasn't found 
during the certification process by the test pilots.
    Mr. Hayes. Okay. Any others?
    Again, we have an issue and, Mr. Oberstar, you and I have 
talked about that. That is something. How do we prepare for the 
unexpected beyond any normal parameters?
    All right, Mr. Hickey?
    Mr. Hickey. Mr. Hayes, I would like to offer a couple 
things that I think this Committee is certainly looking for us 
to say. I have spent a lot of time since this has come up 
thinking about what would I do differently and what we should 
do differently because I completely agree with this Committee. 
These problems should never happen again, I do believe.
    Mr. Hayes. Now this event should never happen again. What 
is the event that should never happen again? Let's make sure we 
are on the same page.
    Mr. Hickey. The event is an airplane was certificated, type 
certificated and production certificated, and there is a group 
of people who are very disappointed and disagree with those 
decisions.
    I consider that to be a failure. I take full responsibility 
for that as Director of Aircraft Certification.
    Mr. Hayes. Okay. I think that is important. I didn't 
understand that until you clarified.
    I hope the gentleman and the lady who are here understand 
because that is part of our responsibility, whatever department 
we are in, to make sure. The relationship between management 
and the folks that are being managed is crucial.
    All right, go ahead.
    Mr. Hickey. Right. So, clearly, as I have been thinking 
about it. The fact that we place very high focus and attention 
on completion of a type certification program, whether it is an 
Eclipse or a Boeing or any other program, that can lead to 
problems. Especially when certification is in many ways out of 
the control of the FAA. I think that is a lesson we learned and 
we are no longer doing that.
    When we build our Flight Plan and our AVS Performance Plan 
and my Aircraft Certification Plan, we create objectives that 
we clearly see are well within our control. So we don't place 
undue pressure on individuals to meet certain deadlines when it 
is really out of their control. I think that is a lesson 
learned that we have had since then.
    Mr. Hayes. Well, I am a little confused by that. You can't 
set the timetable for the company, whoever it is, and they 
can't set the timetable for you. Your timetable is controlled 
in large measure by us, how many resources, how many people, 
but again there can only be so many people in one place at one 
time.
    I am not sure how we refine that down to a take-away from 
this discussion.
    Mr. Hickey. Let me try this. The take-away I think we have 
is how we conclude agreements between the FAA and companies on 
certification programs. We develop these project plans where we 
are committing to each other to do certain things and meet 
certain deadlines. But those deadlines are only conditional 
upon the other group meeting their deadline.
    So our performance is being measured on our ability to meet 
the deadlines we have committed to, and that deadline could 
very well be noncompliance. It doesn't necessarily mean we will 
find compliance or that the certificate will be issued. I think 
that is a very different thing from what occurred several years 
ago.
    Mr. Hayes. Maybe somebody who is not building airplanes, 
and somebody who is not inspecting airplanes but who has audit 
experience sits down at the beginning of the process and says, 
folks, your time line is realistic or it is not realistic.
    So, again, we have to be careful so that undue burden is 
not put on either one because those tensions do exist.
    Mr. Hickey. I agree with you, sir.
    Mr. Hayes. The last thing, and I am trying to remember what 
it was. Again, looking forward to the ongoing discussion, I 
think this is the beginning, not the end of the process.
    A single pilot, in certification, you can certify an 
airplane, daylight/night, VFR/IFR, known icing/no ice. So it 
needs to be clear to anybody that doesn't fully understand that 
a provisional certificate is not an anomaly. It is not 
escaping.
    That is just like you can put an incapable pilot--and we 
had that example earlier--in a capable airplane, and those 
don't mix. The fact that there is a provisional certificate, 
assuming the provisions of the provisional are met, that is not 
a big deal.
    As someone pointed out earlier, DayJet has decided for 
marketing reasons, they will furnish 2 pilots for their Part 
135 operation. This is fine. But again, with complete review, 
this airplane can easily and safely be flown by one well-
trained, one qualified, well-qualified and current pilot. So 
let's keep all that going.
    Mr. Chairman, thank you.
    Mr. Oberstar, I think, has a puzzled look.
    Mr. Sabatini. Mr. Chairman, if I may correct a statement I 
made?
    Mr. Costello. I thank the gentleman.
    Were you wanting him to yield?
    Mr. Oberstar. Mr. Graves, has he been recognized?
    Mr. Costello. Mr. Graves is going to be recognized next.
    Mr. Sabatini, you wanted to clarify a point.
    Mr. Sabatini. Yes, thank you.
    Early on in the conversations working with the Inspector 
General, in a Power Point presentation, I have learned that 
production certification issues were mentioned, but only 
recently did we have an opportunity begin to address those 
issues with them.
    Mr. Costello. The Chair now recognizes the gentleman from 
Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Unfortunately, I have to go handle five bills on the floor 
here in a minute for the Committee, at least from our side. I 
haven't been up here for which I apologize, but if I could 
yield to Mr. Hayes I would love to continue to hear this and 
sit here and listen.
    Mr. Costello. Mr. Hayes.
    Mr. Hayes. I think I pretty well completed unless there is 
an issue that any of you or all of you collectively would like 
to bring to our attention and make sure we are not missing an 
important take-away here.
    Okay, the customer service thing, I think we never put the 
finishing touches on the relationship there. Would any of you 
like to again clarify for all of us exactly what the approach 
is?
    I haven't really seen it as customer service since day one, 
but what do you think it is now going forward?
    Mr. Hickey. Mr. Hayes, I would like to address that from a 
type certification standpoint.
    Long before the CSI was implemented, I believe in 2002 or 
2003, the type certification process has had what we call an 
appeal process.
    Engineering is very much not black and white but very gray. 
On dealing with compliance of any regulation, there are often 
very complicated and very technical debates over whether an 
airplane company is complying with a regulation.
    For the most part, it works fabulously. We write issue 
papers. We document the position that the FAA feels is 
appropriate for compliance to this regulation. The applicant 
writes the position that they would propose to do.
    For the most part, we come together. We have an agreement 
on how compliance can be shown.
    On occasion, there are issues where there are differences 
of opinion. The company feels that they would like to show 
compliance in this way. The FAA has a different nuance. The 
parties are a little bit concerned about this or a little bit 
concerned about that, and so they stress that.
    Keep in mind the regulation, quite frankly, is very 
performance-based. It gives flexibility to meet the 
requirement.
    For many years, what we have is, when the debate has ended, 
we have a process that has been well documented and it is 
reflected in the agreements we make. Disagreements get elevated 
to the next level.
    This is not a case of a customer getting some favorable 
treatment. This is a case of a different set of eyes, a more 
senior set of eyes reviewing both sides, looking at the issue 
to see if we can come to resolution.
    If that fails, the resolution goes to another higher level, 
and it goes to a senior level until we reach resolution. That 
is a very common thing, and it happens, and it should have 
happened in this process with respect to the software 
certification.
    Unfortunately and regrettably, I must say it did not. There 
was not an issue paper written. I think there were decisions 
made without documentation, and it is not surprising that there 
are a number of the people who testified who felt that their 
position was inadequately conveyed and considered.
    I seriously regret that, and I take full responsibility for 
that.
    So one of the take-aways I have from this process is that I 
am going to strictly enforce this process of getting issue 
papers such that, again in the event of this type of issue, the 
people like Mr. Wallace, who had a very strong opinion, can 
have a vehicle for presenting that opinion where we have a very 
documented way of dispositioning it.
    Mr. Hayes. If he loses, how are you going to deal with it? 
And if you lose, how are you going to deal with it?
    Mr. Hickey. Unfortunately, in our business, not everyone is 
in agreement with every issue.
    Mr. Hayes. Mr. Graves, thank you. I yield back.
    Mr. Graves. I don't know if it has already been asked, but 
how much time does it usually take to certify an aircraft? What 
is the average time?
    It took five years for Eclipse. Isn't that a little long or 
is it not a little long? Am I mistaken there?
    Mr. Hickey. Yes, sir, Mr. Graves, it is a little long.
    The regulations create a nominal period of time, and it is 
largely based on the need for setting the certification basis. 
A company wants to know precisely what are the regulations they 
have to design their airplane to.
    If you don't set that, regulations come and go and the 
airplane, when it is just about done, may have to comply with a 
new regulation, et cetera.
    The regulations call for, for a transport airplane like a 
Boeing, five years as the nominal period.
    For all other products, which would include the Eclipse 
500, three years is the standard period. It turned out they 
needed over five years to do it. We granted an extension to 
them.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Costello. I wonder if you would yield to the Chair, Mr. 
Graves.
    Mr. Graves. I will yield. I would be happy to, Mr. 
Chairman.
    Mr. Costello. Just to clarify a point, when we are talking 
about five years and we haven't gotten into this issue with 
this panel, but the ODAR was issued in 2002, about four years 
before the Design Certification was issued.
    So when we are talking about five years to get a time line 
and an understanding of this, the fact is that Eclipse was not 
going full-force through the process. There were issues with an 
engine where they had to change course. There were issues with 
investors and other things.
    It wasn't that they were pressing the FAA or they were 
moving forward the entire time. They had some issues that they 
had to deal with externally as well. Is that an accurate 
statement, Mr. Hickey or Mr. Sabatini?
    Mr. Hickey. I think it is accurate, Mr. Chairman.
    Mr. Costello. Thank you.
    The Chair now recognizes Chairman Oberstar.
    Mr. Oberstar. Mr. Hickey, I want to compliment you on 
accepting responsibility, and I accept your version of what FAA 
is going to do rather than Mr. Hayes who is trying to, I think, 
reword what you are saying.
    I think you are on the right course. You have found some 
shortcomings in this process, very serious shortcomings, and 
both you and Mr. Sabatini are committed to correcting those. 
That is the spirit of leadership that I expect from FAA, and we 
will watch very closely.
    To put the issue that you described earlier, a procedure in 
which those who are deeply involved in the certification 
process raise questions, raise issues and have concerns can be 
sure that they are fully responded to. It is not a question of 
he loses or you lose. The question is does the owner-pilot 
lose?
    Your job, the FAA's, is to make sure that doesn't happen.
    Mr. Hickey. I agree, sir.
    Mr. Oberstar. So it is not who loses and who wins. The real 
issue is are there concerns raised by professionals--skilled, 
talented, seasoned professionals within the agency, fully 
respected, fully responded to, not deadlines that are 
arbitrarily or externally or even internally established.
    In this certification process, you are right. It takes at 
least five years for transport aircraft to reach certification, 
at least, longer if you go back into the engineering and 
design.
    It was at least five years before the Cirrus all-composite 
aircraft was certified, and they complained about this, that 
and the other and a whole host of things. But those strain 
gauges were essential to test that wing structure. Should it be 
two wings joined in the middle? Should it be a single wing?
    They went through a great deal of testing to make sure that 
the ultimate design, type certificated and production 
certificated by the FAA, was the right design.
    At 41,000 feet in the air, I have said it so many times, 
there is no curb to pull over and look under the hood and see 
what has gone wrong.
    Mr. Hickey. I know.
    Mr. Oberstar. You have to get it right on the ground, and 
that brings me to the question of the one-pilot versus two-
pilot.
    The information we have is that FAA test pilots were 
opposed to approval of the aircraft for single-pilot operation, 
yet they were overruled. I want you, Mr. Sabatini or you, Mr. 
Hickey to respond to that.
    Mr. Sabatini. Well, let me begin with how the process 
works, sir, if I may.
    Once an airplane has been demonstrated to meet type 
certificate and by design is approved for single-pilot 
operations because engineers have done the study to determine 
that the switches and the controllability of the aircraft is 
suited for that.
    Once that is done, it now needs to be determined how, 
operationally, we will introduce this aircraft. That is the job 
of the Flight Standardization Board. They make determinations 
as to what kind of training is required, what kind of type 
rating should be issued and a host of other responsibilities.
    As Mr. Hickey mentioned and I will reiterate, this process 
that we have observed here lacked much in terms of project 
management and communication.
    What happened with the beginning of the Flight 
Standardization Board is Eclipse went directly to the Flight 
Standardization Board. That will not happen again. In doing 
that, Eclipse presented to the Flight Standardization Board an 
aircraft that had not been demonstrated to conform to type 
design, which is unusual.
    We ended up with three phases of the Flight Standardization 
Board. Phase one was terminated because the airplane could not 
demonstrate, based on the kind of training that our Flight 
Standardization people were receiving, to determine that they 
could safely operate this aircraft as a single pilot.
    They deconvened, and at that point in time is when the 
single pilot issue arose. They met again, and other issues 
arose. It wasn't until the third time that they got together 
that the Flight Standardization Board determined that the work 
load for a single pilot was now acceptable, that the training 
that was being delivered was appropriate for that kind of 
operation.
    I know that pilots have been interviewed who have said that 
it is a high work load. Well, these are the very same pilots 
who have been tested and have demonstrated they are capable and 
competent of operating these airplanes as a single pilot.
    Mr. Oberstar. That latter point, the testing level, is 
extremely important.
    Mr. Sabatini. Absolutely.
    Mr. Oberstar. If you are going to be operating this very 
high-tech aircraft, you really have to know. You have to go 
through a much more rigorous regime.
    Are you saying then that within the FAA this issue of one 
versus two pilots was vigorously debated and resolved in the 
favor of a single pilot?
    Mr. Sabatini. Well, the Flight Standardization Board made 
that determination. The Board alone made the determination.
    Mr. Oberstar. Certainly, from the standpoint of the 
manufacturer, they would much rather sell an aircraft whose 
operational cost was lower because you only have one pilot, not 
two.
    Mr. Sabatini. That is true. But operationally, the Flight 
Standardization Board made recommendations for two types of 
rating for that airplane. One is for a single pilot and the 
appropriate training. Testing and qualification is required.
    The other is for a multi-crew. It has been mentioned that 
DayJet operates as a crew of two.
    I recall long before DayJet even existed, Mr. Iacobucci 
came in and visited with us and told us about his business 
plan. I spoke to him just the other day to verify my 
recollection. He never intended to ever operate as a single 
pilot.
    It has always been his business model for customer reasons 
to operate with a crew of two even though his pilots are being 
issued single-pilot certificates. Their business plan requires 
them to operate as a multi-crew.
    Mr. Oberstar. What is the basis for distinction between 
single-pilot and multi-pilot?
    I will rephrase my question. What are the FAA-established 
distinctions between those two ratings?
    Mr. Sabatini. Well, of course, the training is essential, 
appropriate to the aircraft.
    Mr. Oberstar. But it is for the same aircraft.
    Mr. Sabatini. For the same aircraft. Then there must be, 
for single-pilot, you must have a headset and a couple of other 
things that escape me right now that are mentioned in the 
Airplane Flight Manual and must be available for that kind of 
operation so that it eases the burden on the pilot.
    But let me just say, airplanes are built with many systems. 
I have started in this business as an FAA Inspector. I have 
administered many flight checks.
    I am also a pilot, and I have been given many flight 
checks. I have never had the luxury of operating an airplane 
during those conditions with everything working. You always 
test or are tested when most of the systems fail to determine 
your ability to operate that airplane safely with whatever 
condition exists at that point in time.
    The FAA requirements are very clear in the practical test 
standards, whether it is for an operating rule for Part 135 or 
any other operation. The pilot must demonstrate that he is 
competent and qualified to operate that aircraft alone with 
systems inoperative.
    Mr. Oberstar. Does that also require recurrent training?
    Mr. Sabatini. Absolutely, sir, particularly under 135.
    Mr. Oberstar. Well, I look forward to the commitment you 
have made to reprinting the Customer Service Initiative, unless 
we abolish it altogether in a future legislation, and to the 
interim corrections from lessons learned that Mr. Hickey has 
described and I think with quite earnestness.
    Mr. Chairman, I think it would be appropriate either to 
have an in camera review or a Committee review at a later date 
to assess the follow-up compliance with our own standards.
    Mr. Costello. I think that is an excellent suggestion.
    I had mentioned earlier in the hearing that we expect in 
the not too distant future that we will have the FAA, Eclipse 
and others, other stakeholders here involved come back, sit 
down and discuss what progress has been made relative to future 
action on the part of the FAA and pending issues with the 
aircraft.
    I only have one remaining question, and it is for Mr. 
Haueter.
    You heard Chairman Oberstar's question on certifying the 
aircraft for a single pilot. Given the complexities of the 
aircraft and the fact that the FAA test pilots recommended or 
wanted it not to be certified as single-pilot but two-pilot, do 
you agree with the FAA's decision to certify it as a single-
pilot?
    Mr. Haueter. I don't think I have enough information. 
Certainly the Cessna Citation was certified for single-pilot 
operation. It is not that greatly different than the Eclipse 
necessarily. I don't know all the facts here.
    Mr. Costello. All right, good. Thank you.
    Mr. Hayes, any closing comment?
    If not, let me thank this panel, and let me restate what 
Chairman Oberstar said, Mr. Hickey. We appreciate the fact 
oftentimes people come before the Subcommittee and Full 
Committee and we are used to hearing people deny and push 
responsibility and blame on other people.
    We are pleased to hear you take responsibility for some of 
the things that you think the FAA needs to correct in the 
future regarding when there are people who are objecting 
internally. So we appreciate your honesty.
    I also want to mention, as I mentioned at the earlier 
panel, we had, as you know, current FAA employees who had the 
courage to come here and to speak with us and testify about 
their opinions. There is one former FAA employee and the 
current employees who testified.
    We will be following very closely to make sure that there 
is no retribution towards those employees. I have asked them 
specifically to contact me personally if, in fact, they feel 
that there is retribution, if there is a job reassignment, if 
there is any retribution whatsoever.
    So I believe and I hope that you believe that it is healthy 
for people to come forward and to state their opinions 
regardless if you agree with them or not. I think it 
strengthens the operation, in this case, at the FAA. I hope you 
will respect the fact, as we do, that they had the courage to 
come forward and discuss their differences of opinions with you 
and to state their opinions on the record.
    With that, we again thank you for your testimony, and this 
panel is dismissed. We would ask the next panel to come 
forward, please.
    Members of this next panel are coming forward to be seated. 
I will introduce them: Ms. Peg Billson, President and General 
Manager, Manufacturing Division, Eclipse Aviation Corporation, 
accompanied by Mr. Roel Pieper, the Chief Executive Officer, 
Eclipse Aviation Corporation; and Mr. Clyde Kizer, retired 
aerospace executive.
    Lady and gentleman, if you will come forward, I would ask 
you to remain standing and I will administer the oath, if you 
will.
    We have all three. Is Roel Pieper here?
    Ms. Billson. He had to leave.
    Mr. Costello. He had to leave. Okay.
    If you will raise your right hand please, do you solemnly 
swear that the testimony you give before this Committee in the 
matters now under consideration will be the truth, the whole 
truth and nothing but the truth, so help you, God?
    For the record, please show that both witnesses answered in 
the affirmative.
    First, we thank you for your indulgence here in listening 
to all of the testimony. I am quite certain that you wanted to 
be here, but we had hoped to get to this panel sooner.
    With that, I will recognize Ms. Billson for your testimony.

   TESTIMONY OF PEG BILLSON, PRESIDENT AND GENERAL MANAGER, 
  MANUFACTURING DIVISION, ECLIPSE AVIATION CORPORATION; CLYDE 
               KIZER, RETIRED AEROSPACE EXECUTIVE

    Ms. Billson. Thank you, Mr. Chairman and the Committee.
    I am Peg Billson. I am currently the President and General 
Manager of Eclipse Aviation's Manufacturing Division. Over the 
previous three years, I was the Chief Operating Officer of 
Eclipse Aviation, responsible for the type certification and 
production certificate of the Eclipse 500 jet.
    My background is that I have a Bachelor's and Master's in 
Aerospace Engineering. I am a private pilot, and I have had 25 
years in the industry at McDonnell Douglas, Honeywell and now 
at Eclipse, designing, building and certifying airplanes.
    In fact, I am also an instrument-rated pilot, and I have 
about 80 hours in the Eclipse 500.
    Mr. Roel Pieper, as we stated, was here just until about 
five minutes ago, and he is our current Chairman and CEO of 
Eclipse.
    I would like to address some of the things that I have 
heard here today and read, so I can clear up some 
misconceptions or our perspective of how we believe the process 
went.
    The first is with the Inspector General's report. I think 
it is important to highlight that Eclipse Aviation has not been 
interviewed by the Inspector General. So as we look forward to 
that opportunity, we also are not knowledgeable of what the 
March, 2007 complaint refers to. We have never been shown that. 
We don't know the basis of that.
    We look forward over the coming months to be able to 
participate in that process, so we can clear up what I have 
heard today as a lot of misstatements, misconceptions, 
misunderstandings in the data that I have heard today.
    Specifically, it is not accurate to state that EASA, the 
European certifying agency, has denied certification of this 
airplane. In fact, we are in the middle of the process, and we 
expect it to be completed in the next few weeks.
    When that is completed, it will verify that this airplane 
has been demonstrated to comply with not only the FAA's 
requirements but all of the European Union's requirements as 
well, demonstrating this airplane is safe to fly in not only 
the United States but the European Union nations.
    But the next point I would like to make is that Eclipse 
cooperated fully with all levels of the FAA management through 
our certification processes and through the approval of our 
pilot training program. That would be the type certification 
process, the production certification process and the Flight 
Standards Board.
    Yes, we had challenges. We have been at this for a long 
time. Occasionally, we did encounter lack of understandings, 
disagreements on what the process was going forward. So, when 
we would run into those situations, we would work up the layers 
of levels within the FAA until we could agree or reach 
agreement to both of us that this was the right process to go 
forward.
    I think the most significant or prominent area where this 
was highlighted was during the production certificate. We 
believe it is very rare that new production certificates are 
granted, and so the experience level within the FAA on how to 
accomplish this process is limited.
    And so, throughout the process, there are numerous 
instances where there was different direction, misdirection, 
change in direction on what was required to achieve our 
production certificate. It was only after my inability to get 
that clarity with the head of the Fort Worth certification 
office at that time did we elevate our concerns to the 
Washington headquarters and asked for assistance.
    After they evaluated the situation, they decided to convene 
an independent board of experienced people to work with the 
Fort Worth office and Eclipse Aviation and lead us through the 
process of certifying this airplane or helping us attain our 
production certificate. In fact, it did take eight months after 
we received our type certificate to earn our production 
certificate.
    I certainly respect and appreciate the perspectives of the 
FAA inspectors that are here today and had the courage to come 
forward. It was a very confusing, frustrating time where 
everybody played different roles at different periods of time.
    And so, I think that frustration level that I even 
experienced personally supports the decision to let's bring in 
an independent group of experienced people to help lead all of 
us through this process, which is what they did.
    Let me also talk then briefly about the Flight Standards 
Board and the confusion around the Flight Standards Board who 
ultimately made the single-pilot evaluation determination and 
approved our pilot training program.
    I gave them an immature airplane twice. I won't do that 
again. I am experienced several times in certifying airplanes. 
This was the first time I went through a Flight Standards Board 
process, and it is perfectly logical that I needed to give them 
a type design compliant airplane, so they could cleanly and 
clearly effect their evaluation.
    We had some false starts. It was an inefficient process.
    So I would really characterize today's hearing as a lot of 
people are trying to resurrect years of work by a lot of hard 
people. We are not all remembering it exactly correct.
    But the results were effective. We have a compliant 
airplane, we have a safe airplane, and I am proud of my role on 
the Eclipse 500 program.
    Mr. Costello. Thank you.
    Mr. Kizer.
    Mr. Kizer. Chairman Costello and Members of the 
Subcommittee, thank you for the opportunity to testify today.
    My name is Clyde Richard Kizer, and my statements reflect 
observations, facts and opinions garnered over a 44-year 
technical career in the aerospace industry.
    I realize that the focus of these hearings is on the 
certification of the Eclipse EA-500. My statements today relate 
for the requisite requirement for the concept of alternative 
method of compliance to assume a vibrant environment of 
innovative engineering and technology development for the 
aerospace industry.
    Absent the application of technical vision and the 
exploration of new materials, concepts and processes, our 
Nation will rapidly fall behind in this globally critical 
industry. My comments relate specifically to the need for a 
methodology that allows consideration of alternate means of 
compliance within the regulatory process.
    My experience and training relate predominantly to the 
arena of airline aircraft continued airworthiness, and I will 
focus my comments to that position, but the concepts that I 
discuss have value for all venues of technical development 
albeit with differing practical priorities, frequencies of 
application and regulatory oversight requirements.
    Equally important to the success of the aerospace industry 
as the alternate method of compliance is the development of and 
adherence to minimum standards for regulatory compliance to 
ensure the safety of the aircraft, the public and the national 
airspace system.
    The remarkable safety record of the U.S. air transport 
industry is the result of the robust process of communications, 
coordination and exchange of technical information that exists 
between the operators, the manufacturers and the regulatory 
agency. No single entity within these constituents can assure 
the desired level of safety independently.
    The success of the endeavor depends on effective 
collaboration. The free exchange of technical information 
provides a venue for innovative alternative technical 
resolution of potential problems from differing perspectives of 
responsibility.
    Over time, the process allows a variety of methods for 
technical problem resolution from which it is possible to 
develop a best practices resolution for standardization, 
effectiveness and efficiency. Absent such approach, 
standardization might potentially be achieved by forced 
adherence to the least effective methodology.
    Over decades of commercial air travel, many new 
technologies have been developed to improve the safety and 
efficiency for the traveling public. Emerging technologies 
demand a conservative approach for application, operation and 
regulatory control to assure that the safety of the system is 
not compromised. That conservative approach results in the 
establishment of minimum standards of performance that protect 
the industry while allowing flexibility in the development of 
the new technologies.
    Unfortunately, the term, minimum standards, occasionally 
connotes an atmosphere of laxity when in fact it is just the 
opposite--restrictive set of requirements that must be met in a 
very conservative approach to develop new technologies and/or 
methods for resolution of technical problems.
    It is a general truth that no two aircraft leave the 
manufacturer's production line in exactly the same 
configuration. Additionally, once an aircraft enters service, 
no two aircraft of similar type are in exactly the same 
configuration within a given airline or between the airline 
fleets.
    The responsibility of the airlines is to maintain their 
aircraft so that they conform to type design and type 
certification requirements that were established to assure 
airworthiness for the certification and production of 
commercial aircraft. This requirement for conformance is termed 
continued airworthiness.
    The continued airworthiness process includes incorporation 
of methods to address any action that modifies the original 
type certification requirements such as airworthiness 
directives, supplemental type certificates and so on. The 
industry dedicates considerable technical resources for 
maintenance and engineering activities to meet this 
responsibility.
    When technical problems are defined and addressed by 
manufacturer service bulletins or regulatory requirements, the 
specified means of corrective action frequently requires 
variations due to configuration differences, material 
applications or other considerations.
    When corrective actions are mandated by the FAA, generally 
by issuance of an airworthiness directive, such actions 
frequently include a means to employ differing methods, 
materials and/or timing to accomplish the mandatory action. 
These alternatives are allowed only after approval by the FAA 
Aircraft Certification Office designated in the AD. FAA 
approval for alternative methods must be obtained prior to the 
required date for completion of the action defined in the AD.
    This approach is described as the Alternative Method of 
Compliance or AMOC process. The AMOC process allows 
accommodation for alternatives that might not have been known 
or considered at the time the AD was written. The primary 
requisite for this process rests with determination that the 
alternative provides an acceptable level of safety that is 
equivalent to that required by the AD.
    As a comparison of the viability of the alternative 
methodology, a similar process is allowed during certification 
by longstanding regulation 14 CR 21.21. Now we won't go on that 
because that is the certification process, but it is a similar 
process and it is Equivalent Level of Safety or ELOS.
    It is obvious that the AMOC and the Equivalent Level of 
Safety or ELOS processes allow consideration for differing 
technical expertise, varying operational experiences, new 
technologies and innovative methodologies while protecting the 
safety and efficacy of the air transport system and not 
compromising the responsibility or prerogatives of the 
regulatory authority.
    The intent of the AMOC/ELOS process is to maintain or 
improve the safety of the aircraft and the industry while 
allowing the employment of technical innovation and new 
technologies to resolve technical problems.
    Over many years, the concept of alternative methods of 
compliance has proven to be a safe and effective approach for 
regulatory compliance. The AMOC/ELOS process has provided 
creative alternatives that are crucial to the air transport 
industry, and in my experience it is that these processes are 
equally essential for general aviation.
    Thank you very much.
    Mr. Costello. I thank you, Mr. Kizer.
    The Chair would recognize the Ranking Member for any 
questions that you may have. I only have a few and then a 
statement to make, but I would recognize Mr. Petri.
    Mr. Petri. Well, I want to thank both of you for your 
testimony and for so patiently waiting through the day until we 
reach this point.
    This was a five, almost six-year process for Eclipse, and 
it was a new learning experience, I think, for that 
organization. This is the first certification that you went 
through, is this correct?
    Ms. Billson. This is the first certification that the 
Eclipse Aviation Company went through. It is the fifth 
certification that I have personally been through.
    Mr. Petri. Mr. Kizer, you have over 40 years of experience 
in this whole process, and you obviously know a lot more about 
it than certainly I ever will.
    My concern is we are having to figure out here, and this is 
a kind of small example of it, how to have some standards, make 
sure that we don't get people who are irresponsible into the 
system as suppliers or assemblers or whatever and, at the same 
time, have a very dynamic system that allows new innovation 
into it.
    In that connection, a fellow I had the opportunity to 
listen to give lectures about this named Burt Rutan who is way 
out.
    Mr. Kizer. He is outside the box.
    Mr. Petri. The greatest aviation designer probably, one of 
them in world history, if not.
    He was pleading at the meeting I was at when he was 
entering the competition for this new space vehicle, that it be 
classified not as an airplane but as a spaceship because then 
it wouldn't have to be certified. They don't certify 
spaceships.
    His reason wasn't he wanted to escape any regulation or 
anything. It was that he felt the psychology of defending a 
particular design was exactly opposite of what he was trying to 
build in his organization, which was that every day he wanted 
people to assume that the worst could happen and figure out a 
better and safer way of doing it.
    So they are constantly making what they hope are 
improvements, refinements. It is a very dynamic process.
    He felt once they were trying to define and defend a 
particular design, it changes your mind. You are trying to 
defend why it is safe rather than question how to make it 
safer.
    That would end up stifling innovation and be 
counterproductive to true safety. We would end up with some 
safety innovations that would not be made because of that.
    I don't know if that is worth commenting or not. But what 
we want, don't we, is to have a collaborative where people are 
conspiring to be as innovative and have a safe product at the 
end of the day rather than just playing games on each other and 
not communicating and pretending to meet standards. How do we 
do that?
    Does that make any sense at all to you?
    Mr. Kizer. I would just like to make a general statement in 
that regard.
    The people in this industry who bear the responsibility for 
human lives, whether it is in the military side or the 
commercial side, I have never met anyone who did not bear that 
responsibility with great commitment. No one that has the 
responsibility for safety or for personal lives would make 
decisions that would put those things in jeopardy.
    So, consequently, when we are exploring new technologies, 
we know there is great promise, but we also know that lacking a 
history with those new technologies we have to take a very 
conservative approach to the development of the technologies.
    That sometimes means that we use things in different 
applications other than aircraft and we garner some experience 
with it, but it frequently means that we use the technology in 
lesser modes instead of the primary modes until we develop 
enough history that we can explore the full potential of the 
technology.
    And, we have to demonstrate ahead of time minimum safety 
standards, sometimes in terms of inspection periods and things 
like that, until we garner the experience or limitations on the 
application until we have the experience to take those 
technologies and fully explore their potential.
    Everyone, be it an engineer or a pilot or a mechanic or a 
production guy on the line, all know that when they are working 
with new technology they have to do so in a step by step 
process in order to fully exploit that new technology.
    Mr. Costello. The Chair thanks you, Mr. Petri and now 
recognizes my friend from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, and thank you all for 
being here.
    You have been here a long time. You have heard a lot of 
things. Some are observations. Some are accusations. Some were 
opinions. Some were facts.
    Kind of sum up again, as I asked the last panel, where we 
are with this process and what it means to you as a 
manufacturer in how you would like to see the process proceed, 
again, because the confidence that the world has in our 
aviation and in our regulatory agencies, among other things, 
must come out of this process as being unscathed and still the 
gold standard.
    So just let me offer you time to generalize on what do you 
think we need to do to make sure that this process has been 
most effective today.
    Ms. Billson. Sir, today, a lot of what I have heard is 
confusion between a type certification, a production 
certificate, putting a certificate of airworthiness on an 
airplane and getting approval of a pilot training program. So I 
think that is a lot of the confusion that has come out today.
    One of the other things that has been highlighted is I will 
offer up two thoughts. One, the FAA and industry have to work 
together to drive closure on certifying product. We have to 
work together.
    The FAA, right now, appears to have a very effective 
process where it is the obligation of the manufacturer to come 
forward and say, this is how long I think it is going to take, 
given these sort of assumptions. The FAA comes forward and 
says, given everything I have to do, this is what I can do to 
support you on the time line you want. And you work together to 
negotiate a time line that you are trying to achieve.
    There is always an understanding if something changes, if 
there is a risk, if a test doesn't pass the way you thought it 
was going to do, that is going to affect your time line and you 
are going to adjust it appropriately.
    I think what needs to be highlighted is that there are 
different sets of experiences. So there are some people that 
are experts in Part 25 Certification, some in Part 23, some 
that know how to do production certificates.
    If I would offer up anything, it is maybe the FAA wants to 
approach these types of projects based on pools of experienced 
people, not just assigning them by region.
    Mr. Hayes. Mr. Kizer?
    Mr. Kizer. Well, we are at a state where in many cases the 
knowledge and the experience and the training of the people 
that are required to regulate the industry is frequently behind 
the technology.
    That is not a condemnation of the FAA. That is a reality, 
that the technology moves so fast, that unless you are 
continually being reeducated in universities and self-training, 
it can get ahead of you.
    It is vitally essential that we have a methodology, I 
think, that draws upon the best expertise in the industry, 
wherever it comes from, to help develop the technology.
    If the FAA needs help in the field from a higher level or 
from the engineering group that exceeds their capability, they 
ought to have that authority to seek that assistance. And, if 
it takes bringing people in from the industry or from the 
universities to educate the process, we need to have that as 
well because we quickly, both in the area of composite 
materials and in digital avionics and electronics, are moving 
ahead faster than we can stay educated.
    Mr. Hayes. A quick question, I don't think we touched on it 
today. In a certified repair shop, you have an employee who is 
designated as the Chief Inspector. In the manufacturing and 
production process, do you have a similar employee?
    Mr. Kizer. The big aircraft manufacturers do. I don't know 
about Part 23.
    Mr. Hayes. Do you know, Ms. Billson?
    Ms. Billson. I don't have somebody per se that is 
designated as the Chief Inspector in my production line. I do 
have the people that are the Chief DAR and then leaders 
throughout my quality organization.
    Mr. Hayes. For a minute, I think it would be helpful. There 
have been some specific actions cited: the throttle issue, the 
dual versus single pilot issue, the static port issue. Those 
are the three that come to mind.
    As a follow-on for this, Mr. Chairman, if you would just 
address a letter to the Chairman and a copy to me, what the 
issue was from your perspective from the beginning, how it was 
handled at the time and how it has been ultimately satisfied. 
Again, I think it is good for the product and for the process.
    With that, Mr. Chairman, that pretty well wraps me up 
unless you all would like to add anything else.
    Ms. Billson. We would be more than pleased to do that, sir.
    Mr. Costello. I would agree, Mr. Hayes. As I said, we are 
going to revisit as a result of our discussion to talk about 
what progress has been made.
    You made the statement, Ms. Billson, that the IG has not 
spoken with you.
    This whole hearing and the investigation conducted by the 
Inspector General was about the FAA and the process that the 
FAA is using in the certification process. They obviously 
received complaints from employees and others internally within 
the FAA, and they responded and conducted an investigation.
    This hearing is not about Eclipse. It is about the FAA and 
the process that they use. You just happen to be the product 
that was in the shop at the time, and there are serious 
allegations that were made here at the witness table. You heard 
them yourself.
    It is our goal to provide aggressive oversight to make 
certain that the FAA, in fact, is doing their job. We have seen 
in other areas of the economy what the lack of oversight can 
result.
    It is our hope that, as Mr. Sabatini said today in his 
testimony, that they are going to go back, reassess some of the 
things that they had done, establish a procedure for 
certification in the future, for a new type of aircraft that is 
coming online like the Very Light Jet, to develop procedures to 
get out in front as opposed to reacting.
    So I appreciate your testimony here today. We have some 
other issues that we will be addressing in writing, and I would 
ask if you would comply with Congressman Hayes' request to 
address some of these issues in writing to us. We would 
appreciate that.
    I would give you and Mr. Kizer an opportunity, if you would 
like, for any closing remarks. I would be happy to offer you 
that opportunity.
    Ms. Billson. Well, I think I reinforce and support your 
objective, but I think the purpose of the Inspector General's 
investigation is to get to the facts. And so, Eclipse offers to 
talk with the IG to help clear some of the misstatements and 
the mis-facts that are in the current testimony as I have heard 
it today. So I think that is the most important thing to 
highlight,
    I think the other point we would like to emphasize is that 
we are very proud of the certification of the Eclipse 500 
program and the hard work of the FAA employees. I mean they 
just did a fantastic job on this program. They worked hard, and 
I think in the light of day they are proud of the product that 
they certified and the airplane that is out there right now.
    Of the data we have looked at, we have the best safety 
record of a general aviation that has entered service in the 
last two decades. That doesn't mean we ever acquiesce our 
accountability to continue to drive and improve and react 
rapidly when issues occur.
    It is a complex process executed by a lot of humans. You 
are never going to get it right. So you have the obligation to 
continue to follow up, analyze, work with your customers, 
understand how your airplane is performing and improve it. That 
is what we are committed we will continue to do.
    Thank you, sir.
    Mr. Costello. We thank you.
    Mr. Kizer.
    Mr. Kizer. No further comments, sir.
    Mr. Oberstar. Very good.
    Mr. Petri, unless you have further questions or comments, 
we thank both of you, Ms. Billson and Mr. Kizer, for 
testifying, and this concludes the hearing.
    The Subcommittee will stand adjourned.
    [Whereupon, at 3:33 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] 45108.016
    
    [GRAPHIC] [TIFF OMITTED] 45108.017
    
    [GRAPHIC] [TIFF OMITTED] 45108.018
    
    [GRAPHIC] [TIFF OMITTED] 45108.019
    
    [GRAPHIC] [TIFF OMITTED] 45108.020
    
    [GRAPHIC] [TIFF OMITTED] 45108.021
    
    [GRAPHIC] [TIFF OMITTED] 45108.022
    
    [GRAPHIC] [TIFF OMITTED] 45108.023
    
    [GRAPHIC] [TIFF OMITTED] 45108.024
    
    [GRAPHIC] [TIFF OMITTED] 45108.025
    
    [GRAPHIC] [TIFF OMITTED] 45108.026
    
    [GRAPHIC] [TIFF OMITTED] 45108.027
    
    [GRAPHIC] [TIFF OMITTED] 45108.028
    
    [GRAPHIC] [TIFF OMITTED] 45108.029
    
    [GRAPHIC] [TIFF OMITTED] 45108.030
    
    [GRAPHIC] [TIFF OMITTED] 45108.031
    
    [GRAPHIC] [TIFF OMITTED] 45108.032
    
    [GRAPHIC] [TIFF OMITTED] 45108.033
    
    [GRAPHIC] [TIFF OMITTED] 45108.034
    
    [GRAPHIC] [TIFF OMITTED] 45108.035
    
    [GRAPHIC] [TIFF OMITTED] 45108.036
    
    [GRAPHIC] [TIFF OMITTED] 45108.037
    
    [GRAPHIC] [TIFF OMITTED] 45108.038
    
    [GRAPHIC] [TIFF OMITTED] 45108.039
    
    [GRAPHIC] [TIFF OMITTED] 45108.040
    
    [GRAPHIC] [TIFF OMITTED] 45108.041
    
    [GRAPHIC] [TIFF OMITTED] 45108.042
    
    [GRAPHIC] [TIFF OMITTED] 45108.043
    
    [GRAPHIC] [TIFF OMITTED] 45108.044
    
    [GRAPHIC] [TIFF OMITTED] 45108.045
    
    [GRAPHIC] [TIFF OMITTED] 45108.046
    
    [GRAPHIC] [TIFF OMITTED] 45108.047
    
    [GRAPHIC] [TIFF OMITTED] 45108.048
    
    [GRAPHIC] [TIFF OMITTED] 45108.049
    
    [GRAPHIC] [TIFF OMITTED] 45108.050
    
    [GRAPHIC] [TIFF OMITTED] 45108.051
    
    [GRAPHIC] [TIFF OMITTED] 45108.052
    
    [GRAPHIC] [TIFF OMITTED] 45108.053
    
    [GRAPHIC] [TIFF OMITTED] 45108.054
    
    [GRAPHIC] [TIFF OMITTED] 45108.055
    
    [GRAPHIC] [TIFF OMITTED] 45108.056
    
    [GRAPHIC] [TIFF OMITTED] 45108.057
    
    [GRAPHIC] [TIFF OMITTED] 45108.058
    
    [GRAPHIC] [TIFF OMITTED] 45108.059
    
    [GRAPHIC] [TIFF OMITTED] 45108.060
    
    [GRAPHIC] [TIFF OMITTED] 45108.061
    
    [GRAPHIC] [TIFF OMITTED] 45108.062
    
    [GRAPHIC] [TIFF OMITTED] 45108.063
    
    [GRAPHIC] [TIFF OMITTED] 45108.064
    
    [GRAPHIC] [TIFF OMITTED] 45108.065
    
    [GRAPHIC] [TIFF OMITTED] 45108.066
    
    [GRAPHIC] [TIFF OMITTED] 45108.067
    
    [GRAPHIC] [TIFF OMITTED] 45108.068
    
    [GRAPHIC] [TIFF OMITTED] 45108.069
    
    [GRAPHIC] [TIFF OMITTED] 45108.070
    
    [GRAPHIC] [TIFF OMITTED] 45108.071
    
    [GRAPHIC] [TIFF OMITTED] 45108.072
    
    [GRAPHIC] [TIFF OMITTED] 45108.073
    
    [GRAPHIC] [TIFF OMITTED] 45108.074
    
    [GRAPHIC] [TIFF OMITTED] 45108.075
    
    [GRAPHIC] [TIFF OMITTED] 45108.076
    
    [GRAPHIC] [TIFF OMITTED] 45108.077
    
    [GRAPHIC] [TIFF OMITTED] 45108.078
    
    [GRAPHIC] [TIFF OMITTED] 45108.079
    
    [GRAPHIC] [TIFF OMITTED] 45108.080
    
    [GRAPHIC] [TIFF OMITTED] 45108.081
    
    [GRAPHIC] [TIFF OMITTED] 45108.082
    
    [GRAPHIC] [TIFF OMITTED] 45108.083
    
    [GRAPHIC] [TIFF OMITTED] 45108.084
    
    [GRAPHIC] [TIFF OMITTED] 45108.085
    
    [GRAPHIC] [TIFF OMITTED] 45108.086
    
    [GRAPHIC] [TIFF OMITTED] 45108.087
    
    [GRAPHIC] [TIFF OMITTED] 45108.088
    
    [GRAPHIC] [TIFF OMITTED] 45108.089
    
    [GRAPHIC] [TIFF OMITTED] 45108.090
    
    [GRAPHIC] [TIFF OMITTED] 45108.091
    
    [GRAPHIC] [TIFF OMITTED] 45108.092
    
    [GRAPHIC] [TIFF OMITTED] 45108.093
    
    [GRAPHIC] [TIFF OMITTED] 45108.094
    
    [GRAPHIC] [TIFF OMITTED] 45108.095
    
    [GRAPHIC] [TIFF OMITTED] 45108.096
    
    [GRAPHIC] [TIFF OMITTED] 45108.097
    
    [GRAPHIC] [TIFF OMITTED] 45108.098
    
    [GRAPHIC] [TIFF OMITTED] 45108.099
    
    [GRAPHIC] [TIFF OMITTED] 45108.100
    
    [GRAPHIC] [TIFF OMITTED] 45108.101
    
    [GRAPHIC] [TIFF OMITTED] 45108.102
    
    [GRAPHIC] [TIFF OMITTED] 45108.103
    
    [GRAPHIC] [TIFF OMITTED] 45108.104
    
    [GRAPHIC] [TIFF OMITTED] 45108.105
    
    [GRAPHIC] [TIFF OMITTED] 45108.106
    
    [GRAPHIC] [TIFF OMITTED] 45108.107
    
    [GRAPHIC] [TIFF OMITTED] 45108.108
    
    [GRAPHIC] [TIFF OMITTED] 45108.109
    
    [GRAPHIC] [TIFF OMITTED] 45108.110
    
    [GRAPHIC] [TIFF OMITTED] 45108.111
    
    [GRAPHIC] [TIFF OMITTED] 45108.112
    
    [GRAPHIC] [TIFF OMITTED] 45108.113
    
    [GRAPHIC] [TIFF OMITTED] 45108.114
    
    [GRAPHIC] [TIFF OMITTED] 45108.115
    
    [GRAPHIC] [TIFF OMITTED] 45108.116
    
    [GRAPHIC] [TIFF OMITTED] 45108.117
    
    [GRAPHIC] [TIFF OMITTED] 45108.118
    
    [GRAPHIC] [TIFF OMITTED] 45108.119
    
    [GRAPHIC] [TIFF OMITTED] 45108.120
    
    [GRAPHIC] [TIFF OMITTED] 45108.121
    
    [GRAPHIC] [TIFF OMITTED] 45108.122
    
    [GRAPHIC] [TIFF OMITTED] 45108.123
    
    [GRAPHIC] [TIFF OMITTED] 45108.124
    
    [GRAPHIC] [TIFF OMITTED] 45108.125
    
    [GRAPHIC] [TIFF OMITTED] 45108.126
    
    [GRAPHIC] [TIFF OMITTED] 45108.127
    
    [GRAPHIC] [TIFF OMITTED] 45108.128
    
    [GRAPHIC] [TIFF OMITTED] 45108.129
    
    [GRAPHIC] [TIFF OMITTED] 45108.130
    
    [GRAPHIC] [TIFF OMITTED] 45108.131
    
    [GRAPHIC] [TIFF OMITTED] 45108.132
    
    [GRAPHIC] [TIFF OMITTED] 45108.133
    
    [GRAPHIC] [TIFF OMITTED] 45108.134
    
    [GRAPHIC] [TIFF OMITTED] 45108.135
    
    [GRAPHIC] [TIFF OMITTED] 45108.136
    
    [GRAPHIC] [TIFF OMITTED] 45108.137
    
    [GRAPHIC] [TIFF OMITTED] 45108.138
    
    [GRAPHIC] [TIFF OMITTED] 45108.139
    
    [GRAPHIC] [TIFF OMITTED] 45108.140
    
    [GRAPHIC] [TIFF OMITTED] 45108.141
    
    [GRAPHIC] [TIFF OMITTED] 45108.142
    
    [GRAPHIC] [TIFF OMITTED] 45108.143
    
    [GRAPHIC] [TIFF OMITTED] 45108.144
    
    [GRAPHIC] [TIFF OMITTED] 45108.145
    
    [GRAPHIC] [TIFF OMITTED] 45108.146
    
    [GRAPHIC] [TIFF OMITTED] 45108.147
    
    [GRAPHIC] [TIFF OMITTED] 45108.148
    
    [GRAPHIC] [TIFF OMITTED] 45108.149
    
    [GRAPHIC] [TIFF OMITTED] 45108.150
    
    [GRAPHIC] [TIFF OMITTED] 45108.151
    
    [GRAPHIC] [TIFF OMITTED] 45108.152
    
    [GRAPHIC] [TIFF OMITTED] 45108.153
    
    [GRAPHIC] [TIFF OMITTED] 45108.154
    
    [GRAPHIC] [TIFF OMITTED] 45108.155
    
    [GRAPHIC] [TIFF OMITTED] 45108.156
    
    [GRAPHIC] [TIFF OMITTED] 45108.157
    
    [GRAPHIC] [TIFF OMITTED] 45108.158
    
    [GRAPHIC] [TIFF OMITTED] 45108.159
    
    [GRAPHIC] [TIFF OMITTED] 45108.160
    
    [GRAPHIC] [TIFF OMITTED] 45108.161
    
    [GRAPHIC] [TIFF OMITTED] 45108.162
    
    [GRAPHIC] [TIFF OMITTED] 45108.163
    
    [GRAPHIC] [TIFF OMITTED] 45108.164
    
    [GRAPHIC] [TIFF OMITTED] 45108.165
    
    [GRAPHIC] [TIFF OMITTED] 45108.166
    
    [GRAPHIC] [TIFF OMITTED] 45108.167
    
    [GRAPHIC] [TIFF OMITTED] 45108.168
    
    [GRAPHIC] [TIFF OMITTED] 45108.169
    
    [GRAPHIC] [TIFF OMITTED] 45108.170
    
    [GRAPHIC] [TIFF OMITTED] 45108.171
    
    [GRAPHIC] [TIFF OMITTED] 45108.172
    
    [GRAPHIC] [TIFF OMITTED] 45108.173
    
    [GRAPHIC] [TIFF OMITTED] 45108.174
    
    [GRAPHIC] [TIFF OMITTED] 45108.175
    
    [GRAPHIC] [TIFF OMITTED] 45108.176
    
    [GRAPHIC] [TIFF OMITTED] 45108.177
    
    [GRAPHIC] [TIFF OMITTED] 45108.178
    
    [GRAPHIC] [TIFF OMITTED] 45108.179
    
    [GRAPHIC] [TIFF OMITTED] 45108.180
    
    [GRAPHIC] [TIFF OMITTED] 45108.181
    
    [GRAPHIC] [TIFF OMITTED] 45108.182
    
    [GRAPHIC] [TIFF OMITTED] 45108.183
    
    [GRAPHIC] [TIFF OMITTED] 45108.184
    
    [GRAPHIC] [TIFF OMITTED] 45108.185
    
    [GRAPHIC] [TIFF OMITTED] 45108.186
    
    [GRAPHIC] [TIFF OMITTED] 45108.187
    
    [GRAPHIC] [TIFF OMITTED] 45108.188
    
    [GRAPHIC] [TIFF OMITTED] 45108.189
    
    [GRAPHIC] [TIFF OMITTED] 45108.190
    
    [GRAPHIC] [TIFF OMITTED] 45108.191
    
    [GRAPHIC] [TIFF OMITTED] 45108.192
    
    [GRAPHIC] [TIFF OMITTED] 45108.193
    
    [GRAPHIC] [TIFF OMITTED] 45108.194
    
    [GRAPHIC] [TIFF OMITTED] 45108.195
    
    [GRAPHIC] [TIFF OMITTED] 45108.196
    
    [GRAPHIC] [TIFF OMITTED] 45108.197
    
    [GRAPHIC] [TIFF OMITTED] 45108.198
    
    [GRAPHIC] [TIFF OMITTED] 45108.199
    
    [GRAPHIC] [TIFF OMITTED] 45108.200
    
    [GRAPHIC] [TIFF OMITTED] 45108.201
    
    [GRAPHIC] [TIFF OMITTED] 45108.202
    
    [GRAPHIC] [TIFF OMITTED] 45108.203
    
    [GRAPHIC] [TIFF OMITTED] 45108.204
    
    [GRAPHIC] [TIFF OMITTED] 45108.205
    
    [GRAPHIC] [TIFF OMITTED] 45108.206
    
    [GRAPHIC] [TIFF OMITTED] 45108.207
    
    [GRAPHIC] [TIFF OMITTED] 45108.208
    
    [GRAPHIC] [TIFF OMITTED] 45108.209
    
    [GRAPHIC] [TIFF OMITTED] 45108.210
    
    [GRAPHIC] [TIFF OMITTED] 45108.211
    
    [GRAPHIC] [TIFF OMITTED] 45108.212
    
    [GRAPHIC] [TIFF OMITTED] 45108.213
    
    [GRAPHIC] [TIFF OMITTED] 45108.214
    
    [GRAPHIC] [TIFF OMITTED] 45108.215
    
    [GRAPHIC] [TIFF OMITTED] 45108.216
    
    [GRAPHIC] [TIFF OMITTED] 45108.217
    
    [GRAPHIC] [TIFF OMITTED] 45108.218
    
    [GRAPHIC] [TIFF OMITTED] 45108.219
    
    [GRAPHIC] [TIFF OMITTED] 45108.220
    
    [GRAPHIC] [TIFF OMITTED] 45108.221
    
    [GRAPHIC] [TIFF OMITTED] 45108.222
    
    [GRAPHIC] [TIFF OMITTED] 45108.223
    
    [GRAPHIC] [TIFF OMITTED] 45108.224
    
    [GRAPHIC] [TIFF OMITTED] 45108.225
    
    [GRAPHIC] [TIFF OMITTED] 45108.226
    
    [GRAPHIC] [TIFF OMITTED] 45108.227
    
    [GRAPHIC] [TIFF OMITTED] 45108.228
    
    [GRAPHIC] [TIFF OMITTED] 45108.229
    
    [GRAPHIC] [TIFF OMITTED] 45108.230
    
    [GRAPHIC] [TIFF OMITTED] 45108.231
    
    [GRAPHIC] [TIFF OMITTED] 45108.232
    
    [GRAPHIC] [TIFF OMITTED] 45108.233
    
    [GRAPHIC] [TIFF OMITTED] 45108.234
    
    [GRAPHIC] [TIFF OMITTED] 45108.235
    
    [GRAPHIC] [TIFF OMITTED] 45108.236
    
    [GRAPHIC] [TIFF OMITTED] 45108.237
    
    [GRAPHIC] [TIFF OMITTED] 45108.238
    
    [GRAPHIC] [TIFF OMITTED] 45108.239
    
    [GRAPHIC] [TIFF OMITTED] 45108.240
    
    [GRAPHIC] [TIFF OMITTED] 45108.241
    
    [GRAPHIC] [TIFF OMITTED] 45108.242
    
    [GRAPHIC] [TIFF OMITTED] 45108.243
    
    [GRAPHIC] [TIFF OMITTED] 45108.244
    
    [GRAPHIC] [TIFF OMITTED] 45108.245
    
    [GRAPHIC] [TIFF OMITTED] 45108.246
    
    [GRAPHIC] [TIFF OMITTED] 45108.247
    
    [GRAPHIC] [TIFF OMITTED] 45108.248
    
    [GRAPHIC] [TIFF OMITTED] 45108.249
    
    [GRAPHIC] [TIFF OMITTED] 45108.250
    
    [GRAPHIC] [TIFF OMITTED] 45108.251
    
    [GRAPHIC] [TIFF OMITTED] 45108.252
    
    [GRAPHIC] [TIFF OMITTED] 45108.253
    
    [GRAPHIC] [TIFF OMITTED] 45108.254
    
    [GRAPHIC] [TIFF OMITTED] 45108.255
    
    [GRAPHIC] [TIFF OMITTED] 45108.256
    
    [GRAPHIC] [TIFF OMITTED] 45108.257
    
    [GRAPHIC] [TIFF OMITTED] 45108.258
    
    [GRAPHIC] [TIFF OMITTED] 45108.259
    
    [GRAPHIC] [TIFF OMITTED] 45108.260
    
    [GRAPHIC] [TIFF OMITTED] 45108.261
    
                                    

</pre></body></html>
